<html>
<title> - VARIOUS PRESIDENTIAL NOMINATIONS FOR THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 107-629]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-629
 
VARIOUS PRESIDENTIAL NOMINATIONS FOR THE DEPARTMENT OF VETERANS AFFAIRS
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION




                               __________

                              MAY 16, 2001

                               __________

      Printed for the use of the Committee on Veterans' Affairs 



                        U.S. GOVERNMENT PRINTING OFFICE
81-403                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON VETERANS' AFFAIRS

                 ARLEN SPECTER, Pennsylvania, Chairman

STROM THURMOND, South Carolina       JOHN D. ROCKEFELLER IV, West 
FRANK H. MURKOWSKI, Alaska           Virginia
JAMES M. JEFFORDS, Vermont           BOB GRAHAM, Florida
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                PAUL WELLSTONE, Minnesota
TIM HUTCHINSON, Arkansas             PATTY MURRAY, Washington
                                     ZELL MILLER, Georgia
                                     E. BENJAMIN NELSON, Nebraska

           William F. Tuerk, Chief Counsel and Staff Director

                William E. Brew, Minority Chief Counsel

                                  (ii)

  







                            C O N T E N T S

                               __________

                              May 16, 2001

                                SENATORS

                                                                   Page
Collins, Hon. Susan M., U.S. Senator from Maine, prepared 
  statement......................................................     5
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas, prepared 
  statement......................................................     3
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia, 
  prepared statement.............................................     1
Specter, Hon. Arlen, U.S. Senator from Pennsylvania, prepared 
  statement......................................................     5

                               WITNESSES

Cragin, Maureen Patricia, nominee for Assistant Secretary for 
  Public and Intergovernmental Affairs, Department of Veterans 
  Affairs........................................................    46
    Prepared statement...........................................    47
    Questionnaire for Presidential nominees......................    47
    Response to written questions submitted by Hon. Arlen Specter    50
Higgins, Robin L., nominee for Under Secretary for Memorial 
  Affairs, Department of Veterans Administration.................    30
    Prepared statement...........................................    30
    Questionnaire for Presidential nominees......................    31
    Response to written questions submitted by Hon. Arlen Specter    33
Lozada, Jacob, nominee for Assistant Secretary for Human 
  Resources and Administration, Department of Veterans Affairs...    58
    Prepared statement...........................................    59
    Questionnaire for Presidential nominees......................    60
    Response to written questions submitted by Hon. Arlen Specter    62
Mackay, Leo S., Jr., nominee to be Deputy Secretary of Veterans 
  Affairs........................................................     7
    Prepared statement...........................................     7
    Questionnaire for Presidential nominees......................     8
    Response to written questions submitted by Hon. Arlen Specter    10
Mansfield, Gordon H., nominee for Assistant Secretary for 
  Congressional and Legislative Affairs, Department of Veterans 
  Affairs........................................................    71
    Prepared statement...........................................    72
    Questionnaire for Presidential nominees......................    72
    Response to written questions submitted by Hon. Arlen Specter    74

                                 (iii)

  




VARIOUS PRESIDENTIAL NOMINATIONS FOR THE DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                        WEDNESDAY, MAY 16, 2001

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SR-418, Russell Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Present: Senators Specter, Rockefeller, Wellstone, and 
Nelson.
    Also present: Senators Hutchison of Texas and Collins.
    Chairman Specter. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs will now proceed with nomination 
hearings.
    We are honored this morning to have two of our colleagues 
to provide introductions. And before turning to Senator 
Hutchison and Senator Collins, let me yield to the 
distinguished Ranking Member, Senator Rockefeller, for whatever 
he chooses to say.
    Senator Rockefeller. Do you have an opening statement?
    Chairman Specter. I do, but I am going to put it in the 
record. I want to turn to our colleagues as soon as we can.
    Senator Rockefeller. How shall I react to that?
    Susan, I will take your advice. Shall I give my opening 
statement, which is brilliant but long?
    Senator Collins. Absolutely.
    Senator Rockefeller. I think, in fact, I will do, Susan, 
what you are thinking, and that is----
    [Laughter.]
    Senator Rockefeller [continuing]. That I will not give it 
but borrow from it as I question. I know that is what you and 
Kay Bailey Hutchison were thinking. I will put it in the 
record, Mr. Chairman.
    [The prepared statement of Senator Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator From 
                             West Virginia

    I join Chairman Specter in welcoming our nominees, their 
family members, and friends to today's confirmation hearing. 
The large number of nominees being considered at this single 
hearing is a bit unusual, but I am certain that the nominees 
are pleased that the Committee is moving so quickly to consider 
them and to forward their nominations to the full Senate.
    If all of you are confirmed--and at this time, I know of no 
impediment to your confirmation--you will face, individually 
and collectively, many challenges as part of Secretary 
Principi's team at VA. I'll highlight just a few--first to you 
as a group and then to each of you individually.
    The overarching challenge you all will face in your new 
positions is to become, with Secretary Principi and the other 
top managers at VA, a true team, working together to make VA as 
good as it can be. You must find ways to integrate new 
technology and the Department's traditional commitment to 
veterans to meet the legitimate needs and expectations of the 
ever-changing veterans population.
    To this end, the single biggest challenge will be to truly 
function as one VA. Individual veterans and all who deal with 
the Department must see a single entity, not disparate elements 
sharing little more than a name.
    One specific challenge that I believe touches each of you 
in some way is to achieve maximum cooperation between VA and 
the organizations with which you deal, most particularly other 
units of government. Nowhere is this challenge greater than 
with the Department of Defense. We no longer have the luxury--
if we ever did--of allowing the federal departments who deal 
most directly with those who serve in the Armed Forces to act 
as though there is no real need for cooperation.
    VA and DoD simply must work together--for efficiency, for 
effectiveness, and to best serve those who serve our nation. I 
know that Secretary Principi is committed to seeing progress on 
this front, and I believe that each of you will have a role to 
play in that effort.
    Now I'll highlight some brief, specific challenges to each 
of you. Please don't suppose that this is an exhaustive list. 
Rather, I see it as a starting point for further discussions.
    Dr. Mackay, as the nominee for Deputy Secretary, you, of 
course, have the broadest challenge, as you will surely be 
expected to touch all parts of the Department. What will be 
most vital is that you bring the management skills and 
experience you have developed, especially in your recent time 
in the corporate world, to bring to bear on the management of 
VA. If VA is to function as I know we all want it to function, 
it must, first and foremost, be well managed. Working with 
Secretary Principi, you must be the one to see that that 
happens.
    Ms. Higgins, the National Cemetery Administration is in the 
midst of a huge increase in demand and in scrutiny. You are 
fortunate to inherit an excellent career staff, but you must 
work very hard to figure where you want to take NCA and then 
work with the Congress and the veterans' community to begin to 
realize that vision. As you well know, nothing happens quickly 
in government--yet the need for vision and for action in the 
area of memorial affairs is now.
    Dr. Lozada, VA must be able to attract and retain the very 
best employees. VA's workforce is very much in flux right now, 
with many, many new demands. I look to you to work with the 
three departmental administrations and the other elements in VA 
to make the prospect of working for VA as attractive and 
appealing as it can be. VA must also be forward thinking on the 
question of finding and training new employees as older workers 
near retirement age. I am particularly interested in seeing if 
VA can assume a leadership role in the area of nursing, to help 
find ways to address the shortage of nursing personnel. Also, I 
think your experience during your Army career may be of 
particular importance in the effort to improve VA/DoD 
cooperation.
    Mr. Mansfield--Gordon--your biggest challenge will be to 
use your great skills honed over the years as a staunch 
advocate now to help educate and persuade the Congress to work 
with the leadership of the Department on fulfilling its vision. 
Your wealth of experience and personal credibility will be 
great assets in that effort. I know we will be able to count on 
you for timely and forthright advice and counsel.
    Ms. Cragin, on the public affairs side of your position, I 
believe your greatest challenge will be to educate those who do 
not know the veterans' world about two things: first, the vital 
role military veterans have played, and continue to play, in 
the development of our nation; and second, the particulars of 
VA programs and services. Far too often, the only news about VA 
is bad news, thereby preventing the public from knowing about 
the many successes VA enjoys. With respect to intergovernmental 
affairs, you have a great responsibility to promote and advance 
VA's homeless initiatives. I know Secretary Principi shares the 
commitment of so many of us in Congress to aggressively attack 
the problem of homelessness in the veterans' population. Much 
has been done on that front, but more must be done.
    As I noted earlier, this list of challenges you each will 
face in your new positions, assuming confirmation, is far from 
complete, but it gives you some sense of my immediate concerns 
and priorities. I look forward to working with each of you in 
the months ahead.
    Thank you, Mr. Chairman.

    Chairman Specter. Thank you very much, Senator Rockefeller.
    Protocol requires the Chairman to speak and the Ranking 
Member to speak. And now that we have both spoken, when 
Senators are here for introductions, we try to expedite that as 
much as possible on the accurate presumption that you are very 
busy.
    Senator Hutchison, on the basis of seniority, I will ask 
you to speak first.
    Senator Hutchison. Thank you, Mr. Chairman. I appreciate it 
because I do have another nominee in another committee at this 
exact time that I want to introduce. But I wanted to be here 
especially to introduce to you Dr. Leo Mackay and his wife, 
Heather, who are Texans. Dr. Mackay has been nominated to be 
Deputy Secretary at the Department of Veterans Affairs. I can 
truly say to you, having done a lot of introductions lately for 
this administration, that this man's qualifications and 
background and resume are so outstanding that I feel I must 
tell you many of the key points, but I have never seen anyone 
who has blazed as many trails as Dr. Leo Mackay and I want you 
to know about this incredible individual.
    Dr. Mackay has a master's degree in public policy from 
Harvard University. He has a Ph.D. in political and economic 
analysis from Harvard University. He was a Harvard MacArthur 
Scholar, a graduate Prize Fellow, and a Research Fellow with 
the Center for Science and International Affairs.
    He also was a Top Gun Navy pilot. He is a graduate of the 
Naval Academy where he was Secretary of the Navy Distinguished 
Midshipman graduate. He then went on to complete the pilot 
training, where he graduated at the top of his class, to become 
an F-14 pilot. As a member of the Fighter Squadron 11, he spent 
3 years completing operational deployments to the North 
Atlantic, Mediterranean, and Indian Ocean. From 1993 to 1995, 
he served in the Office of the Secretary of Defense as a 
Military Assistant to the Assistant Secretary for International 
Security Policy. To this day, he is still the youngest officer 
ever to have served as military assistant to an assistant 
secretary.
    Dr. Mackay left active duty Naval service in 1995 for the 
corporate staff of Lockheed Martin and later joined Bell 
Helicopter in 1997. Today, he is vice president of their 
aircraft services business unit.
    I believe that he has certainly shown his commitment to 
public service. I think that we so need in the Department of 
Veterans Affairs, and I believe we have in the Secretary and 
will now have in the Deputy Secretary, is real caring for our 
veterans, for those who have served our country that I think is 
so important. We need to take care of these people, we need to 
keep the promises that we have made to them, and we need to 
honor them for being willing to serve. And that is what the 
Veterans Administration is there to do. And I think with 
Secretary Principi's leadership and the leadership of Dr. 
Mackay, we will fulfill the mission of the Veterans 
Administration.
    I thank you and I commend him to you totally.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator From 
                                 Texas

    It is such an honor to be here today to introduce Dr. Leo 
Mackay, Jr. as the nominee for Deputy Secretary of the 
Department of Veterans Affairs. It's always a pleasure to 
witness a dear friend--and especially one who is a Texan!--
receive recognition for all of his hard work and efforts.
    Dr. Mackay has blazed trails at every stage of his life. In 
fact, he probably has one of the most unusual resumes you'll 
see for a deputy secretary candidate!
    Not only does he have a master's degree in public policy 
from the Harvard University Kennedy School of Government. Not 
only does he have a Ph.D. in political and economic analysis 
from Harvard University Graduate School of Arts and Sciences. 
Not only was he a Harvard MacArthur Scholar, a Graduate Prize 
Fellow, and a Research Fellow at the Center for Science and 
International Affairs. He was also a Top Gun navy pilot.
    He is a graduate of the Naval Academy, where he was a 
Secretary of the Navy Distinguished Midshipman Graduate. He 
then went on to complete pilot training, where he graduated at 
the top of his class, to become an F-14 pilot. As a member of 
Fighter Squadron Eleven, Dr. Mackay spent three years 
completing operational deployments to the North Atlantic, 
Mediterranean, and Indian Ocean.
    From 1993 to 1995, Dr. Mackay served in the Office of the 
Secretary of Defense as a military 1assistant to the Assistant 
Secretary of Defense for International Security Policy. To this 
day, he is still the youngest officer ever to have served as 
military assistant to an Assistant Secretary in OSD history.
    Dr. Mackay left active duty naval service in 1995 for the 
corporate staff of Lockheed Martin and then joined Bell 
Helicopter in 1997. Currently he is vice president of their 
Aircraft Services Business Unit.
    Most important though, at least in my book, is that Dr. 
Mackay is a native of San Antonio, the second largest city in 
the great state of Texas.
    Dr. Mackay's wealth of knowledge and experience more than 
qualifies him for this position. But more important than his 
professional background is his personal commitment, his vision, 
and his character. Throughout his career he has been able to 
not only overcome obstacles and challenges, but also to 
empathize with those around him. And, especially pertinent to 
this situation, he is a veteran and he understands the needs of 
our veterans community.
    It is my honor to introduce my friend Leo Mackay, and to 
encourage all of you to support his nomination as Deputy 
Secretary of the Department of Veterans Affairs. Fort Worth's 
loss will be Washington's gain.
    Thank you.

    Chairman Specter. Thank you very much for coming, Senator 
Hutchison, and for those words of suggestion to the committee. 
We shall listen very closely.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman, Senator 
Rockefeller, Senator Wellstone. I am delighted to be here this 
morning. It is a great honor to introduce Maureen Cragin to you 
as she is an outstanding selection to be the next Assistant 
Secretary for Public and Intergovernmental Affairs for the VA. 
I applaud the President for this nomination, and I respectfully 
urge the committee to act quickly on her confirmation.
    Maureen's impressive record, as you will see, really speaks 
for itself. She is a graduate of the U.S. Naval Academy, she 
has served with distinction as a naval officer, and she has had 
extensive experience in public affairs both in the military and 
in civilian, governmental positions. She is also a member of 
Disabled American Veterans and other service organizations 
which advocate so effectively for the interests of those who 
have served our Nation in uniform.
    Maureen also has had the good judgment to marry a Mainer, 
Charlie Cragin. They maintain a home in Raymond, ME, and 
frequently return to our great State.
    This committee has helped to ensure that our Nation keeps 
faith with its solemn obligations to our veterans. But in order 
to continue to do this, we need talented, capable, experienced 
people at the VA. Maureen Cragin is such an individual. She has 
a true dedication to public service. After she left her job at 
the Hill, she went to work for a defense contractor for a brief 
while. But she found that inevitably the call of public service 
caused her to return to Government work. So I am sure that this 
committee will be very proud of its action if it chooses to 
confirm her.
    I thank you for allowing me the opportunity to be here this 
morning and for your courtesies in allowing us to go first. 
Thank you.
    [The prepared statement of Senator Collins follows:]

  Prepared Statement of Hon. Susan M. Collins, U.S. Senator From Maine

    Mr. Chairman, Senator Rockefeller, members of the 
Committee, it is an honor to introduce Maureen Cragin to you, 
as she is an outstanding selection to be the next Assistant VA 
Secretary for Public and Intergovernmental Affairs. I applaud 
President Bush for this nomination, and I respectfully urge the 
Committee to act quickly on her confirmation.
    Maureen's impressive record, as you will see, speaks for 
itself. She is a graduate of the U.S. Naval Academy; she has 
served with distinction as a naval officer, and she has had 
extensive experience in public affairs--both in the military 
and in civilian governmental positions. She is also a member of 
Disabled American Veterans, and other service organizations 
which advocate so effectively for the interests of those who 
have served our nation in uniform.
    Maureen also had the good judgment to marry a Mainer, 
Charlie Cragin. They maintain a home in Raymond, Maine, and 
return frequently to our great State.
    Our nation must always keep faith with its solemn 
obligations to our veterans. In order to do this, we need 
talented, capable, and experienced people at the Department of 
Veterans Affairs. Maureen Cragin is such a person. I am sure 
that this Committee will be proud of its action if it chooses 
to confirm her. Mr. Chairman, thank you again for allowing me 
to be here this morning.

    Chairman Specter. Thank you very much, Senator Collins. 
Thank you for coming and we shall weigh your words very 
heavily.
    We have expedited these hearings at the request of 
Secretary Principi because we know how necessary it is to have 
these important positions filled. We have held this hearing on 
an expedited basis, and it is our intention to have these 
confirmations completed, if at all possible, before we break 
for recess. We did the same thing with VA's nominated General 
Counsel.
    I am going to put my full statement in the record.
    [The prepared statement of Chairman Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                              Pennsylvania

    Good morning, ladies and gentlemen. It is a pleasure for me 
to be here to welcome the highly-capable nominees who will 
testify before the Committee this morning. It is also a 
pleasure for me to welcome two Senate colleagues to the 
Committee's Hearing Room. Senator Kay Bailey Hutchison of Texas 
graces us with her presence to introduce Dr. Leo S. Mackay, 
most recently a resident of Mansfield, Texas, who has been 
nominated to serve as Deputy Secretary of VA. And Senator Susan 
Collins of Maine has joined us to introduce Mrs. Maureen P. 
Cragin, a resident of both Maine and the District of Columbia, 
who has been nominated to serve as Assistant Secretary of VA 
for Public and Intergovernmental Affairs. I welcome you, 
Senators. And I welcome the five nominee-witnesses.
    This is an extraordinary group. Two of the witnesses will 
have their backgrounds and qualifications summarized by the 
Senators who will introduce them. The other three will not be 
introduced by their home-State Senators--but no one should draw 
a negative inference from that. I will have the pleasure of 
summarizing for the Committee their backgrounds.
    Ms. Robin Higgins is already known to the Committee's 
members since she served in the Labor Department's Veterans 
Employment and Training Service during the first Bush 
Administration, and has served Governor Jeb Bush since January 
1999 as the Executive Director of the Florida Department of 
Veterans' Affairs. And all will remember--with anguish and 
outrage--the setting in which we have also come to know Mrs. 
Higgins. It was her husband, Colonel William R. (``Rich'') 
Higgins, USMC, who was struck down by terrorists in Lebanon in 
1989 as a supposed spy, it was said, for a ``criminal America 
and the Zionist enemy.'' We have mourned with you, Mrs. 
Higgins, since Rich was struck down--but we can only imagine 
your suffering. I am honored to join you in keeping the memory 
of your husband's service alive.
    Mr. Gordon Mansfield served his country in Vietnam with 
distinction and valor similar to Colonel Rich Higgins'. On his 
second tour in Vietnam as a young 1st Lieutenant and Rifle 
Company Commander in the 101st Airborne Division, was hit by 
rifle fire twice during a three day period during the Tet 
offensive in 1968. This service earned him the Distinguished 
Service Cross, the Bronze Star, and two Purple Hearts, and the 
second ``hit'' he sustained during Tet placed him in the 
wheelchair he occupies today. Mr. Mansfield will join VA--and I 
do expect that he will be confirmed--after a distinguished 
career as a lawyer and veterans advocate for the Paralyzed 
Veterans of America where he served, most recently, as 
Executive Director.
    Finally, we turn to Dr. Jacob Lozada. Dr. Lozada, like Mr. 
Mansfield is an Army veteran. But he served for over 25 years 
as an Army officer--the majority of those years as an officer 
in the Army's Medical Administration Service. He retired from 
active military service in 1993 and, since then, has served in 
the private sector as a management consultant focusing on 
health care management issues. He has a Masters Degree in Heath 
Care Administration and a Ph.D. in Education, and is a Fellow 
in the prestigious American College of Healthcare Executives. 
These qualifications are directly relevant to the challenges 
facing VA health care today--and they are qualifications sorely 
needed by VA at the senior levels. Welcome, Dr. Lozada.
    I now turn to the witnesses and ask that they provide us 
with brief statements.

    Chairman Specter. I would yield now again to you, Senator 
Rockefeller.
    Senator Rockefeller. I have already done that, Mr. 
Chairman.
    Chairman Specter. OK. If you all will rise and raise your 
right hands, I would appreciate it. Do you solemnly swear that 
the testimony you will give before the Senate Veterans' 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    [Witnesses affirm.]
    Chairman Specter. You may be seated.
    Senator Wellstone. Mr. Chairman, since I will have to leave 
early, can I in 10 seconds say that I just came here to show my 
strong support for these excellent nominees. Secretary Principi 
has done an outstanding job. How about that for brevity. 
[Laughter.]
    Chairman Specter. Right. [Laughter.]
    Senator Wellstone. That is even better from you.
    Chairman Specter. That was a direction, not a 
characterization. [Laughter.]
    We welcome Mr. Leo Mackay, vice president of the Aircraft 
Services Business Unit of Bell Helicopter. Mr. Mackay has 
general management responsibility for the company's commercial 
sales, worldwide distribution logistics, aircraft completions, 
and revenue. He is a native of Texas, and is a 1983 graduate of 
the Naval Academy. We have two graduates from the Naval Academy 
already iconfirmed; we are getting a little heavy on Annapolis, 
but I am sure for good cause. He has a very distinguished 
academic record, a Ph.D. in political and economic analysis 
from the Kennedy School of Government, and a very extensive 
resume which we will put in the record, Dr. Mackay, in the 
interest of proceeding with your hearing.
    We welcome any comments you care to make at this time, Dr. 
Mackay.

STATEMENT OF LEO S. MACKAY, JR., NOMINEE TO BE DEPUTY SECRETARY 
                      OF VETERANS AFFAIRS

    Mr. Mackay. Following the precedent established by you, Mr. 
Chairman, and the Ranking Member, for brevity I will submit my 
opening statement to the record. I would just like to say that 
I am very honored to appear before this committee today as a 
designee of President Bush. I am also very honored to be, if I 
am confirmed, in partnership with Secretary Principi. I have 
great confidence in his leadership and we have already begun to 
establish a rapport that will blossom I think into a true 
partnership.
    I am ever grateful to my wife, Heather, who is with us 
today, and to my children Sarah and Josiah for allowing me to 
take them from the paradise we call Texas back to the DC area 
for public service.
    I look forward, if confirmed, to serving with not only 
Secretary Principi, but with the fine people at Veterans 
Affairs, with the veteran service organizations that are so 
necessary and vital to delivering benefits and services to our 
veterans, and to the members of this committee, its counterpart 
on the House side, and the appropriators.
    Once again, I am deeply honored to be here today. And I 
look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Mackay follows:]
    Prepared Statement of Leo S. Mackay, Jr., Nominee To Be Deputy 
                     Secretary of Veterans Affairs
    Mr. Chairman, I am honored to appear before you and the members of 
the committee today as President Bush's designee to be Deputy Secretary 
of Veterans Affairs. Military service is an honored tradition in my 
family. My father made a career of service in the Air Force, and my two 
older brothers served in the Army--one made it a career. I was proud to 
serve in our nation's Navy for twelve years. Through uncles and 
cousins, my family also includes a doughboy who saw duty in France in 
World War I, a soldier with Patton's Third Army in WWII, and veterans 
of the Korean and Vietnam conflicts. Our nation's veterans are not an 
abstraction for me, they are an integral part of my family and a vital 
part of my being.
    I am especially indebted to President Bush for the opportunity to 
serve in his administration. I think the President has signaled very 
qlearly the high priority he places on the well being of this country's 
veterans. All veterans, and all those who serve and care about them, 
will benefit from his clear and steady leadership.
    Veterans will also benefit from the leadership of Secretary 
Principi. He is a man who has, in the short time I have known him, 
deeply impressed me with his veterans and the institution that exists 
to serve them. We have already struck up a healthy working relationship 
and established a close rapport. He has made it clear that the only 
filter for all decisions is the greater good of veterans--that's a good 
standard. The Secretary has also begun to lay out and pursue a clear 
and concise agenda. I look forward to serving alongside him on behalf 
of America's veterans.
    Perhaps the greatest debt I owe, however, is to my wife Heather and 
our children, Sarah and Josiah. Without their support, warmth, and love 
it would be impossible to accept this challenge. I want to thank them 
for their willingness to move from the paradise we call Texas back to 
the D.C. area, and to put up with the demands of public service. Like 
all husbands in my position, I can never repay nor scarcely acknowledge 
the true dimensions of the debt I owe to my wife for gracing my life. I 
do hope, however, that the mere mention of that fact, in this setting, 
will tell her again of my devotion and love. I also hope that my 
nomination will serve as an inspiration to my children: to spur them 
into episodes, if not a life, of public service.
    The Department of Veterans Affairs finds its most eloquent mission 
statement in the words of President Lincoln, ``to care for him who 
shall have borne the battle, and for his widow and his orphan.'' It is 
a testament to the generosity and largeness of spirit of the American 
people that this great organization exists to provide benefits and 
services to those who have served all of us so well. I am beginning to 
get to know the people of the Department . . . and I like what I see 
very much. There are many able, eager, and knowledgeable professionals. 
I look forward to the day when I may be privileged to call them 
colleagues.
    The Department is also supported by an invaluable network of 
Veterans Service Organizations that are an integral part of a team 
dedicated to the well being of our veterans. I look forward especially, 
should the Senate consent to the judgment of the President, to working 
with the fine professionals and volunteers of these organizations.
    Finally, I recognize the critical oversight role of both this 
committee and the House Veterans Affairs Committee. They have provided 
leadership and support to VA and veterans programs. You have my 
commitment that I will work with you to achieve a common goal of 
serving veterans in a prompt, efficient and dedicated manner. Together 
we must tackle a diverse set of issues: reducing the large backlog of 
benefits claims; defining a clear overarching information technology 
architecture with uniform standards and metrics; coordinating with the 
DoD healthcare system to deliver ever-greater efficiencies and savings 
while maintaining the distinctive character of the VA system; 
rationalizing and updating the capital infrastructure and physical 
plant; attracting and retaining a quality workforce imbued with 21st 
century skills and motivated for career service. All of these, and so 
many more, are pressing needs of the Department.
    I am not a long-service veteran of the Department of Veterans 
Affairs. I do not have great detailed knowledge of the Department's 
programs, people, and culture. But, I will learn . . . and quickly. I 
do have, however, the perspective of the outsider and the experience of 
having been in a number of organizational and cultural settings. 
Secretary Principi and I will undoubtedly have to make some very tough 
decisions, and quickly. I commit to you that we will make those 
decisions with alacrity, but also with judiciousness. And, I will 
further commit to you that we will make those decisions with one, and 
only one question in mind: ``what is best for America's veterans?''
    In closing, let me say again what an honor it is for me to appear 
before this committee as the designee of the President. I stand ready 
to serve and I look forward to any questions you may have.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part i: all the information in this part will be made public
    1. Name: Leo S. Mackay, Jr.
    2. Address: 1004 Hilton Dr., Mansfield, TX 76063
    3. Position: Deputy Secretary of Veterans Affairs
    4. Date of Nomination: April 30, 2001
    5. Birth date: August 15, 1961
    6. Birth place: San Antonio, Texas
    7. Marital status: Married
    8. Children, age: Sarah, 8; Josiah, 3
    9. Education: Institution (city, state), dates attended, degrees 
received, dates of degrees.
    U.S. Naval Academy; 7/79-5/83; BS; May 25, 1983
    J.F. Kennedy School of Government, Graduate School of Arts and 
Sciences; 9/89-6/91; MPP; June 1, 1991
    Harvard University; 9/91-6/92; Ph.D; June 1, 1993
    10. Honors: List all scholarships, fellowships, honorary degrees, 
military medals, honorary society memberships, and any other special 
recognitions for outstanding service or achievement.
    U.S. Treasury Dept., Medal of Merit, Feb. 2000
    Council on Foreign Relations, International Affairs Fellow (term 
not served), Mar. 1995
    Department of Defense, Defense Meritorious Service Medal, July 1995
    Department of Defense, Armed Forces Expeditionary Medal, Nov. 1988
    Department of Defense, Navy Achievement Medal, Aug. 1989
    MacArthur Foundation, Harvard MacArthur Scholarship, Aug. 1991
    Kennedy Fellowship, JF Kennedy School, Harvard University, Sep. 
1989
    US Naval Academy, Distinguished Midshipman Graduate Award, May 1983
    11. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant.
    Trustee, Cook Children's Medical Center and Foundation, Ft. Worth, 
Tex.
    Trustee, Jarvis Christian College, Hawkins, Tex.
    Board Member, Henry L. Stimson Center, Wash. DC
    Advisory Board Member, DFI-Int'l. Wash. DC
    Executive Committee and Board Member, Arlington (Texas) Chamber of 
Commerce
    President, Lutheran Inter-City Network Coalition--DFW
    Member, US Naval Academy Alumni Association
    Life Member, US Naval Institute
    Member, American Institute of Aeronautics and Astronautics
    Chairman, Ft. Worth Geographic Region, 1999 US Savings Bond Drive 
National Committee
    President of the Congregation, St. Martin's Lutheran Church ('96-
97) Annapolis, Md.
    12. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work and inclusive 
dates of employment.
    05/97-05/01, Vice President, Bell Helicopter, Textron Ft. Worth, 
Texas
    07/95-05/97, Director, Market Development, Lockheed Martin, 
Bethesda, Md.
    13. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge.
    05/83-07/95 Active Duty Service, US Navy, Honorable Discharge, 07/
95
    07/93-07/95 Military Assistant to Asst. Sec'y of Defense, 
International Security Policy, assigned to the Pentagon. Coordinated an 
organization of 200 responsible for U.S. defense policy in the areas of 
U.S. nuclear forces, export licensing, counterproliferation, defense 
conversion and arms control policy. Promoted to Lieutenant Commander 
08/93.
    09/92-07/93 Instructor, Department of History, US Naval Academy. 
Taught courses in Western Civilization and modern military/naval 
history. Sail instructor and AO-in-C for open-ocean training cruise 
from Annapolis to Halifax, Nova Scotia and back.
    07/92-09/92 VF101. NAS Oceana, Virginia Beach, Va. Assigned various 
administrative duties after switching designator from pilot to general 
unrestricted line.
    06/89-07/92 Attached to NROTC unit, MIT, Cambridge, Ma. Assigned to 
graduate study at J.F. Kennedy School of Government, Harvard University 
('89-'91) and at the Graduate School of Arts and Sciences, Harvard 
University in residence at the Center for Science and International 
Affairs ('91-92).
    07/86-06/89 VF11. NAS Oceana, Virginia Beach, Va. Fighter pilot 
completing three deployments on USS Forrestal, with 235 carrier 
landings, and 1000 hours in the F-14. Promoted to Lieutenant 06/87.
    9/85-07/86 VF101. NAS Oceana, Virginia Beach, Va. Fighter pilot 
under instruction at Fleet Readiness Squadron for F-14.
    07/84-08/85 VT26 and VT24. NAS Chase Field, Beeville, Tx. Naval 
flight school basic jet and advanced jet training. Promoted to 
Lieutenant, j.g. 06/85.
    01/84-07/84 VT27. NAS Corpus Christi, Corpus Christi, Tx. Naval 
flight school primary training.
    06/83-11/83 Naval Aviation Schools Command. NAS Pensacola, 
Pensacola, Fla. Naval aviation indoctrination course.
    07/79-05/83 Assigned to US Naval Academy as a midshipman. Graduated 
with merit and BS degree. Commissioned as an Ensign.
    14. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above: N/A
    15. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written.
    Post-Cold War Frameworks for United States Nuclear Policy. Ann 
Arbor, Mi.: UMI Dissertation Services, A Bell & Howell Company, 1993.
    ``Bombs, Cities, and Civilians: American Airpower Strategy in World 
War ll,'' Proceedings of the U.S. Naval Institute, (review of a book of 
the same title by Conrad C. Crane), 119, 12, (December 1993): 97-99.
    ``Voices from the Central Blue,'' Proceedings of the U.S. Naval 
Institute, (article commentary), 119, 3, (March 1993): 23-24.
    ``Naval Aviation, Information, and the Future,'' Naval War College 
Review, Spring, 1992: 7-19.
    ``Greek to Me,'' New Republic, 2 March 1992, p. 6.
    ``The Poverty of the American Liberal Consensus,'' Samizdat, 
(Kennedy School student newspaper), vol. I issue 2, 27 April, 1990.
    ``Why I'm Black, Not African-American,'' Samizdat, vol. I issue 1, 
4 April, 1990.
    ``War, Morality, and the Military Professional,'' Proceedings of 
the U.S. Naval Institute, (commentary), 110, 1, (January 1984): 89.
    16. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years:
    Dole for President--$150, defense and foreign policy committee 
(wrote policy papers)
    Bush for President--$150, defense policy adviser (wrote several 
policy papers)
    Lazio for US Senate--$200
    Republican Party--approximately $500
    (b) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: N/A
    17. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate: Yes
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: I have 
no such plans.
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A
    (e) (If appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes
    18. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated:
    I will receive a separation bonus from Bell Helicopter, Textron, 
Inc. in recognition of my performance during my tenure with the firm. 
The bonus is customary for departing executives who have performed well 
and are going on to a non-competitive status. The bonus will be a one 
time cash payment of approximately six months of base salary.
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated:
    I will have a continuing financial interest, through stock 
ownership, with Textron, Inc.
    I also own a modest amount of stock in Tyco, Int'l.--a firm which 
does some business with the VA.
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: N/A
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy. N/A
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.)
    I have recused myself from any VA matters pertaining to Textron, 
Inc. and Tyco Int'l. for as long as I own assets in either of these 
firms.
    19. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes
                                 ______
                                 
Response to Written Questions Submitted by Hon. Arlen Specter to Leo S. 
                              Mackay, Jr.
    Question 1. Have you discussed with Secretary Principi the duties 
he would like you to perform, or the role he would like you to assume, 
as Deputy Secretary if you are confirmed? If so, what has he asked you 
to do? Will you have a policy making role at VA? Will you be the VA's 
Chief Operating Officer--a role which the Secretary assumed when he was 
Deputy?
    Answer. Secretary Principi has asked me to assume the role of Chief 
Operating Officer: the day-to-day manager of the Department of Veterans 
Affairs with responsibility to ensure we fulfill our commitment to 
veterans and their families. Additionally, he has asked me to partner 
and assist him with his roles as representative of the Department to 
Congress, the White House, and the public. I anticipate, within the 
bounds of a close partnership, to have an integral role in the creation 
of policy.
    The Secretary himself describes his style as `hands-on' and 
decisive. He is intimately familiar with the Department, its people and 
policies. While he will not be divorced from the affairs of the 
Department, I will be the driver of day-to-day operations, and on 
issues of strategic importance. As Deputy Secretary I will drive the 
formulation of options and be a vital part of their consideration. 
Secretary Principi, like any CEO, will make the ultimate decision.
    I fully expect to have a strong voice regarding matters including 
resource allocation, human resource planning and development, 
information technology planning and deployment, and strategic and 
performance planning and reporting. I plan to work with the Secretary 
and VA leadership to formulate an effective legislative program and 
develop a deliberative and inclusive policy formulation process that 
will result in detailed policy analysis, option development, and 
recommendations to the Secretary for his consideration.
    Question 2. Independent of what the Secretary might have discussed 
with you in terms of duties, have you formulated any thoughts on how 
you will approach your new responsibilities? What do you see those 
responsibilities as being? What vision of this job motivated you to 
accept it when the President called?
    Answer. I will approach my responsibilities with bottom-line 
tangible results as the ultimate arbiter of the success of this 
administration. My responsibility is to ensure the viability of the 
Department's processes, the effectiveness of its people, and the 
quality of its decision-making constantly improves so that its 
provision of health care and benefits to the veterans' community is 
further enhanced. As I said in my opening statement, the greater good 
of our nation's veterans will be the ultimate standard by which the 
Secretary and I will measure our success.
    I am motivated to come to this job for three reasons: 1) I have a 
strong tradition of service in my family (virtually all the males in my 
family's preceding generations are veterans), and a great personal 
desire to serve our Nation and our Nation's veterans; 2) I was 
convinced of the desirability and reasonability of Secretary Principi's 
vision for the Department of Veterans Affairs and his overriding 
commitment to veterans, and 3) I have, by dint of education, previous 
experience and management training, the requisite skills to help 
implement that vision.
    Question 3. Based on your understanding of the issues which 
confront VA, is there anything in particular you would like to 
accomplish as Deputy Secretary?
    Answer. The Secretary and I are in agreement on the overall goals 
of the Department. I join the Secretary in committing myself to the 
improvement of claims processing and in the delivery of accessible, 
high-quality health care. I am committed to successful performance of 
all vital department missions.
    As Deputy Secretary and COO, I will have responsibility for 
addressing operational process/policy issues facing the Department of 
Veterans Affairs. Workforce planning and VA/DoD collaborative endeavors 
will be among my responsibilities. I intend to support workforce 
planning initiatives to ensure long-term, quality benefits delivery by 
VA. I also recognize that improved coordination with the Department of 
Defense and integration of some overlapping functions will both improve 
the quality of service for our beneficiaries and allow us to make the 
best use of limited federal funds without diminishing our commitment to 
our respective obligations.
    As Deputy Secretary I intend to bring to the department a unified 
decision-making structure that integrates planning, budget formulation 
and policy development. My vision for this structure is one that is 
both inclusive and critical. I also intend to bring a management 
structure where veteran's needs are first and strategies to achieve 
them are based on data, consultation, and sound judgment.
    Question 4. How would you describe your management style? Do you 
believe that your style--however you describe it--is suited for the 
position you are seeking? If so, how?
    Answer. My management style is disciplined and analytic. My style 
is suited to this position principally for two reasons: because the 
Department of Veterans Affairs faces complex transformational 
challenges, and because, like any bureaucracy, it has cultural and 
inertial impediments. As VA completes its change to outpatient-based 
health care, refreshes and retools its physical plant, overhauls its 
benefits claims process, moves to incorporate long-term care, and 
contemplates its role in a closer partnership with DoD health care it 
will necessarily make decisions and take actions with long-term 
consequences. These decisions and actions must be based on a thorough, 
rigorous, yet timely evaluation of the relevant facts. Driving that 
process calls for strength and discipline, but also processes rooted 
analytically. Though I will not claim to be the tonic for entrenched 
culture, I have been in institutions of strong culture and I have 
witnessed and participated in both successes and failures to produce 
change. I bring the wisdom of this experience. Lastly, I have the habit 
of rigorous follow up and attention to metrics. These are the basis of 
producing current performance, e.g. producing in accordance with and at 
the direction of a strategic plan, following budgets, and producing on-
time performance. Management is about clear goals, even clearer 
metrics, and the doggedness to attain both.
    My management style is also one of informed action. As I mentioned, 
I would develop a structure that is inclusive and internally critical. 
The structure would also be based in action and not support long delays 
when decisions vital to service delivery are at stake. I believe my 
style is ideally suited to this position, and in support of the 
Secretary Principi's priorities.
    Question 5. Did your training as a fighter pilot prepare you for 
this assignment? Can such training prepare one to prod and fight 
bureaucratic inertia? Do people who seek out the job of F-14 pilot--
people of action, I should think--have the disposition to spend their 
days pushing against a bureaucracy like VA's?
    Answer. Lessons learned in the cockpit and, especially in carrier 
flying, are useful in management: discipline, performance, and 
judgment. Management and leadership are active vocations and require 
people of action to succeed at them. The Secretary and I intend to lead 
the Department of Veterans Affairs actively, and to meet its myriad 
challenges. I think that requires a disposition not unlike that of a 
fighter pilot.
    The VA operates under strict rules as a government agency, but I do 
not believe it is an insurmountable bureaucracy. The VA employs many 
motivated and talented people who are ready for action. Together I 
believe we can effect continued improvement in the Department.
    Question 6. How did your training at Harvard prepare you for this 
job? Did your scholarly work assessing the United States strategic 
policy give you any training for this? Did your course work focus on 
systems or business processes analysis, or similar disciplines, that 
would serve you well at the VA?
    Answer. In my academic training at Harvard, I studied public 
management as one of my fields for the doctorate. As well, I studied 
organizational implementation and leadership in the master's work. This 
work was valuable, primarily, in giving me a framework through which to 
view the subsequent years I have spent in large organizations in the 
private and public sector. The skills and knowledge acquired in my 
education will contribute to my abilities to successfully perform this 
job.
    Question 7. As you know, the Secretary has more or less staked his 
reputation on improving the timeliness and quality of VA's adjudication 
system. As someone who proposes to come to VA with business management 
experience, please give the Committee your assessment of VA's claims 
adjudication system. Based on performance data you have seen, do you 
agree with the Secretary that improving timeliness and quality 
pertaining to VA claims processing is the principal challenge facing 
the VA? What changes would you recommend?
    Answer. I agree with the Secretary that the most pressing immediate 
challenge is the claims processing backlog. It represents not only a 
disservice to the nation's veterans, but it threatens the credibility 
of VA as a responsive, productive organization. The ongoing Claims 
Processing Advisory Task Force headed by Admiral Cooper is studying 
this issue in depth. Its results are anticipated in the August 
timeframe. That study will define the parameters of our internal 
response to this situation. I look forward to its release and to being 
an integral part of its evaluation. Ultimately I intend to bring my 
management and business talents to bear in the successful 
implementation of the submitted recommendations.
    Question 8. Secretary Principi has asked his Claims Processing 
Advisory Task Force to focus on proposed reforms that can be 
implemented within the bounds of current law. Do you agree that 
internal VA operation--not the law VA is entrusted to implement--should 
be the focus of the task force? Even so, do you have thoughts or 
recommendations on how Congress might modify the law to improve or 
streamline VA's claims processing system?
    Answer. Internal reform is the focus of the Task Force and the 
Department's immediate concern. Once we address issues within our 
sphere of influence, we can better turn our attention to other issues, 
such as the potential need for legislative reform.
    Question 9. In just four years, Congress has increased the maximum 
monthly Montgomery GI Bill (MGIB) education benefit by some 87 percent. 
However, there is some belief--even consensus--that MGIB benefits 
should be increased even further. What do you feel the appropriate 
benefit level should be?
    Answer. I believe that any individual who serves in one of our 
military services and who honorably discharges his or her duties, 
deserves a viable education benefit. A benefit that would permit a 
veteran to cover expenses to attend a four-year public institution is 
generally higher than the current MGIB benefit of $650. 1 realize 
support for any increase must be balanced with fiscal constraints. 
Secretary Principi, with my full support, plans to fully explore all 
options for enhancing education benefits as the Department develops a 
legislation program in the coming months.
    Question 10. I note from your biography that from 1989 until 1993 
you studied at Harvard University where you earned both a Master's 
degree and a Ph.D. I also noted that, during this time, you were a 
Kennedy Fellow and a MacArthur Scholar And I believe, it is true that 
you also incurred some student loan debt to finance your graduate 
education. One reason--I assume--is because service academy graduates 
are not eligible for educational assistance benefits which other 
service members can access. Do you think service academy graduates 
should be eligible for educational assistance benefits?
    Answer. The law provides that an individual who after December 31, 
1976, receives a commission as an officer upon graduation from a 
service academy is not eligible for MGIB education benefits. I believe 
this policy is understood by those service academy graduates accepting 
commissions. As the VA evaluates program outcomes and considers 
enhancements to the MGIB benefit, the Department may revisit this 
issue.
    Question 11. If I understand the situation correctly, you incurred 
no additional service obligation by attending Harvard because the Navy 
did not pay your way. Am I correct?
    Answer. I did incur an additional service obligation. I attended 
Harvard initially under the Advanced Education Program that provided 
for a two year period to complete a degree with no help from the Navy 
with tuition or other fees. This was extended for an additional year. 
Harvard awarded me a Kennedy Fellowship that provided for all tuition 
and fees for the first year. I incurred a personal debt to finance the 
second year. Once I advanced to doctoral candidacy the Graduate Prize 
Fellowship and Harvard MacArthur Scholarship covered all fees 
associated with attending the Graduate School of Arts and Sciences and 
with being a Fellow at the Center for Science and International 
Affairs. The Navy additional service obligation was 3 for 1 for the 
first year and 1 for 1 for additional years. I incurred a five year 
additional service obligation. After I left Harvard, I changed my 
designator from 1310 (pilot) to 1300 (general unrestricted line) for 
reasons I will explain in question 12. Subsequently, I served three 
years in two different capacities in which I used my graduate education 
while on active duty, what the Navy calls ``payback tours.'' These 
tours are generally of only a two year duration. When I applied to 
resign my commission in 1995 it was the peak of the draw-down, and the 
Navy needed to reduce its 1300 force. I inquired about continuing Navy 
service in the Reserves, but the only paid drilling positions were for 
medical doctors. While I did not complete the specified duration of 
additional service, I did complete more than the usual time of service 
in a `payback' tour.
    Question 12. Why, following such an obviously outstanding Navy 
career, did you choose to leave active duty services after 12 years? 
Can you provide the Committee with any insights on how the Navy--and 
the other branches--can prevent the premature departure of outstanding 
young officers like yourself?
    Answer. My reasons for leaving the Navy were basically personal 
although the effects of the post-Cold War downturn contributed to my 
exit from active duty. I grew up wanting nothing more than to be a Navy 
pilot. By God's grace, I achieved that dream. In fact, I had an 
excellent experience in my first squadron. We won battle efficiency and 
safety awards, cruised in two oceans and the Mediterranean Sea, and 
forged lifetime friendships. That said, I also harbored other 
interests--namely in public policy and business. My time at Harvard 
stoked those interests. Additionally, and perhaps most importantly, I 
met my wife, Heather, at Harvard. Heather spent her entire childhood 
and adolescence on the edge of a farm, and had no experience of the 
Navy life with its separation and other hardships (my previous marriage 
had ended in divorce when six of our first seven months of marriage 
were spent with me at sea). I simply became interested in things 
outside the Navy and I chose not to subject my wife and children to the 
rigors of service life. Additionally, the effects of the post-Cold War 
draw-down on the force were obvious: smaller fleets, older planes, 
fewer ships covering the same expansive deployments. The fleet of 1992 
was not the same as the one I joined in 1983, and neither was I. 
Accordingly, in 1992 I changed my designator from pilot (1310) to 
general unrestricted line (1300) and, while continuing to serve, 
purposed to pursue the earliest opportunity to resign my active-duty 
commission. I still retain a deep love and commitment to the Navy. I 
have served on Senator Hutchison's selection committee for the service 
academies, been a trustee of the Naval Academy's Alumni Association, 
and, as an outside expert, helped critique drafts of the Navy's current 
Quadrennial Defense Review (QDR) submission. In brief, my reasons for 
leaving the service had to do mainly with me, but the effects of the 
draw-down also contributed.
    Question 13. I am concerned about reports that many of VA's Health 
Administration Network or ``VISN'' offices are becoming ``staff 
heavy.'' I am concerned because bloated bureaucracy diverts needed 
health care resources from hospital centers where veterans receive the 
services that they need. Do you believe that a review of the staffing 
levels at the network offices would be an appropriate activity for the 
Deputy Secretary? Will you conduct such a review?
    Answer. VA is actively involved in monitoring organizational and 
staffing changes. The Executive Resources Board in VHA approves all new 
senior executive service (SES) and GS-15 positions both at the facility 
and VISN level and, the Assistant Deputy Under Secretary for Health 
approves all VISN organizational charts and increases in GS-14, GS-15, 
and SES ceilings at the VISN level. VA determined that an assessment of 
organizational effectiveness should be conducted to promote best 
practices and to decide if additional guidelines are needed.
    A VA taskforce to review field organization structures was convened 
on May 11, 2001 with a report due in 90 days. As Deputy Secretary, I 
intend to closely monitor this initiative and work with the taskforce 
and VHA management to ensure that resources are appropriately directed 
to serve our veteran patient population as efficiently as possible.
    Question 14. Last year, VA central office provided supplemental 
funding to four of VA's 22 health care networks because they were not 
able to get through the year with the funding allocation they were 
originally assigned. Do you see a funding allocation problem here? Or 
do you see a mismanagement issue here? Will you work with the Chief 
Network Officer to monitor the progress of these networks to assure 
they operate successfully this year without diverting funding from 
other networks?
    Answer. I do not believe that the presence of four VISNs coming in 
for supplemental funding in FY2001 clearly indicates that there is a 
funding problem or mismanagement. No allocation model is 100 percent 
perfect. Every model, especially one so new, has a certain margin of 
error or variance. The key is to identify the issues and minimize the 
magnitude of variance.
    VA continuously reviews the Veterans Equitable Resource Allocation 
(VERA) model for potential improvements. As Deputy Secretary, I expect 
to stay engaged and have a voice in future adjustments and corrections 
to this model.
    Question 15. ``One VA'' has been a rhetorical trade mark of 
speeches by VA officials for many years now. Yet, there still seems to 
be--to understate the issue just a bit--some residual coordination 
issues that VA's three major subagencies (VHA, VBA and NCA) have yet to 
resolve. Do you believe that the line authority position you hope to 
occupy could play a role in assisting these three organizations in 
their efforts to make the ``One VA'' vision a reality? More directly, 
do you see yourself--as Deputy Secretary--as having sufficient 
authority over VA's three Under Secretaries to force them to move 
toward actual fulfillment of the ``One VA ``philosophy?
    Answer. I don't believe the issue of furthering the ``One VA'' 
philosophy is one of authority, but rather one of leadership. 
Collaborative efforts, like the VA Enterprise Architecture initiative, 
bring together senior leaders from throughout the VA to develop 
solutions that cross administration lines with service and access for 
veterans as their ultimate goal. In my support of the Secretary's 
vision, I hope to identify other opportunities for such collaboration 
and corporate success. The ``One VA'' philosophy, in pursuit of 
providing seamless, quality service to veterans, without being confined 
by internal departmental lines, will be the trademark of this 
administration, regardless of what it is called.
    Question 16. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee or do you know of any other matter 
which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. No.
    Question 17. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that that information is complete, accurate, and provided in a form not 
designed to evade?
    Answer. Yes.
    Question 18. Do you agree to supply the Committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position for which you now seek confirmation?
    Answer. Yes.
    Question 19. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. Yes.

    Chairman Specter. Senator Nelson, would you care to make 
any opening statement?
    Senator Nelson. First of all, I want to thank you for the 
opportunity to speak. And in the spirit of brevity today, I 
would like to say that I am very impressed with the quality of 
the nominees before us. In each and every case, I think you 
bring the right kind of experience and certainly the right kind 
of background to be able to do your jobs. I am looking forward 
to passing favorably on your nominations as soon as we have 
that opportunity. Thank you very much.
    But one question I do have for Dr. Mackay, and maybe for 
others as well. In Nebraska, because it is a geographically 
challenged State in terms of distance from major locations to 
the rural part of the State, we have had some experiences where 
two rural inpatient hospitals in Nebraska were closed in recent 
years, and also, veterans from the western part of the State 
are forced to travel all the way to Omaha for care. That may 
not seem like quite a distance, but it is as far from the 
western edge of Nebraska to Omaha as it is from Omaha to 
Chicago. So it is a journey that requires considerable time and 
inconvenience. I hope that you will think about the provision 
of services to these individuals in the rural areas as you 
encounter your responsibilities and that we will find 
satisfactory arrangements to continue to provide where we can 
convenient as well as quality medical services and other 
services to these individuals.
    As you get into your positions, I hope that you will make a 
concerted effort to do that, but also be able to get back to me 
and assure me, specifically on Nebraska, as well as other 
States, but particularly on Nebraska what your plans are to 
make sure that the services are provided in an accessible 
manner for the veterans in Nebraska.
    Chairman Specter. Thank you very much, Senator Nelson.
    Dr. Mackay, what do you seek to accomplish as Deputy 
Secretary of the Veterans Administration if you are confirmed? 
And address that question in the context of your reasons for 
leaving your current important position to take on this new 
job.
    Mr. Mackay. Yes, sir. Senator, you raise a very good point. 
I came to Washington and spent time with Secretary Principi. 
There are a number of challenges in front of the Department 
with regard to information technology, the backlog in benefit 
claims processing, forging a close coordinating relationship 
with the DoD health care system while retaining the special 
character of the VA health care system, challenges that are 
well known to you. I think that by dint of experience and 
management capabilities that I can contribute to that. And I 
also think that the veterans community requires and needs the 
kind of services that are provided by VBA and VHA.
    Chairman Specter. Do you have any insights or experience 
with the veterans community which you believe require action or 
correction by the Department of Veterans Affairs?
    Mr. Mackay. No, sir, I do not. What I have is a bit of 
track record of working with organizations facing challenges.
    Chairman Specter. Do you have any specific challenges in 
mind for service to veterans? To put it differently or more 
expansively, do you know anything about the duties of the 
Veterans Administration which gives you some special pause or 
some special concern about what is going on, things you would 
like to correct, see improved?
    Mr. Mackay. Yes, sir. The list that I started out with and 
I started this answer with respect to some of the IT 
challenges, the benefit backlog, those are areas where I think 
we are----
    Chairman Specter. What do you know about the backlog, Dr. 
Mackay?
    Mr. Mackay. I know that it is large and that our processing 
times are expanding.
    Chairman Specter. Do you have any ideas as to how to deal 
with that problem?
    Mr. Mackay. Specifically, at this time, no. But I have been 
taking briefings, educating myself about the dimensions of the 
problem.
    Chairman Specter. What other problems do you look forward 
to tackling if confirmed?
    Mr. Mackay. If confirmed, I think that there is some 
potential to do a lot of beneficial cooperation in close 
coordination with the DoD health care system.
    Chairman Specter. Such as what? What would you like to see 
accomplished?
    Mr. Mackay. In areas of data sharing, I think that there 
are beneficial coordination that can be made. I think that----
    Chairman Specter. Data sharing?
    Mr. Mackay. Yes, sir.
    Chairman Specter. What kind of data would you like to 
share? What I am trying to get at, Dr. Mackay, is how much do 
you know about this job? How much do you know about the sort of 
problems you will be facing? I ask this to give you an 
opportunity to give us some insight as to your level of 
interest, your level of experience, and your best projection as 
to what you could accomplish.
    Mr. Mackay. Senator, at this time, one of the things that I 
bring is an outsider's perspective. I know the general 
dimensions of some of the problems. I have----
    Chairman Specter. Quite a few people, Dr. Mackay, would 
bring an outsider's perspective. That would not be a hard 
perspective to acquire. What we are looking for is what you 
know and what you can hit the ground running with, so to speak.
    Mr. Mackay. One area that Secretary Principi and I have 
discussed is in budgetary areas, in running through the budget 
cycle and making sure the priorities of this administration are 
reflected in the spending of the budget, in the day to day 
general management of the Department.
    Chairman Specter. Tell us a little bit about your prior 
relationship with Secretary Principi.
    Mr. Mackay. Actually, I have no prior relationship with him 
before we met in the January timeframe when I sat down with him 
and discussed the dimensions of this job.
    Chairman Specter. What was the background of your selection 
by the administration to be Deputy? My red light is on, so this 
is my last question.
    Mr. Mackay. I am not privy to the inner-workings. I was 
solicited for my resume and background material in connection 
with----
    Chairman Specter. You just got a call to send in your 
resume and background material?
    Mr. Mackay. Yes, sir, from a political contact in Texas.
    Chairman Specter. Senator Rockefeller?
    Senator Rockefeller. Dr. Mackay, you have a terrific 
background, but you are going to have to do a lot better than 
what you have done so far to convince us why you think that you 
deserve this job. Somebody, a political contact, called you up. 
I have served in two branches of the executive branch of 
government, but you do not just say I am glad to be here, I am 
honored to serve. Your testimony is, if I might say so with all 
due respect, kind of a cliche. It is just about how happy you 
are, how proud you are, and how much you look forward to 
working with the Secretary.
    Who do you think ought to be the chief operating officer of 
the Department of Veterans Affairs?
    Mr. Mackay. Someone with----
    Senator Rockefeller. Who?
    Mr. Mackay. Me, Senator Rockefeller.
    Senator Rockefeller. Well, then, say that. Say that.
    Mr. Mackay. I think I should be the chief operating officer 
and Deputy Secretary of the Department of Veterans Affairs.
    Senator Rockefeller. But why did you not say that before? 
In other words, the chairman was trying to elicit from you some 
sense of intensity about 220,000 employees and you are going to 
be the No. 2 person; and you said you worry about the benefit 
backlog and all the things that we all worry about, but you did 
not talk about the most important thing of all, either in your 
testimony or in your statement, until I forced it out of you, 
saying that you are going to run the Department. The Secretary 
is going to worry about policy and you will be subject to his 
orders, but I assume you are going to be in his face when you 
think he is wrong. Will you?
    Mr. Mackay. Yes, sir. Very definitely.
    Senator Rockefeller. But nothing that you have said gives 
that indication. I am perplexed by this and already disturbed 
by it, because you seem to be intelligent and gentle, but not 
laser-like. You cannot do this job, nobody can do this job 
unless they have a brutal intensity. There was a fellow named 
Derwinski who was fired from the job because he made a decision 
that was very unpopular with the veteran service organizations. 
But at least he made a decision. I guess I want you to tell me 
how you are going to be the chief operating officer, how you 
are going to run that place. What is the difference between 
what you do and what Secretary Principi does?
    Mr. Mackay. I will concentrate on the day to day 
management, specifically in forcing decisions up to the 
policymaking level, which is where the Secretary and I are, 
decisions about budgets, about programs, about business process 
redesign, decisions about an over-arching IT scheme that will 
forge the VA from a VHA and a VBA and other culture into one 
unified single whole that is wholly dedicated to providing the 
kinds of benefits and services that the taxpayers of this 
country pay to have provided. I will look for places where 
there are inefficiencies, places where there is waste, places 
where we are not performing to the standards that are 
appropriate in procurement.
    Perhaps I had misinterpreted or misled you on who I am and 
what I can do. Believe me, Senator Rockefeller, I am intense, I 
am focused, I am a general manager of the first rank, and I can 
do this job.
    Senator Rockefeller. I am glad to hear that. I am just 
sorry that I had to get you a little bit annoyed in order to 
get you to say that. This is the second largest department of 
the Federal Government, second only to the Pentagon. It is a 
health care system with a budget, a health care system and a 
benefit system which is destined to not be able to do what it 
needs to do. And it needs not only a very good top guy, 
Principi, but it needs a really, really good chief operating 
officer. You did not indicate that in your written statement, 
you did not indicate that in your testimony, you did not 
indicate that in answer to the chairman's questions, but you 
did indicate that finally when the chairman and I conspired and 
agreed on the deficiencies in your presentation. And now you 
have come out and you have said something which is pretty 
useful.
    Do you understand what the VA is like? Do you understand 
the frustrations in that? Do you understand what a bureaucracy 
it is?
    Mr. Mackay. Yes, sir, I do.
    Senator Rockefeller. And with the chairman's indulgence, 
could you just please tell me once again why you are, by nature 
and by experience, suited to be tough enough, intense enough, 
mean enough, and strong enough to stand up to anybody that you 
have to to get your job done in the way that it needs to be. In 
a way, the chief operating officer, in my judgment, is the most 
important position in the Department of Veterans Affairs.
    Mr. Mackay. Other than my track record, because we have no 
prior knowledge of one another, I can point to no other record 
but my record of success. I can assure you, however, that it is 
my only goal to succeed in this job, to bring to the Department 
of Veterans Affairs the kind of focus that a sprawling 
bureaucracy, as you pointed out, needs in order to coalesce 
around a single mission, and to deliver in a coordinated 
fashion the kinds of services, benefits that our veterans 
deserve.
    I am in an organization that faces some of the same 
challenges now at Bell. We had a large hiring boom, kind of the 
pig and the python effect, in the Vietnam War. We produced a 
lot of the H-1 series aircraft. Those people are now leaving. 
We are ramping up to build the tilt-rotor series aircraft. We 
have huge challenges with regard to the acquisition of a work 
force with the proper skills and motivation to put in a career 
to build those aircraft. We have expanded with a brand new 
facility in Amarillo. I have seen this kind of organization.
    I have been in the other great bureaucracy, as you pointed 
out, the Pentagon. I have had some experience in trying to get 
that bureaucracy to move in the nuclear review of 1994.
    I have experience both in the private sector and in the 
public sector with organizations that are struggling with these 
self same issues. And I commit to you here and now and before 
these witnesses that I will be the tough, no nonsense, day-to-
day manager of this Department, in partnership with Secretary 
Principi, who has the vision, the experience and the leadership 
to lead this Department. I will be his right hand. We will 
forge a partnership. And if I am confirmed, that is the job I 
will do for you and for the taxpayers and veterans in our 
country, Senator Rockefeller.
    Senator Rockefeller. OK. Mr. Chairman, my time is up for 
the moment. I do not know if we are going to have a second 
round or not, but I thank you.
    Chairman Specter. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman. Dr. Mackay, I 
think you are probably getting a sense here that people know 
that you are smart enough, you are experienced enough, and now 
you are in the process of telling us you are tough enough to do 
the job.
    I think the reason that the Senators are asking questions 
that would get to the point of being tough enough is that very 
often veterans are fighting all kinds of odds working against 
them--for funding, for benefits, for access to care. They need 
to know, and I think we need to know, that somebody is going to 
be there on a day-to-day basis fighting that fight, making 
certain that every effort is made, that must be made to make 
sure the benefits and the services are available. I think that 
is what this is all about.
    I am sure it has to be a little bit frustrating and you 
feel like you are being roughed up. But I think the whole point 
here is just to make sure that when the chips are all down that 
we know and the veterans know that you are going to be there 
fighting for them, you are going to be working for them in 
every way possible. I think that is what this is really all 
about.
    That is why I made just a general statement with sort of an 
over-arching concern about can we count on all of you, but 
particularly the chief operating officer of the agency, to make 
certain that these services are accessible and that every 
effort is made to be sure that they are available to people in 
rural areas, in particular. Because if you think that we are 
just worried about whether the agency will be tough enough for 
veterans overall, my worry is even stronger, can we be tough 
enough for the veterans in rural areas that have even more 
special challenges.
    Having enough resources, of course, is a problem for 
everybody in the veterans organizations. But it is even a 
greater challenge when you are from a rural State to be sure 
that that is the case. As a matter of fact, to give you an 
example of some numbers, the consolidations that are going on 
and the closing of rural hospitals, I do not have the 
statistics for 2000, but in 1999 29,500 veterans sought care in 
Nebraska, which was a 17 percent increase over the previous 
year and one of the highest growth rates in the Nation. People 
in Nebraska live longer. That is the good news. But as veterans 
live longer, they have less access to services. This will 
continue over the next several years as the pig and the python 
example is used to say this is what is going to happen when the 
Vietnam veterans actually come through the system as well. Yet, 
the policy seems to have been that there are fewer veterans 
coming into the system, therefore, we can reduce the number of 
opportunities for service, or that because we are losing a 
certain number of World War II veterans every year, that the 
number of veterans may be going down. But, in fact, the access 
requirement is going to be even greater as time goes by.
    I guess I am explaining what my colleagues might be doing, 
at least from my perspective.
    Mr. Mackay. Yes, Senator. The issue is, as I understand it, 
not just the size of the veterans community but that the 
demographics are changing. The ways we deliver services are 
changing. The big change is with VHA going from inpatient 
hospital-based to community-based services is one. And it 
certainly is of a piece with getting out into the community 
making health care more available. We are also looking at 
infrastructure restructuring. That will be another thing that 
will be uppermost in my mind as we restructure our 
infrastructure both in the VBA and the VHA is to provide access 
to veterans where they are as our demographics change and as we 
change the types of service that we give in accordance with the 
Millennium Health Care Act and other things that are coming.
    Senator Nelson. I see my time is up. I guess I would say it 
this way. I trust you to be tough enough, but I will also 
verify. I want to make sure that when it is appropriate you are 
going to pound on the table to fight for veterans.
    Chairman Specter. Senator Rockefeller has one more 
question.
    Senator Rockefeller. Actually, one and a half, Mr. 
Chairman. How many people have you fired, Dr. Mackay?
    Mr. Mackay. Senator, I have never totaled it up, but I 
would think it is in the region of about a dozen, maybe a dozen 
and a half.
    Senator Rockefeller. OK. Second, you mentioned the 
Millennium Act. There has not been any attention paid to long-
term care in this country since the passage of Medicaid. So the 
result is either that you have to be very, very rich, like 
Senator Specter----
    [Laughter.]
    Senator Rockefeller [continuing]. Or you have to be on 
Medicaid, like Senator Nelson----
    [Laughter.]
    Senator Rockefeller [continuing]. To get long-term care. 
Otherwise, you do not get it. And nobody has ever seemed to 
take any interest in what I consider to be one of the two great 
unresolved health care problems of this country.
    In the very Millennium Act which you mentioned, we changed 
that and we gave long-term care on a noninstitutional basis to 
certain veterans. That was a good year and a half, 2 years ago, 
and it has not been implemented. And it has not been 
implemented because the VA was very slow on the rules and 
regulations, and then the President came in and abolished all 
rules and regulations that had been previously submitted. That 
is not something that I expect you to know about, but it is 
something I really do expect you to care about because that was 
a promise made to veterans, done for good reason, done in 
conference. It is a huge step. It is the first time long-term 
care has been done in any way by this Government in 36 years to 
help the American people, in this case the American veterans.
    So this is the kind of thing where if the White House is 
being slow on reacting, if the VA is being slow in writing the 
rules and regulations on long-term care which veterans were 
voted by the Congress to have, funded by the Congress to have, 
and do not have at least a year and a half later, I think that 
is outrageous and it is something that I hope that you would 
see as an outrage and is the kind of thing that you would 
pounce on. I do not expect you to know that now. But I do 
expect you to know it next week.
    Mr. Mackay. Yes, sir. That is fair.
    Senator Rockefeller. Thank you.
    Chairman Specter. Dr. Mackay, as you see from our concerns, 
there has to be a certain level of intensity, passion for 
governmental service generally, but especially for the Veterans 
Administration which has so many problems and such heavy 
responsibilities. Your record suggests that you are a quick 
study. This committee has oversight functions and will be 
watching.
    There are 14 questions that I have which are going to be 
submitted to you. We would appreciate your having them in no 
later than, say, Monday morning.
    The committee would like to have a report from you within 
60 days on the 10 key problems which you have identified in the 
Veterans Administration and what action you propose to address 
them. Senator Rockefeller has posed one of the key issues, that 
of long-term care, but there are many, many others. I think 60 
days ought to give you time enough to at least identify and get 
a start on the proposed solutions.
    [The information referred to follows:]
 issue 1: processing of veterans claims for benefits provided through 
                   the department of veterans affairs
Problem:
    The Department of Veterans Affairs has a growing backlog of claims 
pending. For example, during the three-month period from November 24, 
2000, to February 23, 2001, the inventory of pending claims grew from 
329,278 to 459,572. As of May 2001, the Veterans Benefits 
Administration (VBA) has 515,768 Compensation and Pension (C&P) claims 
pending nationwide; on average it is taking 179 days to process C&P 
claims. Much of the current backlog is attributed to passage of Public 
Law 106-475, which instituted the ``Duty to Assist'' requirement. That 
Public Law requires VBA to readjudicate 98,000 claims that had 
previously been denied under the old claims standards based on 
decisions rendered by the U.S. Court of Appeals for Veterans Claims. In 
addition to the number of claims that must be readjudicated, VBA 
expects 35,000 claims for presumptive service connection for diabetes 
Type II resulting from exposure to Agent Orange.
Plan for resolving problem:
    Secretary Anthony J. Principi has identified this problem as one of 
the top issues that needs to be corrected. In addition to acknowledging 
the extent and nature of the problem, he has directed senior management 
to develop strategies for dealing with the problem.
    VBA has undertaken an aggressive claims inventory reduction plan. 
The plan began in late March when the average processing time for C&P 
claims was 185 days; the May 2001 processing time has now decreased to 
179 days. VBA is planning to conduct centralized training for 1,349 FTE 
by October 2001--this is the first time national training has occurred. 
VBA will implement National Performance standards on October 1, 2001.
    In April 2001, the Secretary of Veterans Affairs established the 
Claims Processing Task Force (the Task Force) to assess and critique 
the VBA organization, management and processes. As part of their 
charge, the Task Force will develop recommendations and propose actions 
to increase efficiency, shrink the backlog and reduce processing time. 
The Task Force has been charged to develop immediate, intermediate and 
longer-term solutions, which can be accomplished through policy, 
operational and regulatory changes and which will not require 
legislative action.
    On June 18, 2001, the Under Secretary for Benefits instructed all 
VBA Regional Offices and Centers to implement interim recommendations 
made by the Task Force. To ensure that the recommendations of the Task 
Force are implemented consistently throughout the organization, 
conference calls will be held and work will be reviewed during site 
visits. The Task Force will deliver its final report and full 
recommendations to the Secretary later this summer.
    As Deputy Secretary, it is my responsibility to ensure that the 
Secretary's directives are carried out. This involves establishment of 
goals and objectives and review of measuring devices to track 
achievement. As the Claims Processing Task Force develops 
recommendations and proposes actions, I will be involved in integrating 
these into the management requirements of the Veterans Benefits 
Administration and other relevant elements of the Department. This 
integration will include defining time lines for measurement of 
progress.
    One further effort, which I will undertake, is to ensure that the 
total resources of all VA administrations and offices needed to correct 
this problem are identified and applied.
                      issue 2: procurement reform
Background:
    The Department contracts annually for over $5.5 billion in goods 
and services.
    VA's Office of Acquisition and Materiel Management (OA&MM) provides 
program planning, guidance, policy and oversight for VA's contracting 
officers throughout the Department. In addition, OA&MM provides 
centralized acquisition support for most information technology, 
pharmaceutical, high tech medical equipment, consulting, prime vendor, 
and nursing home contracts and for VA-administered Federal Supply 
Schedule (FSS) contracts. VA administers the leveraged purchase of 
approximately $1.5 billion annually for VA and DoD pharmaceuticals.
    Each medical center has a local purchasing and contracting office 
that buys against national contracts (VA and FSS) and awards local 
contracts. Authorized individuals in VA facilities use the Government-
wide purchase cards to make local purchases costing below the micro-
purchase threshold ($2,500). In excess of 90 percent of all VA 
acquisitions are below the micro-purchase threshold, and 95 percent of 
those are accomplished using the card.
    Public Law 100-322, Section 8125, restricts local procurement of 
health care items to no more than 20 percent of the total healthcare 
procurement. For the past five years, VA has reported local procurement 
well below 20 percent; however, some purchase card transactions may not 
be included with the data.
Problem:
    Past acquisition issues that have been raised throughout Government 
and in GAO and IG reports include Performance-Based Contracting, 
pricing safeguards, adequacy of the acquisition work force, and work 
force training and competency. In addition, the Senate Governmental 
Affairs Committee is conducting a review of how procurement reforms of 
the 1990's, such as the 1994 Federal Acquisition Streamlining Act and 
the 1996 Clinger-Cohen Act have been used by agencies.
Plan to resolve problem:
    Secretary Principi has chartered a task force to review all facets 
of VA's acquisition system and to make specific recommendations that 
will optimize that system. The task force is charged with completing 
their review and developing their recommendations within 120 days.
    Once we have the task force's recommendations, I will be 
responsible for ensuring that needed changes are communicated to the 
appropriate people in responsible positions in the Department. A 
preliminary review shows that VA is well-positioned to effect 
procurement reform within the Department and to participate in Federal 
acquisition reform.
    VA is bringing its acquisition work force into compliance with the 
Clinger-Cohen Act. Our acquisition training program consists of eleven 
core acquisition courses and supplemental and continuing education. We 
have a contracting excellence program and an online university. 
Recently established, the Center for Acquisition and Materiel 
Management Education Online (CAMEO) allows online course registration 
and training at the desktop of all acquisition personnel and will 
collect training records in one database.
    Senators Thompson and Lieberman of the Governmental Affairs 
Committee have asked GAO to determine if recommendations in a 2000 
Defense Department report (Shaping the Civilian Acquisition Work force 
of the Future) could be applied to civilian agencies. VA is proud that 
many of the report recommendations are already in place in OA&MM.
                  issue 3: va/dod functional alignment
Problem:
    As resources for the provision of health care to members of the 
active duty military, veterans and their families are constrained, the 
call for review of possible sharing opportunities between DoD and VA 
healthcare organizations has increased.
Plan to resolve problem:
    We need to improve review of existing sharing opportunities in the 
areas of procurement, data sharing, IT systems, and integrated service 
delivery needs. Executive leadership from VA and DoD have been meeting 
for several years to improve and expand sharing. Dr. Garthwaite 
recently testified before the House Armed Services Committee (HASC) 
Subcommittee and noted barriers and challenges that impede VA and DoD 
coordination including budgeting processes, timely billing, cost 
accounting, information technology, and reimbursement.
    The Commission on Servicemembers and Veterans Transition Assistance 
(chaired by Secretary Principi) made a series of recommendations in the 
January 1999 report related to VA and DoD activities. Specifically, the 
Commission identified a number of issues and made recommendations to:
    <bullet> Restructure budget, appropriations, and policy processes 
to increase healthcare delivery;
    <bullet> Use combined purchasing power for medical products;
    <bullet> Coordinate medical research;
    <bullet> Leverage information to strengthen VA/DoD partnership;
    <bullet> Improve cost accounting to improve resource utilization;
    <bullet> Increase VA use of DoD's TRICARE;
    <bullet> Review how VA and DoD conduct graduate medical education;
    <bullet> Streamline the disability physical evaluation process; and
    <bullet> Coordinate information management.
    One of the requirements of the Capital Asset Realignment for 
Enhanced Services (CARES) process is to assess VA/DoD sharing 
opportunities. Expanded VA/DoD sharing is recommended in each of the 
four options being considered for Chicago area facilities under Phase 1 
of CARES.
    In recent months, congressional and executive branch interest in 
issues related to VA/DoD functional alignment has increased 
significantly, especially as it pertains to the sharing of resources 
between the two departments. Staff members from the House Veterans 
Affairs Committee (HVAC) and House Armed Services Committee (HASC) have 
traveled during the year to VA and DoD facilities to assess missions, 
infrastructure and facility needs, and workload and capacity (both 
present and future.) Staff have visited or received briefings about 
facilities in Charleston, SC; Los Angeles, CA; Fayetteville NC, Las 
Vegas, NV; San Antonio, TX; El Paso, TX; San Diego, CA; Albuquerque, 
NM; Chicago, IL; and the Washington DC area. HVAC staff hope to 
complete a staff report early this summer on their findings. HVAC and 
HASC staff are developing legislation that will likely require VA and 
DoD to plan to jointly provide health care at selected sites.
    On Memorial Day, the President announced the creation of a task 
force to improve the way VA and DoD work together to provide health 
care. The taskforce's goals are to improve access to veterans benefits 
and strengthen VA/DoD partnerships for healthcare services. The task 
force will study budgeting processes, billing, reimbursement, 
procurement of supplies and services, data sharing and information 
technology. The task force has nine months from its first meeting to 
give the President an interim report. The final report is due at the 
end of the second year of operation.
    VA will continue to review existing situations for opportunities to 
expand our sharing agreements. We will continue meetings at the senior 
management level as appropriate. I will continue to oversee ongoing 
efforts and make every effort to promote further discussion and 
information exchange at my level. As the two departmental leaders, 
Secretary Principi and Secretary Rumsfeld continue discussions, and as 
the Presidential Task Force issues reports and recommendations, we will 
follow-up at VA and with our DoD counterparts.
                    issue 4: departmental governance
Problem:
    To ensure that a major cabinet Agency with over 200,000 employees 
and multiple administrations and staff offices establishes a process 
and procedures by which the development of recommendations for the 
Secretary regarding policy, planning, budgeting, and management issues 
are formulated, implemented and monitored.
Plan to resolve problem:
    In consultation with the Secretary, we have established a decision-
making process to incorporate the Administrations, offices, agencies, 
boards, or other sub-units of the Department. The process creates two 
new entities, the VA Executive Board (VAEB) and the Strategic 
Management Council (SMC).
    The VA Executive Board is the Department's senior management forum 
and is chaired by the Secretary. VAEB's mission is to review, discuss 
and through the decisions of the Secretary, provide direction on 
Departmental policy, strategic direction, resource allocation, and 
performance in key areas. VAEB implements its responsibilities by 
reviewing and approving proposals for new or revised policies.
    The Strategic Management Council is chaired by the Deputy Secretary 
and serves as the operational management body for the Department. It 
has a broader membership and will be responsible for reviewing all 
major policy and management issues, assessing options, and making 
recommendations to the Secretary through the VAEB. The Council's 
mission is to review, discuss, and provide recommendations to the 
Secretary through the VAEB on Department-wide policy, strategic 
direction, resource allocation, and performance in key areas. The SMC 
oversees the implementation of the Department's Strategic Management 
Process. The SMC implements its responsibilities by:
    <bullet> Reviewing proposals for new or revised policies, with or 
without financial implications, from VHA, VBA, NCA, staff offices, 
program offices, individuals, work groups, task forces, committees, 
etc. It also reviews the Department's Strategic Plan and other major 
management documents required by legislation, the annual budget 
submission, the annual legislative program, the prioritized list of 
capital investment proposals, and human resource plans and proposals.
    <bullet> Assuring proposals and issues are fully developed and 
debated prior to review by the VAEB; and
    <bullet> Forwarding recommendations to the Secretary through the 
VAEB.
    I believe that the process will provide the mechanism to ensure 
fair and effective departmental governance. My responsibility will be 
to ensure that the senior management echelon of the Department works 
through this new process. Also, we must ensure that the decisions 
reached are communicated to all of our employees, and that they 
understand and accept the decisions reached. This will allow us to more 
completely carry out our mission of assisting veterans, their 
dependents, and survivors.
        issue 5: efficient use of capital assets for healthcare
Problem:
    The Department of Veterans Affairs (VA) has moved from a hospital-
based health care system to an integrated delivery system that 
emphasizes a full continuum of care, and Veterans Health 
Administration's infrastructure was designed and built decades ago for 
an older style of medicine, and for a younger population with different 
geographic concentrations of veterans. As a result, VHA's capital 
assets often do not align with current health care needs for optimal 
quality, efficiency and access. Moreover, the cost to maintain and 
operate VA health care facilities that cannot provide efficient and 
accessible services substantially diminishes resources that could 
otherwise be used to provide better care in more appropriate settings. 
A March 1999 GAO Report concluded that VHA could significantly reduce 
funds used to operate and maintain its capital infrastructure by 
developing and implementing market-based plans for restructuring 
assets.
Plan to resolve problem:
    The Department of Veterans Affairs has established a program 
designated CARES--Capital Asset Realignment for Enhanced Services.
    The CARES program will assess veteran health care needs in VHA 
Networks, identify service delivery options to meet those needs in the 
future, and guide the realignment and allocation of capital assets to 
support the delivery of health care services. CARES will, thereby, 
improve quality as measured by access and veteran satisfaction, and 
improve the delivery of health care in the most accessible and cost-
effective manner, while maximizing positive influences and minimizing 
any adverse impacts on staffing and communities and on other Department 
of Veterans Affairs' missions.
    VA embarked on its CARES initiative to ensure that its capital 
infrastructure would meet veteran's needs for health care services in 
2010 and beyond. CARES is a program that will assess veteran's health 
care needs, identify service delivery options to meet those needs in 
the future, and guide the realignment and allocation of capital assets 
to support the delivery of health care services. CARES teams work at 
the network level to develop options for restructuring based on 
consistent, objective criteria to ensure a cost-effective healthcare 
system. Those criteria include;
    <bullet> Demographics: Determine the number and health care needs 
of veterans in the market areas of the networks
    <bullet> Sites: Maximize accessibility to veterans where they live
    <bullet> Health care quality: Measure veterans' satisfaction
    <bullet> Future direction of health care: Take into account new 
technologies and modern systems of health care delivery
    <bullet> Functions: Analyze facility capacity and array of programs 
for special disability groups
    <bullet> Work force and community assets: Availability in the 
market area
    <bullet> Support other VA missions: VA must continue to support 
research, sharing agreements with DoD, education, and One VA 
initiatives
    <bullet> Resources: VA should achieve optimal use of resources.
    The implementation of the final results of CARES process reviews 
will be a realignment of facilities intended to provide veterans better 
access to improved care in more efficient settings. It is my goal to 
ensure that we use the resources we are provided to deliver the best 
possible health care to those eligible veterans in a patient-focused 
system that optimizes outpatient care integrated in a full continuum of 
care.
    At the present time, the Department is conducting a pilot CARES 
study in a single Veterans Integrated Service Network to validate the 
process and ensure that it will be an efficient, timely and productive 
process to be used over the balance of the VA facilities nationwide. It 
will be one of my responsibilities to ensure that a full review of the 
process is completed and that necessary changes to the process are 
incorporated as we move forward.
           issue 6: transition to performance based budgeting
Background:
    The Government Performance and Results Act of 1993, P.L. 103-62, 
also called ``the Results Act,'' or GPRA, encourages greater 
efficiency, effectiveness, and accountability in federal spending, and 
requires agencies to set goals and to use performance measures for 
management and, ultimately, for budgeting.
    The Department transmitted to the Office of Management and Budget 
(OMB) and to Congress long-range strategic plans, beginning in 1997, 
which are updated every three to five years, and annual performance 
plans and performance goals that began with the FY 1999 budget. The 
Department's first performance reports, comparing actual performance to 
goals, was submitted in 2000 (for FY 1999) and in 2001 (for FY 2000).
Problem:
    The problem we face is explained by the following quote from the 
Administration's FY 2002 Budget Request:
          The initial years of GPRA implementation have focused on 
        developing a performance management framework, accompanied by a 
        growing increase in the use of this performance information to 
        support budget decisions. However, a systematic integration of 
        budgeting with program performance has yet to occur, and GPRA 
        has not been fully harnessed to improve management and 
        managerial accountability. Bringing about a better linkage 
        between performance and budget information will be a priority 
        of this Administration. As a first step, department and agency 
        heads have been directed to ensure that their 2002 Performance 
        Plans, which will be submitted to Congress in April, also 
        include performance goals for Presidential initiatives and for 
        Government-wide and agency-specific reform proposals.
Plan to resolve problem:
    Funding levels and program priorities are typically driven by the 
President's budget request, political concerns, and the amount of 
funding provided in previous years. GPRA adds another factor: the 
performance of agencies in achieving their program outcomes.
    The traditional funding debate has been on how much to spend--i.e., 
inputs. The budget is organized by accounts, and further broken down 
into various program activities. The accounts reflect the funding units 
in appropriation action.
    On the other hand, GPRA focuses on ``outcomes''--i.e., government 
provided goods and services. Performance plans and reports link 
expected results with budget expenditures. Performance budgeting takes 
the next step--linking anticipated results to alternative spending 
levels.
    Performance-based budgeting is only effective if you know the 
relationship between the inputs, outputs and outcomes. The only way to 
know whether or not a program needs more resources after reviewing 
performance information is to be able to understand the relative 
contribution of money compared to other factors that contribute to 
performance. The relationship between costs and performance is unknown, 
however, unless the Department has good information on each.
    The Department's most immediate need for successful implementation 
of performance-based budgeting is to employ systems that provide 
effective cost accounting and accurate performance data on outcomes and 
outputs.
    In January 2001, leaders of the Senate Committee on Governmental 
Affairs and the GAO released the 21 reports in the ``GAO Performance 
and Accountability Series and High Risk Updates.'' In a GAO report 
(GAO-01-255), entitled ``Major Management Challenges and Program 
Risks,'' the Department of Veterans Affairs' performance and 
accountability challenges were identified as follows:
    <bullet> Ensure timely and equitable access to quality VA 
healthcare;
    <bullet> Maximize VA's ability to provide healthcare within 
available resources;
    <bullet> Process veterans' disability claims promptly and 
accurately, and
    <bullet> Develop sound agency-wide management strategies to build a 
high-performing organization.
    In May 2001, the Mercatus Center released a critique of FY 2000 
performance reports. For FY 2000, the Department of Veterans Affairs' 
performance report scored the highest. (The Department was rated third 
in FY 1999.) The ratings were based upon three criteria: transparency, 
public benefits, and leadership.
    As we go forward, the 2003 budget will include more performance 
information and the new strategic plan will integrate detailed 
performance and budget data to establish a stronger, more extensive and 
public link between the agency budget requests and performance 
measurement in the President's budget. We will also be concentrating on 
the generation of credible, outcome-focused metrics for Fiscal Year 
2002 and subsequent fiscal years budget execution.
                      issue 7: work force planning
Problem:
    The looming Federal personnel crisis has been prominently 
publicized in newspapers and periodicals. The average age of the 
Federal employee is 46 years old. By 2005, approximately 34 percent of 
the Federal work force will be eligible for regular retirement, and 20 
percent more will be eligible for early retirement. A worse case 
scenario would be that, within the next four years, nearly 1 million 
employees could potentially leave the Federal work force. A more likely 
scenario, however, is that a few hundred thousand employees will leave 
the work force. In any event, the Government needs to have a plan in 
place to deal with a large number of departing employees and to plan 
work force needs in the future to prevent similar crises.
Plan to resolve problem:
    For VA, this means developing a human capital strategy that begins 
by planning for and identifying which combination of people, processes, 
and technology solutions will best enable VA to fulfill its mission in 
the future. I am currently overseeing VA's ongoing initiatives to 
address work force planning which are:
Office of Work Force Planning
    <bullet> Established February 2001,
    <bullet> Staffed with a cadre of cross-functional experts 
(Management Analyst, Personnel Management Specialist, Employee 
Development Specialist, Computer Specialist)
    <bullet> Responsibilities include facilitating the Departmental 
work force planning process and assisting the administrations and staff 
offices in their work force planning initiatives.
Work Force Planning Executive Steering Committee
    <bullet> Established January 2001.
    <bullet> Membership includes key Department executives in the 
administrations and staff offices.
    <bullet> Responsibilities include championing, developing, and 
monitoring a One VA work force planning process that will enable 
management to determine what kinds of employees and infrastructure are 
required to accomplish VA's mission and develop and implement 
strategies to meet those needs.
Executive Steering Committee Work Group
    <bullet> Established April 2001.
    <bullet> Membership includes representatives from the 
Administrations and Staff Offices.
    <bullet> The purpose is to develop a Departmental Work force Plan 
that identifies the Department's commitments to its work force in order 
to remain competitive in recruiting, retaining, and developing a top-
quality work force to serve our Nation's veterans and their families.
Departmental Work force Plan
    <bullet> Target date: December 2001. The Plan will:
    1. Articulate VA's corporate vision for its work force;
    2. Analyze current and future work force needs;
    3. Identify specific strategies to address the recruitment, 
retention, and development issues within the Department; and
    4. Align with the Department's strategic plan in order to ensure 
that work force planning efforts support the mission of the Department.
VA Administration Efforts
    <bullet> VHA has established the Succession Planning Committee to 
oversee the implementation of a VHA succession plan and a Staffing 
Focus Committee to analyze the entire HR function in order to compare 
against the Baldrige Criteria and make improvements.
    <bullet> VBA has begun to address leadership development and 
training needs; Competency development; technical training; 
recruitment; and retention of Veterans Claims Examiner's expertise. NCA 
developed a work force plan for its National Cemetery Directors, has 
identified competencies for Directors, and is implementing a Cemetery 
Director Trainee Program.
    Additionally, at the direction of the Secretary we have initiated 
efforts to ensure the Department of Veterans Affairs continues and 
intensifies its efforts to achieve a work force reflecting the Nation's 
diversity.
                   issue 8: capital asset management
    VA's need to efficiently manage and maximize its capital assets, as 
well as develop innovative and entrepreneurial methods for achieving 
its goals, has become even more critical during this time of dwindling 
capital appropriations.
Problem:
    The lack of a Department-level capital asset management function 
resulted in a fragmented and uncoordinated approach to capital asset 
acquisition, management and disposal. The Department has made excellent 
strides toward linking its capital acquisitions with strategic planning 
through the capital investment process. However, this process focuses 
primarily on prioritizing capital acquisition proposals to meet 
specific Department goals. The Department does not have a ``Department 
Capital Asset Plan'' that will enable VA to fully consider the 
financial impacts of its acquisition, management and disposal 
strategies on Departmental resources and determine the best suited 
financial plan for such strategies.
Plan to resolve problem:
    An initial review directed by Secretary Principi has shown the need 
for a comprehensive, corporate level, capital asset management function 
in the Department of Veterans Affairs. This need has been validated by 
VA's internal experiences as well as OMB, GAO and independent 
consultants. This was highlighted by a PriceWaterhouseCoopers 
independent study, requested by the Under Secretary for Health, which 
concluded that the VA, much like private industry, should view its 
capital as financial assets. Several task forces, congressional 
hearings, and inquiries into VA's lack of capital asset management 
arrived at similar findings.
    Secretary Principi has implemented a Departmental-level capital 
asset functions, the Office of Asset Enterprise Management (OAEM). It 
is the principal policy office and business advisor to the Assistant 
Secretary for Management regarding the acquisition, management, and 
disposal of all Department capital assets and will provide oversight to 
ensure a consistent and cohesive Department approach to capital assets. 
The new office will first promulgate Department capital asset policy 
and set standards for investments, followed by establishment of a 
database portfolio of VA's capital assets. The office staff can then 
analyze and manage proposals to take full advantage of asset 
opportunities.
    The OAEM will serve as the Department's advocate for capital 
investments with the Office of Management and Budget (OMB) and 
Congress. Development and submission of a long-term Capital Asset Plan 
will streamline current interactions with OMB regarding capital issues 
by altering our submission to OMB, which currently results in detailed 
single project reviews.
           issue 9: va's information technology (it) systems
Problem:
    Although it currently has over 400 IT legacy systems, the VA lacks 
a One-VA information technology architecture that is fully aligned with 
its program/business goals which enables data integration and 
communication across the department.
Plan to resolve the problem:
    Secretary Principi has outlined his position on Information 
Technology before a number of congressional committees. He has directed 
senior managers to develop an Enterprise Architecture process which 
will allow the Department to provide an accessible source of 
consistent, reliable, accurate, useful, and secure information. The 
system will also provide knowledge to veterans and their families, our 
work force and stakeholders to support effective delivery of services 
and benefits, enabling effective decision-making and understanding of 
our capabilities and accomplishments.
    To accomplish this task, a group of senior VA business line and 
information technology officials have been meeting in intensive off-
site weekend sessions to develop a strategy that will act as the 
roadmap for the Department's transition from its current ``as-is'' 
state to a target ``to-be'' environment. These transition processes 
will include an agency's capital planning and investment control 
processes, agency EA planning processes, and agency systems life cycle 
methodologies. The EA will define principles and goals and set 
direction on such issues as the promotion of interoperability, open 
systems, public access, compliance with GPEA, end user satisfaction, 
and IT security.
    A report to the Secretary from this group is expected in August. In 
the interim, the Secretary has directed that no new technology funds be 
sought or expended until the plan has been reviewed and accepted.
    The Secretary is also reviewing a number of on-going projects and 
systems that have faced challenges, including whether VETSNET can 
successfully be implemented in a real world environment. An independent 
audit is currently being conducted to ascertain whether it can meet 
load test requirements. A report will be available in mid-August.
    A Senior Executive Service level ``Cyber-Security'' Director 
position has been created, and a highly qualified candidate has been 
selected to fill the position. He is currently conducting an 
independent technical assessment of all of VA's security needs. A 
national conference of all VA IT security officials was held this 
month.
    The VA is also taking active steps to ensure that all future VA IT 
acquisitions comply with Section 508 of the Rehabilitation Act of 1973. 
as recently mandated.
    Information and Technology will be a special area for focus in our 
new governance process. I will continue to pay particular attention and 
work with our senior IT officials to improve the quality and structure 
of our program management.
             issue 10: va role in national disasters/crises
Problem:
    We at VA must recognize the changing nature of both internal and 
external threats. And, as we manage our work force and resources, we 
must continue to ensure that we are prepared to carry out the 
responsibilities assigned us in national plans. This effort requires 
constant management oversight and a continuous updating and training of 
our personnel.
Plan to resolve problem:
    Our staffs initial review has shown that VA uses an all-hazards 
Comprehensive Emergency Management approach that includes four phases: 
mitigation, preparedness, response, and recovery. VA's role has focused 
around three interrelated efforts:
    <bullet> Critical Infrastructure Protection;
    <bullet> The Emergency Management Program; and
    <bullet> The Response to Weapons of Mass Destruction.
    Within the context of each of these programs, VA partners with 
other Federal Departments and agencies.
    Critical Infrastructure Protection serves to protect the VA 
infrastructure from intentional acts that would significantly diminish 
our ability to perform our mission of serving veterans. The program 
serves to protect four key components: physical assets--consisting of 
facilities around the country; patients and staff--including veterans, 
employees, contractors and volunteers; telecommunications systems; and 
information systems.
    VA's Emergency Management Program works with the Federal Emergency 
Management Agency to ensure that critical functions and operations 
continue under all circumstances and under a wide range of possible 
threats. Upon Presidential declaration of a major disaster, VA is 
prepared to provide support to lead agencies (DoD, American Red Cross, 
GSA, and HHS) for emergency support functions relating to public works 
and engineering, mass care, resource support, and health and medical 
services. Additionally, the Department serves as the primary back-up to 
DoD for military contingencies and is one of the four federal partners 
in the National Disaster Medical System that operates to provide 
capability for treating large numbers of patients who are injured in 
major peacetime disasters or to treat casualties from overseas military 
conflicts. A key component of VA's Emergency Management Program is 
Continuity of Operations (COOP) that ensures the continuance of VA 
operations under a wide range of possible threats ranging from local 
fires and flooding at VA facilities to the complete relocation of VA 
headquarters activities due to national disaster or deliberate attack. 
VA is involved in planning, coordination, training and exercises at the 
local, State, and national level to prepare for the full spectrum of 
catastrophic events.
    VA supports other Departments and agencies in protecting against 
the use of Weapons of Mass Destruction against our country. VHA 
supports the HHS Office of Emergency Preparedness in ensuring that 
adequate stockpiles of antidotes and other necessary pharmaceuticals 
are maintained nationwide. VHA's Emergency Pharmacy Service maintains 
four pharmaceutical caches around the country that are available for 
immediate deployment in the event of an actual weapons of mass 
destruction incident. A fifth cache is placed on-site at special high-
risk national events, such as the President's inauguration. Under the 
National Pharmaceutical Stockpile Program, VA has a separate agreement 
with the Centers for Disease Control and Prevention to procure 
pharmaceuticals for use in a WMD event.
    Although VA has the extensive involvement I have just explained, 
the readiness of the Federal government to cope with widespread acts of 
terrorism and other catastrophe's is doubtful. FEMA has been given the 
lead within the government to coordinate a revamped preparedness effort 
through its Office of National Preparedness. I intend to work closely 
with that Office to enhance VA's role in the Federal government's 
ability to cope with these actions.

    Chairman Specter. We will turn now to Ms. Robin Higgins. 
Let me say at the outset, Ms. Higgins, how so many of us in the 
Senate and the country were shocked with the brutal murder of 
your husband. I was on the Senate floor when Senator Dole made 
as impassioned a speech as I have ever heard about the brutal 
treatment which your husband sustained. We are delighted to see 
you here today and to see all that you have done, including 
your book, ``Patriot Dreams: The Murder of Colonel Rich 
Higgins.''
    We look forward to hearing your views as to what ought to 
be done in the position for which you have been nominated as 
Under Secretary for Memorial Affairs. We note the excellent 
background that you bring to this job, the substantial 
experience in Government, which is obviously a big help to get 
off to a running start. You are now Executive Director of the 
Florida Department of Veterans Affairs. You served during 
George Herbert Walker Bush's administration as Deputy Assistant 
Secretary and then Acting Assistant Secretary for Veterans 
Employment and Training in the Department of Labor. You have an 
excellent educational background.
    We look forward to your comments and then we will have some 
questions for you, on which the tone has been set. We would be 
pleased to hear your opening statement, Ms. Higgins, to the 
extent you care to make one.

STATEMENT OF ROBIN L. HIGGINS, NOMINEE FOR UNDER SECRETARY FOR 
    MEMORIAL AFFAIRS, DEPARTMENT OF VETERANS ADMINISTRATION

    Ms. Higgins. Thank you. I know that the entire brief 
statement will be put in the record. But I would like to make a 
shorter statement.
    Chairman Specter. That is fine. Proceed. All written 
statements, without objection, will be made a part of the 
formal record.
    Ms. Higgins. Mr. Chairman, members of the committee, thank 
you for the opportunity to appear before you today.
    I am humbled and I am grateful for the confidence of 
President Bush in nominating me to be Under Secretary for 
Memorial Affairs in the U.S. Department of Veterans Affairs. I 
hope that I will earn your confidence as well.
    I was a Marine officer working in the Pentagon when my 
husband, who was on a peacekeeping tour in the Middle East, was 
taken hostage in Lebanon and later murdered by his captors. 
Almost 4 years later, I was finally able to bring him home and 
bury him in beautiful Quantico National Cemetery right down the 
road from here. I know of the adversity that fills the lives of 
those who have worn this country's uniform.
    There is no more sacred trust than that we hold our 
servicemen and women in the palms of our hands by burying them 
on hallowed ground when they die. I know how important it was 
for almost 4 years for me to find my husband and bring him home 
to be buried on American soil with his brothers and sisters in 
arms.
    And everyday that I work to do the right thing for veterans 
is a day that I can show my gratitude for the favor that 
veterans showed me in holding me in the palm of their hand when 
I needed support.
    Winston Churchill once said, ``A Nation that does not honor 
its heroes will soon have no heroes to honor.'' If confirmed as 
Under Secretary for Memorial Affairs, I will serve with passion 
and with care, and will be committed to honor America's heroes 
as they deserve to be honored.
    I will be glad to take any questions that you might have 
for me.
    [The prepared statement of Ms. Higgins follows:]
Prepared Statement of Robin L. Higgins, Nominee for Under Secretary for 
        Memorial Affairs, Department of Veterans Administration
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear before you today.
    I am humbled and grateful for the confidence of President Bush in 
nominating me to the Under Secretary for Memorial Affairs at the U.S. 
Department of Veterans' Affairs. I hope that I will earn your 
confidence as well.
    In 1988, I was a Marine officer serving in the Pentagon, and my 
husband, a Marine colonel, was on an overseas assignment with the 
United Nations in the Middle East.
    One morning, he was captured by terrorists in Lebanon, and my life 
was changed forever. Until a gruesome picture of him hanging appeared 
in newspapers and TV screens around the world--a year and a half 
later--I had no idea whether he was dead or alive.
    On December 23, 1991, almost 4 years after he was taken, his body 
was dumped on a Beirut street--on my 41st birthday and what would've 
been our 14th wedding anniversary. I buried him later that week in 
beautiful Quantico National Cemetery just down the road from here.
    I know that those who wear and have worn their country's uniform 
are in a business filled with adversity. The world is still a dangerous 
place. Fighting wars and keeping peace is the most difficult and 
demanding of jobs.
    Soldiers, Sailors, Airmen, Marines, Coast Guardsmen, Merchant 
Mariners--veterans all--understand the duty to country that causes a 
man or woman to risk his or her life to try to make a difference.
    I believe there is a fabric that weaves together people of 
conscience through the ages and around the world. That fabric is bound 
with the moral and spiritual lineage of men and women of honor, courage 
and integrity; those who value something more than their own personal 
safety. Bound into this fabric are the lives and loves of service 
members and their families from all times, those who came home, and 
those who didn't, and those who fate remains unknown.
    George Washington said, ``The willingness with which our young 
people are likely to serve in any war, no matter how justified, shall 
be directly proportional as to how they perceive the veterans of 
earlier wars were treated and appreciated by their nation.''
    That still rings true today.
    There is no more sacred trust than that we hold our servicemen and 
women in the palms of our hand, and bury them on hallowed ground when 
they lose their personal battles on earth.
    I know how important it was to me to find my husband and bring him 
home, to be buried on American soil with his brothers and sisters in 
arms.
    And ever day that I work to do the right thing for veterans is a 
day I can show my gratitude for the favor veterans showed me in holding 
me in the palms of their hand when I needed their support.
    Winston Churchill once said, ``A nation that does not honor its 
heroes will soon have no heroes to honor.''
    If confirmed as Under Secretary for Memorial Affairs, I will serve 
with passion and with care, and will be committed to honoring America's 
heroes as they deserve to be honored.
    I will be glad to take any questions you may have for me.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part 1: all the information in this part will be made public
    1. Name: Robin L. Higgins
    2. Address: 3026 White Ibis Way, Tallahassee, FL 32308
    3. Position: Under Secretary of Memorial Affairs, Department of 
Veterans' Affairs
    4. Date of Nomination: March 30, 2001
    5. Birth date: December 23, 1950
    6. Birth place: Bronx, NY
    7. Marital status: Widowed
    8. Children, age: None
    9. Education: Institution (city, state), dates attended, degrees 
received, dates of degrees.
    CW Post College, Brookville, NY; 9/72-9/77; MS; 5/77
    State U of NY, Oneonta, NY; 9/68-1/72; BA; 1/72
    Hebrew U, Jerusalem, Israel; 6/70-8/71
    10. Honors: List all scholarships, fellowships, honorary degrees, 
military medals, honorary society memberships, and any other special 
recognitions for outstanding service or achievement.
    Marine Corps League, Dickey Chappelle Award, 1990
    American Legion Auxiliary, Public Spirit Award, Feb 1992
    American Academy of Physician Assistants, Veterans Caucus Award, 
1993
    Department of Defense, Defense Meritorious Service Medal, Jan 1989
    USMC, Meritorious Service Medal, Oct 1995
    USMC, Navy Commendation Medal
    USMC, National Defense Service Medal
    11. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant.
    Disabled American Veterans, American Legion, The Retired Officers' 
Association, Jewish War Veterans, AMVETS, Marine Corps League, Marine 
Corps Association.
    12. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work and inclusive 
dates of employment.
    1/99-5/01, Executive Director, Florida Department of Veterans' 
Affairs, Tallahassee, FL
    1/98-12/99, Self Employed (author, speaker, webmaster), 
Tallahassee, FL
    8/95-12/97, Public Affairs Director, Office of the Comptroller, 
Tallahassee, FL
    [break for military service]
    9/74-6/75, English Teacher, Smithtown HS East, St James, NY
    2/74-6/74, Substitute Teacher, North Shore HS, Glen Head, NY
    9/73-2/74, Mendelsohn Zeller, San Francisco, CA
    2/72-8/73, Sholkoff's Opticians, Glen Cove, NY
    13. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge.
    United States Marine Corps, 10/75-10/95, Honorable Discharge
    10/75-3/76, Officer Candidate School, The Basic School, Quantico, 
VA, 2nd Lt
    3/76-5/76, MP School, Ft McClellan, AL
    5/76-5/77, Effective Communication Instructor, Quantico, VA
    6/77-5/78, MP, Security Company, Okinawa, 1st Lt
    6/78-5/80, Academic Supervisor, Special Projects, Camp Lejeune, NC
    6180-8/83, Administrative Officer, Headquarters, USMC, Washington, 
DC, Capt
    8/83-7/84, Student, Amphibious Warfare School, Quantico, VA
    7/84-5/85, Adjutant, HQCO, HQSVCBN, Quantico, VA
    6/85-8/90, Admin Officer, HQMC, Washington, DC, Major
    8/90-6/91, Student, Command and Staff College, Quantico, VA
    7/91-3/92, Public Affairs Officer, 4th MarDiv, New Orleans, LA
    3/92-1/93, Deputy Assistant Sec of Labor for Veterans' Employment 
and Training; then Acting Assistant Sec of Labor for VETS (detailed), 
LtCol
    1/93-10/95, Head, Media Branch; then Spokesman for the Commandant
    14. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above: None
    15. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written.
    Patriot Dreams--The Murder of Colonel Rich Higgins, 1st edition 
published by Marine Corps Association (Mar 1999), 2nd edition published 
by Hellgate Press (Oct 2000)
    16. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years: None
    (b) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: None
    17. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate: Yes
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: No
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A
    (e) (if appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes
    18. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated: None
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated: None
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: None
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy. None
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.) N/A
    19. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes
                                 ______
                                 
Response to Written Questions Submitted by Hon. Arlen Specter to Robin 
                               L. Higgins
    Question 1a. As you know, Ms. Higgins, the Commonwealth of 
Pennsylvania is very much underserved in terms of available National 
Cemetery space. I am pleased that VA--after legislative prodding--is 
moving forward in Western Pennsylvania with the impending acquisition 
of land for cemetery use south of Pittsburgh. The job, then, will soon 
be one-half done. As you know, however, Eastern Pennsylvania needs 
cemetery capacity as badly as Western Pennsylvania does--and 
Philadelphia cemetery is closed to new casketed remains, and so too are 
nearby VA cemeteries in New Jersey. And VA's cemetery in Indiantown Gap 
is simply too far--over 100 miles--for Philadelphians to find of 
practical use.
    I have introduced legislation to transfer land in Valley Forge 
National Park to VA for development as a national cemetery. Do you 
support enactment of that legislation?
    Answer. I recognize the large and aging veterans' population in 
Pennsylvania, and I am gratified to see the unmet need in the western 
part of your State is being addressed. I support having national or 
state veterans cemeteries as close as possible to as many veterans as 
possible. To fulfill the requirements of Section 613 of the Millennium 
Act, a study is now underway to determine the future burial needs of 
veterans. Using concentrations of veteran populations, the study will 
identify areas of the country most in need of national cemeteries. The 
study is due for completion by the end of the year. Once we have 
reviewed the data, we will be in a better position to determine where 
new national cemeteries should be located. While I, therefore, cannot 
respond specifically to your legislation at this time, I do agree and 
pledge that we are committed to serving veterans where they are 
currently not served, based on veteran demographics.
    Question 1b. If you do not support the acquisition of Valley Forge 
lands, why do you not support it? Do you know of--or will you locate--
other sites in or near Philadelphia where a VA cemetery might be 
established?
    Answer. One of the very first things I am doing is getting briefed 
on the current status of our cemeteries and where our unmet needs are. 
Until I have information identifying the areas most in need, I cannot 
address where a cemetery should be located. Once the unserved areas are 
identified, I will ensure that all options for meeting those needs are 
fully explored, including those in Pennsylvania.
    Question 1c. Will you commit to work with me to resolve the problem 
of the total unavailability of cemetery space in Eastern Pennsylvania?
    Answer. I most certainly will work with you either to establish a 
national cemetery if the demographic data being collected supports it, 
or work with you and your State officials to establish a state veterans 
cemetery funded through the State Cemetery Grants Program.
    Question 2. As a former State Director of Veterans Affairs, you are 
familiar with VA grant programs to encourage the construction of State 
veterans cemeteries. Do you support this program? If you are confirmed, 
how would you encourage increased participation in VA's State cemetery 
grant program.
    Answer. First, I want to applaud the Congress for enacting Public 
Law 105-368, which provided for Federal participation of up to 100 
percent for state cemetery grants. The law's enactment has effectively 
encouraged participation in the program. The State Cemetery Grants 
Program is an important part of the National Cemetery Administration's 
strategy for meeting the needs of our veterans. It is a successful 
program, and I support it wholeheartedly. In FY 1999, 43 operational 
state veterans cemeteries provided 14,354 burials to veterans and 
eligible family members. This figure represented a 7.7 percent increase 
over the previous year and accounted for approximately 15 percent of 
the total number of burials provided by VA national cemeteries and VA-
assisted state cemeteries combined.
    NCA works closely with the members of the National Association of 
State Directors of Veterans Affairs (NASDVA). That NCA now has on hand 
35 pre-applications for cemetery grants, including 25 for the 
establishment of new cemeteries, is a measure of the State Directors' 
support for the program. I will use my relationship with the 
organization and its members to emphasize the value of the State 
Cemetery Grants Program.
    In FY 2000, VA awarded more than $20 million in grants. This was a 
record for one year and constituted nearly 25 percent of the total 
amount awarded in the history of the program since 1980. A total of 37 
states (including Guam and the Commonwealth of the Northern Marianas 
Islands) has either received or applied for grants. It is expected that 
two or three more States will apply this year. I want to continue this 
level of participation to ensure more veterans have a burial option.
    Question 3. Do you think that States ought to assist in the burial 
of those who served in the cause of national defense? Should this be a 
solely Federal responsibility? Or is it one that the States 
appropriately share with VA?
    Answer. States have been involved in providing veteran burial 
services, including state veterans cemeteries, since the Civil War. 
This is appropriate because of the unique nature of our government as a 
federation of States. The State Cemetery Grants Program is a true 
partnership between the States and the Federal Government and has 
proven to be very effective in complementing the foundation of VA 
national cemeteries.
    VA has more than doubled the acreage available to veterans in 
national cemeteries since they were transferred to its jurisdiction in 
1973. It is not possible, however, to place cemeteries everywhere 
veterans reside. Some areas of the country will remain remote from 
available national cemeteries. Since 1980, the State Cemetery Grants 
Program helped to fill the gap.
    Question 4. The National Cemetery Administration (NCA) has sought 
funding for its so-called ``National Shrine Commitment.'' Are you 
familiar with this initiative? Would you please explain it to me? Do 
you support the ``National Shrine Commitment?'' What would be your 
criteria for allocating ``National Shrine Commitment'' funding? Do 
you--or will you--have a listing of projects ranked according to need?
    Answer. I do believe in the National Shrine Commitment, and I fully 
support this initiative. Title 38, United States Code, Section 2403(c) 
states in part that ``all national and other veterans' cemeteries under 
the control of the National Cemetery Administration shall be considered 
national shrines as a tribute to our gallant dead. . . .'' A fair 
number of our cemeteries were established during or immediately after 
the Civil War; most were established before mid-20th Century. The 
National Shrine Commitment is an initiative to restore the appearance 
of burial grounds and historic structures of our national cemeteries. 
Aside from the natural aging of some of our infrastructure, as our 
burial workload has increased, needed maintenance and repair projects 
have been deferred to maintain interment operations. Some national 
cemeteries are in need of substantial repair. The National Shrine 
Commitment, therefore, is geared to bring those of our cemeteries found 
wanting up to the standard of a ``national shrine'' as stated in law.
    The FY 2001 appropriation contained $5 million to begin the 
National Shine Commitment initiative. The President's 2002 Budget 
requested an increase in the amount of funding by another $5 million, 
bringing the total requested amount in FY 2002 to $10 million.
    One criterion used to allocate funding has been through what 
cemetery visitors indicate they want from a national cemetery. NCA 
identified deficiencies in the appearance of headstones and markers and 
the condition of some gravesites at a number of its national 
cemeteries. These projects were selected because customer feedback from 
our surveys indicates that the appearance and condition of headstones 
or markers and individual gravesites are two factors that significantly 
impact the satisfaction families and visitors experience when they 
visit a national cemetery. The $5 million provided in the 2001 
appropriation will be used to address identified deficiencies at four 
national cemeteries: Long Island National Cemetery in New York, 
Willamette National Cemetery in Oregon, Golden Gate National Cemetery 
in California, and Fort Sam Houston National Cemetery in Texas. The 
cemeteries were established in 1936, 1950, 1941, and 1926 respectively.
    When the study directed by Section 613 of the Veterans Millennium 
Health Care and Benefits Act to inventory one-time repairs at each 
national cemetery is completed later this year, this assessment will 
validate the already identified deficiencies. We anticipate the study 
results will assist us in identifying the most necessary one-time 
repairs so we can proceed in an orderly manner to achieve visible 
national shrine status for each of our cemeteries.
    Question 5. Do you believe NCA is adequately prepared for the 
increasing number of veterans expected to be buried in the next few 
years? In short, can VA handle the accelerating demise of the World War 
II generation?
    Answer. One of NCA's goals is to ensure that the burial needs of 
our Nation's veterans and eligible family members are met. We are 
projecting that the percent of veterans served by a burial option in a 
national or state veterans cemetery within a reasonable distance of 
their residence will increase from 76 percent in FY 2001 to 88 percent 
by FY 2006. At the end of 2001, of the 119 existing national 
cemeteries, 87 will have space for first interments, whether full-
casket or cremated remains, to include either in-ground or in 
columbaria.
    To ensure that burial options are provided for all eligible 
veterans, including those from World War II and their eligible family 
members, NCA is developing additional national cemeteries, expanding 
existing national cemeteries where appropriate, developing more 
effective use of available burial space, and encouraging individual 
States to establish state veterans cemeteries through the State 
Cemetery Grants Program.
    New National Cemeteries: As you know, we are establishing new 
national cemeteries to serve veterans in the areas of Oklahoma City, 
Oklahoma, at Fort Sill; Atlanta, Georgia; Detroit, Michigan; Miami, 
Florida; Pittsburgh, Pennsylvania; and Sacramento, California. Beyond 
the opening of these six new national cemeteries, Section 613 of the 
Millennium Act directed that an independent study be conducted to, 
among other things, identify those areas of the United States with the 
largest number of unserved veterans and identify the number of new 
cemeteries needed from 2005 to 2020. This study will guide us in the 
future as we strive to achieve our long-range goal of providing all 
eligible veterans reasonable access to a burial option.
    Expansion of Burial Space at Existing Cemeteries: VA monitors 
gravesite usage and projects gravesite depletion dates at open national 
cemeteries that have land for future development. As these cemeteries 
approach their gravesite depletion dates, VA ensures that construction 
to make additional gravesites or columbaria available for burials is 
completed. Construction projects to make additional gravesites or 
columbaria available for burial are currently underway at many national 
cemeteries, including Barrancas National Cemetery, Florida; Florida 
National Cemetery; Fort Sam Houston National Cemetery in Texas; the 
National Memorial Cemetery of the Pacific in Hawaii; and Santa Fe 
National Cemetery in New Mexico. In addition, we have projects in 
progress for 26 other national cemeteries to increase burial space.
    Acquisition of Land to Extend Cemetery Life: Appropriate land 
acquisition is a key component to providing continued accessibility to 
burial options. NCA continues to identify national cemeteries that are 
expected to close because of depletion of grave space, and will 
determine the feasibility of extending the service life of those 
cemeteries by acquiring adjacent or contiguous land, or by constructing 
columbaria. These actions, which depend on such factors as the 
availability of suitable land and the cost of construction, are not 
possible in every case. Efforts are underway now to acquire additional 
land for interments at Barrancas, Culpeper and Natchez national 
cemeteries.
    State Veterans Cemeteries: In addition to our national cemeteries, 
state veterans cemeteries also provide burial options for our Nation's 
veterans. In FY 2000, four new state veterans cemeteries opened; more 
than 14,000 interments were performed by state veterans cemeteries; and 
funds were obligated to establish, expand or improve 12 veterans 
cemeteries in 10 States. To date, 42 operating state veterans 
cemeteries have been established, expanded or improved through the 
State Cemetery Grants Program. A new state veterans cemetery recently 
opened at Little Rock, Arkansas. We expect new state cemeteries to open 
in Northern Wisconsin, Massachusetts near Springfield, Eastern Montana, 
and Maine in Augusta all before mid-June. A state veterans cemetery in 
Milledgeville, Georgia, should open before the end of the year.
    I believe that the strategies and efforts stated, well-managed and 
funded, will enable VA to address the increasing burial demand from 
America's veterans.
    Question 6. I have heard that many families are choosing to have 
their loved one's remains cremated and placed in a columbaria rather 
than having a traditional casket burial. In your view, does NCA have 
the capacity to meet the demand for this form of burial? If not, will 
you propose any changes to meet the demand?
    Answer. NCA recognizes the demand for access to burial of cremated 
remains. NCA offers the option of full casket interments, in-ground 
interment of cremated remains, columbaria niches, and memorial areas 
for markers in memory of those eligible persons whose remains are not 
interred. In-ground cremation sections exist in all open national 
cemeteries, and limited in-ground cremated remains sites are generally 
available at most national cemeteries that no longer have space to 
accept full casket burials. Columbaria units (freestanding, above-
ground, concrete structures with individual niches) currently exist in 
17 national cemeteries. NCA has noted a progressive increase in both 
actual numbers and in percentage of interment of cremated remains at 
our national cemeteries. NCA is constructing more columbaria to expand 
this option for veterans and their families.
    Beginning with Tahoma National Cemetery (opened October 1997), all 
new national cemeteries include columbaria in their first phase of 
construction. Whenever an expansion project to a currently existing 
national cemetery is planned, the option of constructing columbaria is 
always considered and added, if feasible. Where columbaria already 
exist, NCA works to ensure that they are expanded when needed to meet 
this increasing demand. For example, two of the three major 
construction projects submitted in the President's Budget are for the 
expansion of the columbaria at Tahoma National Cemetery in Washington 
and Massachusetts National Cemetery. Also, we are currently building 
the first columbaria at the Florida National Cemetery, NCA's third 
busiest cemetery, to expand this important service to the veterans 
served at that location.
    Question 7. To save on the costs of acquiring land for national 
cemeteries, do you believe the opportunity exists to collaborate with 
other Federal agencies to accomplish the transfer of unused or 
underutilized land? If so, what agencies might have lands available for 
transfer to VA for cemetery use?
    Answer. NCA operates by using concentrations of veterans who are 
not currently served by a burial option as the determining factor for 
where a national cemetery should be established. If there are Federal 
facilities within that geographic area with available land suitable for 
a national cemetery, this land is always considefed. For example, the 
new national cemetery being developed near Oklahoma City, Oklahoma, is 
on land formerly belonging to the U.S. Army at Fort Sill, Oklahoma. We 
received 982 acres of the former Joliet Army Ammunition Plant through 
transfer from the Army to establish the new Abraham Lincoln National 
Cemetery. Although significant dollars have been saved by not having to 
purchase privately-owned land, I do think that the overriding factor 
should be the provision of effective service to the veteran.
    Expansion of existing national cemeteries to provide continual 
burial options to veterans is a primary goal of NCA, and will be mine 
as well. Our two busiest cemeteries, Riverside National Cemetery and 
Calverton National Cemetery, are located on land that formerly belonged 
to the Department of the Air Force and Department of the Navy 
respectively. Both cemeteries have benefited from additional land 
transfers from these agencies to provide for future burial space. On 
many occasions, we have found the means to expand within our own 
agency's holdings on adjacent, excess Veterans Affairs Medical Center 
land owned by the Veterans Health Administration. Such is the case at 
Jefferson Barracks National Cemetery in St. Louis, Missouri.
    The Department of Defense is the Federal agency that has provided 
the bulk of land utilized by NCA for the establishment or expansion of 
national cemeteries. However, State governments have also been the 
source of some acquisitions. For instance the State of Florida provided 
land at no cost for the establishment of Florida National Cemetery and 
subsequently transferred additional acreage.
    We are also grateful for the help Congress has provided to us in 
facilitating the transfer of land from other Federal agencies to VA for 
national cemetery use.
    Question 8. Section 301 of Public Law 106-511 expressed the Sense 
of the Congress that a single repository of information be developed to 
inventory all public memorials that commemorate the military conflicts 
of the United States and the service of individuals in the Armed 
Services. Do you believe this might be an issue on which NCA might take 
the lead during your tenure?
    Answer. I fully comprehend the debt owed to veterans and the 
significance of memorials erected to commemorate their sacrifices. We 
manage a number of such ``military'' memorials, and we would gladly 
participate in a project that would result in a comprehensive inventory 
of every one. Based upon my current understanding, however, I do not 
believe that the National Cemetery Administration (NCA) is best 
equipped to serve as the lead Federal agency in this task. The reason 
is twofold.
    Foremost is the absence of infrastructure at NCA necessary to 
undertake a survey of this magnitude, as well as the subsequent 
development and maintenance of a repository for the findings. Just this 
year NCA established its first History Program, in its fledgling stage 
to be staffed by two historians. A nationwide inventory of memorials 
would exceed the capabilities of this staff.
    In contrast, two other agencies--the National Park Service (NPS) of 
the Department of the Interior, and the American Battle Monuments 
Commission (ABMC)--have many decades of experience and missions 
specific to the care and maintenance of memorials that commemorate 
conflicts in which U.S. soldiers died. The NPS, as the primary Federal 
agency responsible for historic preservation, oversees numerous 
programs devoted to the inventory, condition assessment, and 
conservation of historic resources such as outdoor sculpture and 
monuments--which include a variety of U.S. war memorials and 14 
national cemeteries.
    Since 1923, the ABMC has existed for the exclusive purpose of 
establishing and managing American military memorials dating to the 
beginning of World War I, both on U.S. soil and abroad. The exquisite 
care with which these sites are maintained is evidence of ABMC's 
standards of excellence and expertise. Both of these agencies are more 
appropriately staffed in terms of size and proficiency to undertake the 
proposed catalog project. There are also other federally affiliated 
programs already working to inventory and conserve all outdoor 
sculpture, such as the partnership between the non-profit organization 
Heritage Preservation and its Save Outdoor Sculpture! (SOS) Program. 
SOS is working with the Smithsonian American Art Museum to develop a 
national outdoor-sculpture database.
    This is an excellent project with many benefits for commemorative 
memorials and veteran-appreciation alike, and we would hope to share in 
the undertaking. It is with the greatest respect and confidence, 
however, that I would defer the primary responsibility for this 
inventory to existing programs at more experienced agencies.
    Question 9. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee, or do you know of any other 
matter which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. No, I do not. I diligently completed all the required 
disclosures and feel confident that there are no conflicts or other 
matters that were not disclosed.
    Question 10. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that that information is complete, accurate, and provided in a form not 
designed to evade?
    A. Yes, I do affirm this. As I stated in response to Question 9, I 
exercised considerable diligence in completing required disclosures and 
I have provided the information with complete candor. I am so honored 
to be asked to serve my Country, I would do nothing to jeopardize the 
faith placed in me.
    Question 11. Do you agree to supply the Committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you shall serve in the position for which you now seek confirmation?
    Answer. I believe in open communication and collegial 
relationships. It is my intention to continue to act in this way. I 
would anticipate always providing you with the cooperation you expect.
    Question 12. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. I would be honored to return before the Committee whenever 
asked to do so. As already stated, I believe in open communication.

    Chairman Specter. Thank you, Ms. Higgins, for that 
statement.
    I note that you served 20 years in the Marine Corps with 
the discharge rank of Lieutenant Colonel. What insights from 
your military experience do you think will serve you in the 
Veterans Department?
    Ms. Higgins. I served for 20 years in the Marine Corps in 
jobs of increasing responsibility. I have served in a number of 
different military occupational specialties. But mostly the 
wide diversity of people that I served with, the wide diversity 
of things that I was able to do and accomplish, and the 
recognition, certainly during the years that my husband was in 
captivity, that we are a family, that there is a bond that 
joins men and women who have served in the military and that 
the bond does not end when we leave service to our country and 
we take off the uniforms, it extends through life and, indeed, 
through death.
    I think that my experience after the Marine Corps, though, 
also lends a great deal of capability.
    Chairman Specter. Picking up your experience after the 
Marine Corps in the Department of Labor, what will be 
transferable with respect to veterans employment and training 
with respect to your work in the Labor Department?
    Ms. Higgins. Well, the work in the Labor Department, 
unfortunately, it only turned out to be a year, but it also 
gave me the opportunity to understand that there are continuing 
issues that are important and that we all throughout the 
Government can take care of veterans. In this case, it was in 
transitioning military men and women from the military into the 
civilian work force and making sure that they have the training 
to do the jobs that they can do and assimilate.
    I think, quite honestly, perhaps the most relevant 
experience is my latest experience in Florida. Naturally, we 
had a number of issues with a very large, in fact, the No. 2 
population of veterans in the country, the No. 1 population of 
elderly veterans. I understand that Pennsylvania I think is No. 
2. So we share many of the same concerns for veterans. And 
during the two and a half years that I was there, we also had a 
number of issues that I worked with the VA on on our 
cemeteries.
    Chairman Specter. I am pleased to note your reference to 
Pennsylvania as having the No. 2 ranking for aging veterans. I 
would like for you to take a look at the specific problems with 
a new veterans cemetery in eastern Pennsylvania. It has come to 
the point where Congressman Fox and now Congressman Hoeffel in 
the House have introduced legislation, as I have in the Senate. 
I would like you to take a look at that legislation and give me 
your thinking as to what ought to be done there.
    In light of your broader experience as the executive 
director of the Florida Department of Veterans Affairs, the 
Committee is going to give you the same assignment we gave to 
Dr. Mackay. And that is, within 60 days, give us an evaluation 
of the 10 key problems you see in the Veterans Administration 
and what your suggestions are for remedying those problems. And 
within that 60 day period, as one of those items, give me your 
thinking on the need for cemeteries across the country, 
including the issue of the one for the eastern portion of 
Pennsylvania and Pennsylvania generally.
    [The information referred to follows:]
                meeting the burial needs of our veterans
    The most basic National Cemetery Administration (NCA) goal is to 
ensure that the burial needs of our Nation's veterans and eligible 
family members are met. To ensure that a burial option in a national or 
state veterans cemetery is available for all eligible veterans within a 
reasonable distance of their residence, NCA is developing projects that 
will yield additional national cemeteries, expanding existing national 
cemeteries where appropriate, developing more effective use of 
available burial space, and encouraging individual States to establish 
state veterans cemeteries through the State Cemetery Grants Program.
    NCA is establishing new national cemeteries to serve veterans in 
the areas of Sacramento, CA; Atlanta, GA; Southern Florida; Detroit, 
MI; Fort Sill, OK; and Pittsburgh, PA. Beyond the opening of these six 
new national cemeteries, Section 613 of the Veterans Millennium Health 
Care and Benefits Act directed that an independent study be conducted 
to, among other things, identify those areas of the United States with 
the largest number of unserved veterans and identify the number of new 
cemeteries that are needed from 2005 to 2020. This study will guide us 
in the future as we strive to achieve our long-range goal of providing 
all eligible veterans reasonable access to a burial option. It will 
also provide us data in order to reevaluate our policy regarding how to 
best define service areas.
    NCA monitors gravesite usage and projects gravesite depletion dates 
at open national cemeteries that have land for future development. As 
these cemeteries approach their gravesite depletion dates, we will 
ensure that construction is completed in a timely fashion to make 
additional gravesites or columbaria available for burials. Construction 
projects to expand burial space are currently in progress at 30 
national cemeteries.
    Appropriate land acquisition is a key component to providing 
continued accessibility to burial options. NCA continues to identify 
national cemeteries that are expected to close because of depletion of 
grave space and determines the feasibility of extending the service 
life of those cemeteries by acquiring adjacent land, or by constructing 
columbaria. These actions are not possible in every case. Efforts are 
underway now to acquire additional land for interments at Barrancas 
(FL), Culpeper (VA) and Natchez (MS) national cemeteries.
    In addition to our national cemeteries, state veterans cemeteries 
also provide burial options for our Nation's veterans. In FY 2000, 4 
new state veterans cemeteries opened; more than 14,000 interments were 
performed in state veterans cemeteries; and funds were obligated to 
establish, expand or improve 12 veterans cemeteries in 10 States. New 
state veterans cemeteries recently opened at Little Rock, AR; Spooner, 
WI; Agawam, MA; Miles City, MT; and Augusta, ME. A state veterans 
cemetery in Milledgeville, GA, should open before the end of the 
calendar year.
    I believe these strategies and efforts will enable us to address 
the increasing burial demand from America's veterans. Once we receive 
the results of the Millennium Act study, I expect to be able to 
continue our discussions on how best to meet the needs of the veterans 
in your State of Pennsylvania, particularly those within the Eastern 
part of the State. I want to reiterate that I am committed to serving 
veterans where they are currently not served, based on veteran 
demographics.
          maintaining national cemeteries as national shrines
    Our national cemeteries are national shrines dedicated to 
preserving the Nation's history, nurturing patriotism, and honoring the 
service and sacrifice veterans have made. More than half of our 
national cemeteries were established around the time of the Civil War; 
and most were established before the mid-20th century. The National 
Shrine Commitment is an initiative to restore the appearance of burial 
grounds and historic structures in our national cemeteries. Over the 
years as the burial workload has increased, needed maintenance and 
repair projects were deferred to maintain interment operations. Some 
Pational cemeteries are in need of substantial repair.
    NCA has identified deficiencies in the appearance of headstones and 
markers and the condition of some gravesites at a number of its 
national cemeteries. Deficiencies in these areas impact the 
satisfaction families and visitors experience when they visit a 
national cemetery. Funding provided in the FY 2001 appropriation will 
be used to begin addressing these deficiencies at four national 
cemeteries: Long Island (NY); Willamette (OR); Golden Gate (CA); and 
Ft. Sam Houston JX).
    When the study directed by Section 613 of the Veterans Millennium 
Health Care and Benefits Act to inventory one-time repairs at each 
national cemetery is completed later this year, I believe the 
assessment will validate the already identified deficiencies. We plan 
to use the study results to assist us in identifying the most urgent 
one-time repairs so we can proceed in an orderly manner to achieve 
visible national shrine status for each of our cemeteries.
    After we ensure crucial one-time repairs are accomplished, we need 
to ensure that we maintain the highest standards of appearance in all 
our national cemeteries.
                        balancing resource needs
    In considering balancing competing demands, it is important that 
NCA not lose sight of its current expansion, which is resulting from a 
surge in the demand for services provided by NCA that is expected to 
continue. This is most plainly demonstrated by the continued increase 
in the number of annual interments at national cemeteries: More 
veterans are dying, and NCA workload is increasing.
    NCA currently maintains more than 2.4 million gravesites at 120 
national cemeteries in 39 states and Puerto Rico, as well as 33 other 
cemetery installations. The number of annual interments since 1973, 
when Congress created the National Cemetery System under the 
jurisdiction of the Veterans Administration, has more than doubled from 
36,400 to 82,717 in FY 2000. Veteran burials within our national 
cemeteries are expected to peak in 2008 at 109,000. It is expected that 
for nearly a decade following this peak the number of burials within 
our national cemeteries will not go below the FY 2000 level. Annual 
gravesite maintenance workload increases have a compounding effect on 
NCA budget requirements. Six new national cemeteries are presently in 
various stages of development. NCA will continue to expand existing 
national cemeteries by completing projects to make additional 
gravesites or columbaria available for interments. To do this, NCA must 
use its resources wisely to continue to provide dignified burials for 
veterans and their eligible family members without adversely impacting 
our ability to maintain our cemeteries as national shrines.
    NCA will place increased emphasis on further integrating budget and 
performance data. The performance plan, with the applicable goals and 
objectives, is an integral part of our budget planning process. NCA has 
integrated its performance plan and budget so that all requests for 
budget increases and new budget initiatives are clearly linked to the 
achievement of performance goals and objectives.
    NCA has sharpened its focus on performance and service to the 
veteran. In order to determine the extent to which NCA is achieving 
many of its goals and objectives, we have developed and conducted 
surveys and convened focus groups to receive direct input from veterans 
and their families, as well as other stakeholders. This information is 
used by NCA to determine future program and budget requirements. NCA 
will work to strengthen the linkage between customer-based performance 
results and resource expenditures.
                  aging workforce/succession planning
    In recognition of the anticipated significant retirements expected 
within NCA during the next five years, and of the need to establish a 
cadre of fully competent staff, particularly cemetery directors, NCA 
has been actively engaged in planning and taking actions to build the 
future workforce of NCA. There are currently 64 national cemetery 
directors responsible for 120 national cemeteries. Analysis of the 
incumbents of these positions shows that as of July 1999, 22 percent 
were eligible for retirement or early outs. By 2004, this percentage 
will increase to 53 percent, and one-third of these will be eligible 
for full retirement benefits. Furthermore, we have recognized the need 
to reassess the competency level in the existing cadre, as well as in 
new recruits.
    A similar pattern exists throughout NCA in many occupations, where 
a change in workforce demographics will result in an increased number 
of retirements. This fact raises the potential for a tremendous loss in 
management and institutional knowledge.
    In recognition of these facts, NCA volunteered to be part of a 
pilot sponsored by the Department's Office of Human Resources 
Management. This allowed us to apply a systematic approach to 
evaluating our strategic plan, and to analyze the current status of our 
cemetery directors, the grades of the position in relation to the scope 
of the work performed, and the competencies and qualifications required 
for selection. The result has been the improvement and development of a 
formal Cemetery Director Intern Program and a redefinition of the 
competencies, skills and specialized experience necessary for 
qualification and success as a cemetery director. NCA received over 140 
applications for this program and we anticipate selecting and 
appointing interns prior to the end of the fiscal year. The trainee 
program will be announced periodically to permit for an established 
cadre of well-trained and competent individuals to fill positions as 
others retire or separate.
    Our analysis also revealed that the definition of specialized 
experience necessary for qualification as a cemetery director or 
cemetery director intern was much too restrictive, resulting in a very 
limited pool of applicants. For example, it did not allow us to qualify 
the majority of recently retired military personnel. Previously, direct 
cemetery management experience was required in order for an applicant 
to qualify for the position. However, after a panel of subject matter 
experts reviewed the competencies and skills necessary for success, we 
determined that a definition that focuses on leadership and managerial 
qualifications was a more appropriate indicator of the specialized 
skills needed for the job. As a result, we have redefined the 
definition of specialized experience necessary for qualification as a 
cemetery director or cemetery director intern. A candidate must now 
demonstrate experience in budget, finance, human resources, 
contracting, supervision, and procurement in order to qualify. This 
change was implemented approximately one year ago. The numbers and 
quality of the candidates have improved dramatically. We believe this 
will be manifested in the quality of applicants for the Cemetery 
Director Intern Program as well.
    As a result of the success of the workforce-planning pilot on 
cemetery director positions, NCA will apply the process and lessons 
learned on other occupations in need of the same attention.
    NCA recognizes that the recruitment of quality employees is as 
important as retaining current employees. We are accomplishing this in 
a variety of ways: (1) enhancing the employee award and recognition 
system; (2) increasing employee skills through training; and (3) 
providing employees greater opportunities for involvement and decision-
making in daily cemetery operations and in establishing cemetery goals 
and objectives.
                 maintaining top-notch customer service
    The stakeholders of NCA are varied and diverse. The list begins 
with those who are the direct beneficiaries of NCA services: veterans 
and their families. Veterans' service organizations and professionals 
in the funeral and mortuary industry are also noteworthy stakeholders. 
The inclusion of veterans and their families as primary stakeholders is 
obvious. It takes into account the significance of next of kin, since 
not only eligible veterans but also their eligible family members may 
receive burial benefits. It is important that these veterans, widows, 
widowers, and other family members are treated with compassion and 
dignity at the time of their bereavement and when they return to visit 
the gravesite, and that the cemetery's entire appearance is maintained 
in a manner befitting a national shrine.
    Veterans and their families have high expectations concerning 
burial in national cemeteries, and NCA has done an outstanding job in 
providing high quality, courteous, and responsive service. Recent 
results from the American Customer Satisfaction Index, conducted by the 
University of Michigan, the American Society for Quality and the 
Federal Consulting Group, gave NCA a score of 93 out of 100. This 
unusually high score indicates a high level of satisfaction and trust 
with NCA and the services it provides. The bar is set very high and it 
will be a challenge not only to maintain high levels of customer 
satisfaction, but also to make improvements in service delivery. NCA 
will continue to obtain feedback from veterans, their families, and 
other cemetery visitors to ascertain how they perceive the quality of 
service provided. NCA will also continue to convene focus groups to 
collect data on stakeholder expectations and their perdeptions related 
to the quality of service provided by national cemeteries.
    For FY 2001 and subsequent years, NCA will use a new customer 
satisfaction survey process to measure its success in delivering 
service with courtesy, compassion, and respect. In the past, Visitor 
Comment Cards were used for collecting data to measure customer 
satisfaction. The new survey will be done via mail and data will be 
collected annually from family members and funeral directors that have 
recently received services from a national cemetery. To ensure 
sensitivity to the grieving process but timely collection of data, NCA 
will wait a minimum of three months and a maximum of eight months after 
an interment before including a respondent in the sample population.
    NCA will also use the new survey process to continue to collect 
information from the families of individuals who are interred in 
national cemeteries and funeral directors to measure how the public 
perceives the appearance of the cemeteries. This information provides a 
gauge by which to assess maintenance conditions at individual 
cemeteries as well as the overall system. The information obtained is 
analyzed to ensure that NCA addresses those issues most important to 
its customers. This approach provides us with data from the customer's 
perspective, which is critical to developing our objectives and 
associated measures.
              fostering the state cemetery grants program
    The State Cemetery Grants Program is an effective complement to the 
120 Department of Veterans Affairs (VA) national cemeteries. The grants 
program has assisted 47 operational state veterans cemeteries. That 
number includes several cemeteries that now serve populations that were 
formerly served by national cemeteries, such as Little Rock, AR. It 
also includes several cemeteries that serve moderately large veterans 
populations in densely populated areas such as northern Delaware, 
central Massachusetts, and central New Jersey. Grant supported state 
veteran cemeteries also serve thinly populated areas that are extremely 
remote from any national cemetery, such as the Rocky Mountain States of 
Montana, Wyoming, Utah and Nevada.
    Currently, NCA's State Cemetery Grants Program is reviewing plans 
for 38 projects totaling more than $130 million in grant funds. VA must 
approve design plans for each project before the State advertises for 
bids. Once bids have been received, VA awards the grant based on the 
low, responsive bid. This system makes most effective use of available 
grant funding, assuring that funds are used to construct projects 
rather than to simply develop plans.
    At the same time, it is of utmost importance that NCA review plans 
with professionalism and for economy and efficiency. As the design and 
planning workload increases, it will be necessary to increase staff to 
provide appropriate review. Plans are now underway to hire an architect 
to assist with these tasks.
    In addition to providing grant funding, NCA must seek opportunities 
to assist our State partners through other means. We are currently 
providing training opportunities, sharing best practices in cemetery 
operations, and providing computer and electronic support through 
shared databases and information kiosks. After the initial equipment 
configuration and training to use the marker ordering application are 
completed at newly established state veterans cemeteries, an additional 
benefit afforded the States is access to the same information 
technology support provided to NCA's cemeteries. The States receive 
continual support, for both hardware and software issues, from NCA via 
the cemetery helpdesk and an internal Internet homepage.
                    expanding electronic government
    NCA is considering several initiatives to make its policy 
information as well as its benefits and services more available to the 
public on-line. The most promising of these, to be implemented in FY 
2002, is a web-based homepage for every national cemetery. An NCA 
taskforce, consisting of headquarters and field personnel, has been 
working on a standardized model to better serve veterans and their 
families. Local communities will have greater access to information 
about every national cemetery within close proximity, and will thus be 
better served by their NCA neighbors.
    The national cemetery homepages are tied into the One-VA concept. 
The NCA website is accessible through the VA homepage. In turn, each 
national cemetery homepage will be accessible from the NCA website. 
With a uniform approach, it will be possible for anyone using any 
national cemetery homepage to learn of services offered, and cemetery 
policies and procedures which are standard across the Nation. This 
initiative assures compliance to standard regulations governing Federal 
websites.
    NCA is currently verifying its old interment records and recreating 
them into an electronic format. Many of the old records are on 
microfilm or in an electronic format not conducive to on-line public 
access. We receive many requests from the public doing genealogy 
searches or looking for the remains of a lost relative. NCA plans to 
post all its interment records on our website so the public can perform 
its own genealogy searches and have access to the data at their 
leisure. Almost 60 percent of interment records are verified at this 
time. There is an active project incorporating all of our cemeteries to 
review their historical interments and prepare them to be posted on the 
Internet. NCA plans to have most of its interment records posted in the 
next 18 months.
    NCA is installing grave locator kiosks at each national cemetery. 
The kiosks provide cemetery visitors with gravesite information and 
general NCA information. They also provide a map of the cemetery as 
well as information on current NCA rules and regulations, burial 
eligibility requirements, floral regulations, historical cemetery 
information, upcoming events, and hours of operations. They provide 
visitors with an automated, easy-to-use vehicle for information both on 
weekdays and weekends, particularly outside normal business hours.
    Currently, customers can access applications for a Government 
headstone or marker from the VA website and print a copy to complete 
manually. Because of the current need for original signatures, we are 
looking into privacy issues and verification of eligibility on-line, so 
customers may eventually be able to order through the Internet. 
However, all of our national cemeteries are ordering headstones and 
markers electronically and NCA has now added the state veterans 
cemeteries to the NCA Network and provides them access to our Burial 
Operations Support System (BOSS) where 90 percent of all their marker 
requests are handled online with their input. Arlington National 
Cemetery, which is operated by the Department of Army, also has access 
to BOSS. This will further reduce the workload of redundant data 
transcription and improve the accuracy and timeliness of ordering their 
headstones and markers. NCA is conducting research on the feasibility 
of allowing private cemeteries to access NCA systems to order their VA-
provided markers, thus further reducing NCA manual workloads and 
putting a premium on marker quality and timeliness of delivery.
    In the interim, NCA is now electronically scanning all paper 
applications and accompanying documents when they are received at the 
main office in Washington, DC. Applications can now be distributed to 
our caseworkers electronically at our field sites around the country. 
This process improvement has eliminated the need to mail the actual 
applications to the field sites, which used to take several days.
          improving and expanding relationships with partners
    NCA recognizes the importance of maintaining strong relationships 
with our partners. Several of our partners include: State governments; 
the Department of Defense (DoD); and other Federal agencies.
    As more state cemeteries come on-line to serve veterans, attention 
must be given to issues of maintenance and operation. The State 
Cemetery Grants Program is working with the States to schedule a state 
cemetery directors conference that will provide state cemetery 
directors with a better understanding of how the national cemeteries 
are maintained and operated and also how their fellow states perform 
their duties.
    While DoD is responsible for the Military Funeral Honors program, 
NCA has worked closely with DoD to ensure that veterans buried in our 
national cemeteries receive the honors they deserve. NCA currently 
tracks military funeral honors provided in our cemeteries and indicates 
whether or not they were provided by veteran service organizations or 
by DoD. NCA provides changing facilities for teams as well as storage 
facilities for their equipment. NCA advises families to request honors 
through their funeral home. We also include information on funeral 
honors within our national brochures and individual cemetery pamphlets 
as well as on our Internet website. NCA is installing sound systems in 
new cemetery committal shelters for the electronic playing of ``Taps'' 
when a bugler is not available. VA will eventually install sound 
systems in older committal shelters. We have recently produced a public 
outreach video entitled ``A Sacred Trust: The Story of the National 
Cemetery Administration'' which highlights the two person DoD military 
funeral honor detail and how to arrange the honors through DoD.
    An issue that impacts VA and other Federal agencies is the transfer 
of Federal property between agencies. States participating in the State 
Cemetery Grants Program are also involved in this issue. VA has been 
successful in the past in obtaining Federal land to expand or to 
establish national cemeteries. Too often, once a specific tract of land 
has been identified, the administrative process can be extremely time 
consuming. We plan to continue building our relationships with our 
fellow Federal departments and agencies, such as the Department of 
Interior and DoD, to make sure these processes continue to run 
smoothly. VA and DoD have already made commendable steps towards better 
coordination and cooperation in regards to providing better service to 
our uniformed men and women as well as all veterans. Our Secretary has 
already begun a dialogue with the Secretary of Defense to work to 
improve the processes for providing health care to veterans and I 
foresee that this collaboration will lead to many other opportunities 
to work together on other issues, such as the timely transfer of land 
between Federal agencies.
                employee safety and workers compensation
    NCA must continually redesign its work processes to provide more 
efficient service to veterans and their families, and to reduce the 
risk of injury to its estimated 1,450 employees. When employees are 
injured we are challenged to modify their duties to both accommodate 
their injury and make them productive members at their work unit. The 
work performed at national cemeteries (e.g., the operation of heavy 
equipment and the setting of headstones that can weigh in excess of 200 
pounds) is physically demanding. This work is also performed in all 
types of weather conditions and on all types of terrain. Currently, 
there are about 290 NCA employees who are in receipt of benefits for 
job-related injuries through the Department of Labor's Office of 
Workers Compensation Program (OWCP) at an annual cost of $1.8 million.
    An effective way of reducing OWCP costs is preventing injuries and 
illnesses. NCA is working to strengthen accountability for OWCP case 
management by linking organizational and financial incentives. Funding 
and payment responsibility is assigned to NCA cemeteries. The 
establishment of appropriate workplace safety programs and employee 
safety education programs is a key component of a successful 
occupational safety and health program.
    NCA maintains a proactive safety program to assure that all 
employees receive appropriate job health, safety awareness, hazard 
recognition, and specialized safety training. We are in the process of 
developing several Job Hazard Analyses, including upgrading our 
Ergonomics Program. Our plan is to emphasize both programs in an effort 
to energize the workforce to reduce on-the-job injuries. In addition, 
we have initiated independent safety inspections at national cemeteries 
to ensure that existing safety methods are being fully utilized. Our 
goal is to continue to provide a safe workplace ensuring that injuries 
to our wage grade staff are prevented at the cemetery level.
    Oversight of our safety program has been performed as a collateral 
duty in the past. Our plan is to hire a full-time safety official who 
will have responsibility for developing and directing a comprehensive 
nationwide safety program. We are confident that this position, when 
filled, will enable us to strengthen our safety program and reduce the 
use of OWCP by NCA employees. NCA will continue to be a full and active 
participant in the development of safety policies and procedures in 
response to a changing work environment.
                          capital crime cases
    Public Law 105-116, enacted on November 21, 1997, prohibits, under 
specified circumstances, the interment or memorialization in a VA 
national (or state veterans cemetry that received grant funding) of 
individuals convicted of Federal or State capital crimes for which they 
have been sentenced to death or life imprisonment, or would have been 
convicted but were not because they were unavailable for trial due to 
death or flight to avoid prosecution.
    Several recent cases illustrate potential problem areas NCA is 
facing in its implementation of P.L. 105-116. Currently, when a request 
for interment or memorialization is received at a national cemetery, 
the cemetery director does not routinely ask whether or not the person 
has been convicted of a crime or inquire into the circumstances of the 
person's death. NCA sees these types of questions as being 
inappropriate to ask of grieving family members. Only when a fact 
surfaces that indicates a capital crime was or may have been committed 
by the deceased, does an inquiry begin.
    If an inquiry takes place, the cemetery director must first contact 
his or her regional general counsel who acts as a legal resource and 
who contacts the appropriate Federal or State officials to obtain a 
copy of the conviction or to gather information to support a decision 
being made that ``there appears to be clear and convincing evidence'' 
that a Federal or State capital crime was committed. All of this must 
take place in a very tight time frame, which adds additional stress to 
the family during an emotional period. VA must also deal with 50 
different State judicial systems, each with its own set of definitions 
of crimes and views on how much they need to assist VA by providing 
information. This leads to the perception that cases are being handled 
differently based on location.
    VA is currently finalizing regulations that set forth procedures 
for handling eligibility determinations for cases that may fall within 
the restrictions set forth in P. L. 105-116 when VA becomes aware of 
information suggesting that an individual has been or would have been 
convicted of a Federal or State capital crime. Once the final rule is 
published, NCA will develop further guidance to assist cemetery 
directors when they must make a determination on one of these cases as 
well as describing the appeals process available to families.

    Chairman Specter. My yellow light just went on, so I am 
going to have only one more question for you. Of interest is 
your studies at Hebrew University in Jerusalem. How proficient 
are you in Hebrew now?
    Ms. Higgins. [Responds in Hebrew language.]
    Chairman Specter. What did you say?
    Ms. Higgins. I spoke Hebrew pretty well when I lived in 
Israel. I lived there for about a year and a half. And since I 
do not get an opportunity to speak it very often here, my 
Hebrew has deteriorated. I have had the wonderful opportunity 
of being able to visit Israel a number of times since I was 
there several lifetimes ago as a college student and I find 
that I can speak enough to get by. But, of course, if you have 
been there, as I am sure you have, just about everybody speaks 
English and so it is easy to not speak Hebrew when you are over 
there.
    Chairman Specter. Thank you very much, Ms. Higgins.
    Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman.
    Ms. Higgins, the VA has a program--and if you are not aware 
of this I do not hold that against you, it is just I want to 
inform you of this--something called the State Cemetery Grant 
Program. It has been very successful in offering a burial 
option, so to speak, to veterans who live in lower density 
areas, which would be Senator Nelson's Nebraska, my West 
Virginia, and large parts of Senator Specter's Pennsylvania. 
But there are some large States, including your own in Florida 
where you served, that have not participated in the program.
    What are your thoughts on modifying this grant program to 
allow VA grants to cities or counties to open a veterans 
cemetery or set aside a portion of their public cemetery for 
veterans?
    Ms. Higgins. Well, as you have recognized, I have only been 
at the job for a short time, since Monday I guess, trying to 
learn these things. I am somewhat familiar, of course, with the 
State Cemetery Grants Program. We in Florida have not opted to 
explore that program yet because we have been so focused on 
trying to get that National Cemetery in south Florida.
    But it is a wonderful opportunity and I know it has been 
made better over the years by allowing 100 percent of funding 
for construction. It is a great program. There are many States 
that have opted to it, but there are some others that might 
need to be looking at that. I will certainly have the 
opportunity, if confirmed, to look into if we can make that 
program better, I think we ought to do that and we ought to 
market it and make sure that the States understand what the 
positive aspects can be of having a State Veterans Cemetery.
    Senator Rockefeller. Thank you. I have one more question. 
You are facing many demands now, between opening new cemeteries 
in underserved areas--and you just heard of one in 
Pennsylvania, extending the service of current cemeteries, and 
attempting to maintain the facilities as places of honor 
despite the fact that some of our National Cemeteries date back 
to the Civil War. Of these different options, if you do have a 
priority, it would be interesting to know it; if you do not, 
that is OK, too. How does one meet all these demands?
    Ms. Higgins. Well, again, having been involved in this for 
a very short time, it is difficult for me to say whether I 
would in fact have a priority. I think they are all equally 
good in helping to ensure that we meet the burial needs of all 
the veterans. In the next 10 years, we will be burying more 
veterans than we ever have before. And so I think it is 
important that we have a number of different options that we 
can all look at together and work together with the States and 
with the communities to make sure that those burial options are 
met. Veterans also, and their families, have different needs 
themselves and different requirements.
    So we will have to look at all those things. And I do not 
know that we will ever really come up with a priority. The 
priority is to make sure that we provide veterans with the 
burial option that they need and deserve.
    Senator Rockefeller. Thank you.
    Chairman Specter. Thank you, Senator Rockefeller.
    We are going to submit questions for the record to you as 
well, Ms. Higgins--we have questions for everybody--to which we 
would like answers no later than Monday morning so we can 
proceed and try to get you confirmed before the next week is 
up.
    Mrs. Cragin graduated from the U.S. Naval Academy in 1985. 
She has substantial experience in Government, having worked as 
Director of Communications for the Committee on Armed Services 
of the House of Representatives from May 1995 to January 2001. 
She currently is Director of Congressional Relations for the 
Raytheon Company. She holds the rank of Commander in the Naval 
Reserve. She served as a public affairs officer, and served for 
7 years in active duty in the U.S. Navy.
    Welcome, Mrs. Cragin. We look forward to your testimony.

  STATEMENT OF MAUREEN PATRICIA CRAGIN, NOMINEE FOR ASSISTANT 
SECRETARY FOR PUBLIC AND INTERGOVERNMENTAL AFFAIRS, DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mrs. Cragin. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, it has been my honor to have served 
my country as a member of the U.S. Navy and, currently, as a 
member of the U.S. Naval Reserve. I have also been privileged 
to serve Chairman Floyd Spence as his Communications Director 
on the House Armed Services Committee. However, I can think of 
no greater honor than the one President Bush bestows by 
nominating me for your consideration as Assistant Secretary for 
Public and Intergovernmental Affairs. I would also like to 
thank Secretary Principi for his confidence in me to fulfill 
the responsibilities of this office.
    As President Bush has said, all that America's veterans ask 
is that ``their government honor its commitments as they 
honored theirs.'' The Department of Veterans Affairs was 
established to do just that--honor and serve America's 
veterans. I believe this to be a basic obligation of our 
country. And if confirmed, I will work tirelessly to serve my 
fellow veterans.
    Secretary Principi has made it clear that he is fully 
committed to serving veterans and, more importantly, he is 
committed to making a difference. I believe he can, and I 
believe he will. The Secretary's commitment and enthusiasm is 
what drew me back to Government service, as Senator Collins 
mentioned earlier, after only just a few months with Raytheon. 
I came back because I believe there is no greater opportunity 
to serve than at the Department of Veterans Affairs where 
Priority One is in service in honor of the defenders of our 
freedom.
    The Department of Veterans Affairs has a great story to 
tell about the more than 200,000 dedicated employees who honor 
veterans everyday through their work on cutting-edge research 
in spinal cord injuries, brain trauma, prosthetic devices, 
geriatric care, and so much more. If confirmed, I will work 
hard to get these and many other good stories told.
    America's 24 million veterans live in big cities, rural 
communities, overseas, and their needs are equally as 
widespread. No matter where they live, it is imperative that 
veterans have access to complete and accurate information 
regarding the benefits available to them. If confirmed, I will 
look for ways to increase and enhance communications efforts, 
not only to veterans, their families, and service 
organizations, but also internally within the Department, with 
the Congress, and with other Federal, State, and local 
Governments.
    I would like to thank the committee for considering my 
nomination. I will be pleased to answer any questions you may 
have.
    [The prepared statement of Mrs. Cragin follows:]
 Prepared Statement of Maureen Patricia Cragin, Nominee for Assistant 
   Secretary for Public and Intergovernmental Affairs, Department of 
                            Veterans Affairs
    Mr. Chairman and members of the committee, it has been my honor to 
have served my country as a member of the U.S. Navy and, currently, as 
a member of the U.S. Naval Reserve. I have also been privileged to 
serve Chairman Floyd Spence as his Communications Director on the House 
Armed Services Committee. I have also served at the Departments of 
Labor and Energy. However, I can think of no greater honor than the one 
President Bush bestows by nominating me for your consideration as 
Assistant Secretary for Public and Intergovernmental Affairs. I am 
deeply grateful for the opportunity to serve America's veterans. I 
would also like to thank Secretary Principi for his confidence in me to 
fulfill the responsibilities of this office.
    As President Bush has said, all that America's veterans ask is that 
``their government honors its commitments as they honored theirs and 
that their interests be protected as they protected their country's in 
foreign lands.'' The Department of Veterans Affairs was established to 
do just that--honor and serve America's veterans. I believe this to be 
a basic obligation of our country. If confirmed, I will work tirelessly 
to serve my fellow veterans.
    Secretary Principi has made it clear that he is fully committed to 
serving veterans and, more importantly, he is committed to making a 
difference. I believe he can, and he will. The Secretary's commitment 
and enthusiasm is what drew me back to government service--after only 
three months in a wonderful and challenging position with Raytheon. 
This committee knows far better than I that government service is a 
noble calling--a calling where you have a chance to make a difference 
every day. I believe there is no greater opportunity to serve than at 
the Department of Veterans Affairs where Priority One is service in 
honor of the defenders of our freedom.
    Throughout my career as a public affairs practitioner, I have 
strived to tell the story, completely and accurately, of the agencies I 
represented. The Department of Veterans Affairs has a great story to 
tell about the more than 200,000 dedicated employees who honor veterans 
everyday through their work on cutting-edge research in spinal chord 
injuries, brain trauma, prosthetic devices, and geriatric care. These 
employees are committed to excellence in patient safety and providing 
quality health care. If confirmed, I will work hard to get these and 
many other good news stories told.
    And when the story is not as positive, I will live by the 
principles taught to me as a Navy public affairs officer: ``maximum 
disclosure, minimum delay.'' I truly believe it is the responsibility 
of government to release information in a timely and accurate manner.
    Americas 24 million veterans live in big cities, rural communities 
and overseas, and their needs are equally as widespread. No matter 
where they live, it is imperative that veterans have access to complete 
and accurate information regarding the benefits available to them. If 
confirmed, this will be my highest priority. I will look for ways to 
increase and enhance communications efforts, not only to veterans, 
their families and service organizations, but also internally within 
the Department, with Congress and with the other federal, state, and 
local governments.
    In closing, I would like to thank the committee, the President and 
the Secretary for providing me with the opportunity to serve at the 
Department that is so committed to meeting the needs of our nation's 
veterans. I will be pleased to respond to any questions that you may 
have.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part 1: all the information in this part will be made public
    1. Name: Maureen Patricia Cragin
    2. Address: 311 11th Street, N.E., Washington, DC 20002
    3. Position: Assistant Secretary for Public and Intergovernmental 
Affairs
    4. Date of Nomination: April 23, 2001
    5. Birth date: September 14, 1963
    6. Birth place: Huntington, New York
    7. Marital status: Married
    8. Children, age: None
    9. Education: Institution (city, state), dates attended, degrees 
received, dates of degrees.
    U.S. Naval Academy, Annapolis, MD; 07/81-05/85; BS; 05/85
    10. Honors: List all scholarships, fellowships, honorary degrees, 
military medals, honorary society memberships, and any other special 
recognitions for outstanding service or achievement.
    Commander in Chief, U.S. Pacific Fleet, Pearl Harbor, HI, Navy 
Commendation Medal, 09/88
    Navy Office of Information, Northeast, Boston, MA, Navy Achievement 
Medal, 02/90
    LISS Lexington (AVT 16), Pensacola, FL, Navy Commendation Medal, 
11/91
    Naval Media Center, Washington, DC, Navy Commendation Medal, 10/98
    11. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant.
    Disabled American Veterans (Life Member)
    Naval Academy Alumni Association (Life Member)
    Reserve Officers Association
    Naval Reserve Association
    Sovereign Military Order of the Temple of Jerusalem (fraternal)
    Service Academy Advisory Board (Office of Congresswoman Holmes 
Norton)
    12. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work and inclusive 
dates of employment.
    01/01-04/01, Director of Congressional Relations, Raytheon Company, 
Arlington, VA
    05/95-01/01, Director of Communications, Committee on Armed 
Services, U.S. House of Representatives, Washington, DC
    05/94-05/95, Communications Specialist, MELE Associates, Rockville, 
MD
    10/92-05/94, Public Affairs Specialist, U.S. Department of Labor, 
Washington, DC
    05/92-08/92, Director of Volunteer Administration, Republican 
National Convention, Houston, TX
    13. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge.
    Commander, U.S. Naval Reserve, Office of the Chairman Joint Chiefs 
of Staff, Washington, DC, Public Affairs Officer, 10/00-Present
    Commander, U.S. Naval Reserve, Chief of Naval Operations Staff 
(Operations and Plans)/N3/N5, Washington, DC Assigned to Office of 
Political-Military Affairs (NATO/Europe/N528), Staff Officer, 10/99-09/
00
    Lieutenant Commander, U.S. Naval Reserve, Commander Naval 
Expeditionary Logistics Support Force, Williamsburg, VA, Public Affairs 
Officer, 10/98-09/99
    Lieutenant Commander, U.S. Naval Reserve, Naval Media Center, 
Washington, DC, Officer in Charge/Public Affairs Officer 07/97-09/98
    Lieutenant Commander, U.S. Naval Reserve, Office of the Chief of 
Information, U.S. Navy, Washington, DC, Assistant Operations Officer/
Public Affairs Officer, 10/96-07/97
    Lieutenant, U.S. Naval Reserve, Commander Second Naval Construction 
Brigade, Little Creek, VA, Public Affairs Officer, 10/94-09/96
    Lieutenant, U.S. Naval Reserve, Office of the Chief of Information, 
U.S. Navy, Washington, DC, Assistant Operations Officer/Public Affairs 
Officer, 09/92-09/94
    Lieutenant, U.S. Navy, Naval Air Station Pensacola, FL, Assistant 
Public Affairs Officer, 11/91-04/92, Honorable Discharge
    Lieutenant, U.S. Navy, USS Lexington (AVT 16), Pensacola, FL, 
Public Affairs Officer, 02/90-11/91
    Lieutenant, U.S. Navy, Naval Office of Information, Boston, MA, 
Assistant Director/Public Affairs Officer, 12/88-02/90
    Lieutenant, (junior grade), U.S. Navy, Defense Information School, 
Fort Benjamin Harrison, IN, Public Affairs Officers' Course (PAOC 1-
89)/Student, 10/88-12/88
    Lieutenant (junior grade), U.S. Navy, Commander in Chief, U.S. 
Pacific Fleet, Pearl Harbor, HI, Assistant Protocol Officer, 02/87-10/
88
    Ensign, U.S. Navy, Patrol Squadron One, Naval Air Station, Barbers 
Point, HI, Aviation Maintenance Duty Officer, 11/85-02/87
    Ensign, U.S. Navy, Aviation Maintenance Duty Officer School, 
Pensacola, FL, Student, 08/85-11/85
    Ensign, U.S. Navy, Officer assigned to Sailing Center, U.S. Naval 
Academy, Annapolis, MD, Awaiting further assignment and follow on 
orders, 05/85-08/85
    Midshipman, U.S. Navy, United States Naval Academy, Annapolis, MD, 
Student, 07/81-05/85
    14. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above. None.
    15. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written.
    I have authored and coauthored numerous press releases and 
statements while serving as Communications Director and Press Secretary 
for the Committee on Armed Services, U.S. House of Representatives (05/
95-01/01).
    16. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years:
    Served as Director of Volunteer Administration at the 1992 
Republican National Convention in Houston, TX (05/92-08/92).
    Contributed to Susan Collins for Governor Campaign (1994).
    Contributed to Susan Collins for Senate Campaign (1996).
    (b) List all elective, public offices for which you have been a 
candidate and the month and year of each election involved: None.
    17. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate:
    I have terminated my employment with Raytheon Company effective 
April 13, 2001.
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: None.
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None.
    (d) (if appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A.
    (e) (if appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes.
    18. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated: None.
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated: None.
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: None.
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy.
    During my employment as Director of Congressional Relations (Navy 
and Marine Corps Programs) at Raytheon Company, Arlington, VA, I served 
from January until April 2001 during which time no legislative 
activities on either the defense authorization or appropriations act 
were taking place. While I met with numerous members of Congress and 
staff members, my activities were confined to reports on the ongoing 
implementation of existing contracts that Raytheon has with the U.S. 
Navy and Marine Corps.
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.) N/A.
    19. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes.
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Arlen Specter to 
                        Maureen Patricia Cragin
    Question 1. I am concerned that VA has not done an adequate job of 
making veterans aware of the benefits for which they may be eligible. 
In fact, there are currently three bills pending before the Committee, 
which would direct VA to better address outreach efforts to make 
veterans, and veterans' survivors, aware of their entitlements to 
benefits. Do you think veterans and other potential VA beneficiaries 
are unaware of the benefits to which they are entitled? Do such 
benefits need to be ``marketed'' to VA beneficiaries? Assuming that you 
conclude that the word needs to get out, how will you--if you are 
confirmed--get it out?
    Answer. I do believe that many veterans and potential VA 
beneficiaries are unaware of the benefits to which they are entitled. 
Therein lies opportunity. If I am confirmed, I will direct the Office 
of Public and Intergovernmental Affairs to develop a joint 
communications strategy that integrates public and intergovernmental 
outreach efforts across local, regional, state, and federal levels. In 
so doing, VA can exploit all avenues of communications available to us, 
and embrace the power of the Internet. However, because not all 
veterans have access to the Internet, VA must continue to provide 
information in print and by other mediums.
    Too often information produced in Washington never reaches the 
customer. VA must aggressively and resourcefully market its services at 
the local level. Commercial advertising is not a legal option for VA; 
however, use of the ``bully pulpit'' by the Secretary and members of 
the Department's secretariat will draw attention to VA's 
accomplishments and create demand for information. As Secretary 
Principi and his leadership team travels around the country, VA must 
generate and exploit media coverage. VA's local and regional public 
affairs officers are vital to seize this opportunity. VA also has a 
great story to tell about the more than 200,000 dedicated employees who 
honor veterans through their work on cutting-edge research in spinal 
cord injuries, brain trauma, prosthetic devices, geriatric care and 
much more. VA is also a leader in patient safety and in providing 
quality health care. If confirmed, I will work hard to get these 
stories told. I will ensure the regional PAOs, to the maximum extent 
possible, leverage localized media coverage to directly provide 
consumer information and to influence facility visits by veterans and 
family members. I will also ask the regional PAOs to send local news to 
Washington for use in VA public and intergovernmental communications 
vehicles, closing the feedback loop.
    VA must also leverage the dedication and expertise resident in the 
veterans service organizations. Every town in America has its VSO posts 
and chapters. Every governor in each state has a Director of Veterans 
Affairs (or equivalent); State Veterans Homes are located in most 
states; and most towns in America have public libraries. If confirmed, 
I will work hard to get information to them, and I will direct further 
development of collaborative efforts with these great grassroots 
resources.
    Question 2. The array of veterans' benefits provided at the 
Federal, State, and local level is overwhelming to many. To my 
knowledge, there is no single repository of information on what 
benefits are provided at the three levels of government. If you are 
confirmed, will you make it a priority to develop such information? Do 
you think this would be a useful service for VA to provide?
    Answer. I believe a single repository of information would be a 
powerful resource, not only to veterans, but also to VA employees. 
Telling veterans and their families about the programs that they have 
available to them at all levels of government is a critical part of 
VA's mission, and one it must continue to refine and develop.
    The Federal Benefits for Veterans and Dependents booklet, in 
English and Spanish at all VA facilities, is available from the 
Government Printing Office and on-line (linked to the VA homepage). It 
is provided to active duty service members as they separate from the 
services. In October 2000, the Veterans Benefits Administration 
completed a reference system, which VA believes contains the most 
accurate, complete inventory of benefits for the 50 states ever 
compiled. Currently, this is available VA-wide. I understand that the 
next phase will provide access to Congress and other stakeholders and 
that Nationwide Internet Access will be available before the end of 
2001. If confirmed, I will make it a priority to ensure that veterans 
are aware of this service, and I will work with VBA to explore how this 
information can be made even more available to veterans--and available 
in one place.
    The Department's liaison activities with State and local veterans 
affairs programs are the responsibility of the Assistant Secretary for 
Public and Intergovernmental Affairs. Therefore, if confirmed, I will 
oversee the coordination of the Department's work with other federal, 
state and local agencies and departments. I will continue to improve 
the level of communication with the State Directors of Veterans 
Affairs, State Home Directors and local governments. I will encourage 
the participation of senior VA leaders at these groups' national, state 
and local meetings.
    Question 3. In a February 26, 2001, Washington Post article, OMB 
Director Mitch Daniels made the following statement about government 
programs that may be duplicative and inefficient: ``We have 50 programs 
for the homeless sprawling across eight departments . . . we have to be 
careful with duplication of that kind.'' If you are confirmed, you will 
bear some responsibility for coordinating the VA effort on homelessness 
and developing partnerships with other Federal agencies. If you 
encounter duplication of efforts that have negative impact on services 
to homeless veterans, what action will you take? Do you agree with 
those who state that funding expended on bureaucracy directly reduces 
the supply of dollars available to provide housing and job-training 
assistance to those in need?
    Answer. To operate the government, some bureaucracy--some 
governmental infrastructure--is necessary. When the bureaucracy becomes 
redundant, excessive, and wasteful, further expenditures unnecessarily 
reduce the money available to provide housing, job training, and other 
services. Redundancies that degrade results must be reduced wherever 
found, not just in VA's homeless veteran programs. Under Public Law 
106-377, the Secretary of Veterans Affairs is a rotating chair of the 
Interagency Council on the Homeless. The council provides Federal 
leadership for activities assisting the homeless. VA thus has a voice 
in determining and conducting policy in this important arena. Secretary 
Principi has further directed the formation of an advisory committee on 
homeless veterans. Already, VA and HUD have collaborated on several 
successful projects assisting homeless veterans. If confirmed, I will 
use the resources of the Office of Public and Intergovernmental Affairs 
to aggressively communicate the Department's activities and assist the 
council with appropriate intergovernmental coordination.
    If confirmed, I will direct VA's Homeless Veterans Program director 
to keep a watchful eye for and report wasteful, redundant activities, 
and to seek opportunities for enhanced VA and interagency efficiencies. 
Communications outreach and coordination with other council members 
will necessarily yield insights that I will in turn bring to Secretary 
Principi or, through the interagency process, to the current chair.
    Question 4. As you may have learned already, the Committee believes 
that VA and the Department of Defense can better cooperate in their 
shared mission of directly providing medical care services to their 
respective beneficiary populations. What role can the Office of the 
Assistant Secretary for Public and Intergovernmental Affairs take in 
fostering increase interdepartmental cooperation?
    Answer. President Bush directed that the departments of Veterans 
Affairs and Defense explore ways to cooperate in the provision of 
health care to their respective beneficiary populations. Secretary 
Principi supports that effort. VA/DOD sharing occurs among 165 VA 
Medical Centers and most military medical treatment facilities. The two 
departments have agreed to share 7,963 services covering a broad range 
of hospital related activities. These initiatives are coordinated 
through the Veterans Health Administration's Office of VA/DOD Sharing 
and Joint Ventures. If confirmed, I will ensure that the Office of 
Public and Intergovernmental Affairs fulfills Secretary Principi's 
intent for us to serve as a liaison to other executive branch agencies, 
coordinating and promoting intergovernmental programs that affect 
veterans and their family members.
    If confirmed, I will direct that my office support the interagency 
process with external and internal communications products and services 
integrated with other VA communications activities. I will ensure that 
the office collaborates fully with appropriate Defense public affairs 
and intergovernmental activities.
    Question 5. Do you have any conflicts of interest, which you have 
not fully disclosed to the Committee, or do you know of any other 
matter, which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. No.
    Question 6. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that that information is complete, accurate, and provided in a form not 
designed to evade?
    Answer. Yes.
    Question 7. Do you agree to supply the Committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you shall serve in the position for which you now seek confirmation?
    Answer. I do.
    Question 8. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. I do.

    Chairman Specter. Thank you very much, Mrs. Cragin. You 
have had considerable experience in public relations. One of 
the issues which the committee is concerned about is informing 
survivors of their benefits. What ideas will you suggest to 
tell survivors what their benefits are? How would you 
disseminate such information across the country?
    Mrs. Cragin. Sir, I believe the Department needs to have a 
very strong relationship with the veteran service organizations 
who can reach out to their veterans in their communities. In 
addition, as Senator Nelson talked about, it is difficult to 
reach some people in rural communities. And if I am confirmed, 
I am going to do all that I can to make sure that we are 
reaching the weekly newspapers and radio/television in the 
smaller communities in addition to the major population areas.
    Chairman Specter. How would you do that? Take my hometown 
of Russell, KS. It is a small town on the prairie. They have a 
newspaper. They do not have a radio station. What would you 
suggest to reach survivors there?
    Mrs. Cragin. Sir, there are seven regional offices that 
work public affairs and, if I am confirmed, will be under me. I 
will need to take a look and make sure that they are getting 
out there and reaching those communities. Also, working with 
veteran service organizations to see where they are in these 
communities so that we can get information to individuals that 
may not have access to the Internet or other avenues to receive 
information.
    Chairman Specter. To what extent will your work with the 
Armed Services Committee be of assistance to you in respect to 
the new job with the Veterans Administration?
    Mrs. Cragin. Many of the issues facing veterans are shared 
by those serving in uniform, a lot of the health care benefits, 
in particular, which was a very big issue, as you know, last 
year in the Defense Authorization Act. Those impact retirees 
and veterans as well. So being exposed to those issues is 
important, and there may be opportunities where, if confirmed, 
I can work with the Department of Defense to help recruit and 
retain people in service and maybe after they leave the 
military they may be able to perhaps take a position in civil 
service.
    Chairman Specter. Mrs. Cragin, when you went to the Naval 
Academy were you considering a career in the Navy?
    Mrs. Cragin. Yes, sir, I was.
    Chairman Specter. And why did you terminate after 7 years?
    Mrs. Cragin. I absolutely loved the Navy but I chose to 
leave the service because it was time for me to do something 
different, which is the reason I stayed in the Reserves. It has 
really been a privilege to serve in the Navy.
    Chairman Specter. What factors led you to change your 
initial thinking on making the Navy a career?
    Mrs. Cragin. Hard to say, sir. At that time in my life, in 
fact, I was having the time of my life serving on board the 
U.S.S. Lexington, which was the training aircraft carrier in 
Pensacola. At the time, that was the only aircraft carrier that 
women could serve on. It was a terrific job. I worked with 
wonderful people. I had great commanding officers. It was just 
time for me to try to do something else. I was not unhappy at 
all. In fact, like I said, that was really a privilege to have 
that opportunity. It was just time for me.
    Chairman Specter. OK. Thank you very much, Mrs. Cragin. We 
are going to ask you for a report, too, within 60 days, but of 
a more limited nature. We ask you to report on what problems 
you have identified within the scope of your duty assignment, 
what your thoughts are about improving the situation, and what 
action you have taken in the course of the first 60 days.
    [The information referred to follows:]
                 issue 1: communicating with one voice
Problem:
    There is a lack of effective communication throughout the 
Department. Departmental spokespersons do not consistently communicate 
the same message.
Plan for addressing problem:
    The Department of Veterans Affairs has several excellent public 
affairs programs, such as the National Story Program,\1\ and the four 
national rehabilitative special events.\2\ Additionally, Secretary 
Principi has actively engaged in and encouraged greater outreach to the 
media, veterans, and the general public. However, VA lacks a 
comprehensive, Department-wide communications strategy with which to 
focus, organize, and direct the communications effort.
---------------------------------------------------------------------------
    \1\ VA's National Story Program is an Office of Public Affairs 
initiative that secures favorable media placement of VA stories, 
primarily on health care and medical research.
    \2\ The four events are: The National Disabled Veterans Winter 
Sports Clinic, the National Veterans Wheelchair Games, the National 
Veterans Golden Age Games and the National Veterans Creative Arts 
Festival. These rehabilitative events are developed at VA medical 
centers and increase the health and quality of life of veterans.
---------------------------------------------------------------------------
    VA communications is complicated by the fact that its stakeholders 
are numerous and diverse. They include veterans and their 
beneficiaries, VA employees, volunteers, veterans service 
organizations, Congress, other federal agencies/departments, state and 
local governments and private sector interests. Each stakeholder has a 
different perspective and concerns, crossing all organizational 
boundaries.
    VA is obligated to communicate directly and honestly with all of 
our stakeholders regarding critical VA issues. That means not just 
notifying them of a change in the way VA conducts a program or that it 
has put a new initiative in place; it also means keeping stakeholders 
informed on those programs and initiatives on a recurring, effective 
basis.
    As Assistant Secretary for Public and Intergovernmental Affairs, I 
will develop a deliberate and proactive communications process that 
strives to reach every segment of our constituency. The communications 
plan will involve the Administrations within the Department (Veterans 
Health Administration, Veterans Benefits Administration and the 
National Cemeteries Administration) and the staff offices. This joint 
communications strategy will integrate public and intergovernmental 
outreach efforts across local, regional, state, and federal levels. In 
so doing, VA can exploit all avenues of communications available to us, 
and embrace the power of the Internet and permission-based email. 
Because not all veterans have access to the Internet, VA must continue 
to provide information in print and by other mediums. Using our 
regional public affairs staff we will invigorate this more traditional 
approach to public outreach by aggressive placement of news in 
community-based newspapers, across the airwaves on local talk radio and 
even local cable access TV where appropriate.
  issue 2: insufficient public affairs training across the department
Problem:
    Most of the staff performing public affairs in the field do so as a 
collateral duty. They often have limited public affairs training and 
experience, which can reduce their willingness to proactively represent 
VA issues through the news media.
Plan for addressing problem:
    Effective communication is a critical component of organizational 
success for the Department of Veterans Affairs. Communications cannot 
be delegated to the professionals in public affairs. Effective 
communications is the responsibility of every VA employee. From the 
benefits counselor providing assistance to a homeless veteran, to the 
hospital director explaining the details of a new program, to the VA 
Secretary appearing on a nationwide broadcast, the need to communicate 
clearly and accurately is of paramount importance.
    The Office of Public Affairs hosts an annual training conference 
for VA's full-time and collateral-duty public affairs professionals. 
The forum provides beginner and advanced public affairs training. As 
Assistant Secretary for Public and Intergovernmental Affairs, I have 
directed that we explore and implement new ways to enhance the 
training. We will bring new emphasis to the use of technology and the 
skills of developing grassroots outreach. Additionally, standardized 
training in public and media relations should be required for all VA 
executives, facility directors and other key staff likely to have 
contact with VA's stakeholders. I understand that every general in the 
Army and every admiral in the Navy must attend that service's excellent 
media training program; these are fine benchmarks for VA. This training 
should develop public and media relations skills, fostering an exchange 
of consistent information and a focused VA message. Providing for this 
kind of training at the Department level will help minimize the 
stovepipe effect and reduce barriers to public outreach among VA 
leaders. It will create a network for employees to use both formally 
and informally to improve the dissemination of VA messages and 
information. As Assistant Secretary for Public and Intergovernmental 
Affairs, I will work with the Veterans Health Administration, Veterans 
Benefits Administration and the National Cemeteries Administration to 
identify cost-effective, efficient means (within existing training 
dollars) of providing this training to VA executives, managers and 
supervisors on a recurring basis.
 issue 3: processing of veterans claims for benefits provided through 
                   the department of veterans affairs
Problem:
    Many veterans have lost faith in VA's ability to decide their 
claims in a fair and timely manner.
Plan for addressing problem:
    Secretary Principi has identified this problem as one of the top 
issues that needs to be corrected. In addition to acknowledging the 
extent and nature of the problem he has directed senior management to 
develop strategies for dealing with the issue.
    As Assistant Secretary for Public and Intergovernmental Affairs, it 
is my responsibility to ensure that the Secretary's goals are being 
communicated effectively and ensuring that veterans have, in a timely 
manner, access to complete and accurate information regarding the 
benefits available to them.
    As Assistant Secretary for Public and Intergovernmental Affairs, 
the Department's liaison for veteran programs with State and local 
governments are the responsibility of the Office of Intergovernmental 
Affairs, a component within my office. This office oversees VA's 
involvement with other federal, state and local agencies and 
departments. In this capacity, I will continue to improve the level of 
communication between State Directors of Veterans Affairs (or 
equivalent), State Home Directors, local governments and the Department 
of Veterans Affairs.
       issue 4: telling va's positive stories on a regular basis
Problem:
    The true story of the Department's accomplishments is not being 
told.
Plan for addressing problem:
    The 217,000 employees of the Department of Veterans Affairs provide 
exceptional service to America's veterans as partial repayment for the 
exemplary service and sacrifices veterans have made for our nation 
while in uniform. Unfortunately, too many veterans do not know about 
much of the work that is being done on their behalf, and too many 
American taxpayers do not have a full idea of the use to which their 
tax dollars are being put at VA.
    For example, VA is a nationwide leader in the health care industry, 
particularly in areas like patient safety, computerized patient 
records, telemedicine, surgical quality assessment, rehabilitation, 
mental health care, and clinical and health services research. Our 
benefits claims processing procedures are being comprehensively 
reviewed, and more than 900 new claims examiners have been added since 
January 20 to reduce claim backlog and decrease processing times. 
Additionally, VA has renewed our efforts to insure that our National 
Cemeteries are operated and maintained as National Shrines, hallowed 
grounds where all Americans can gain a greater appreciation of the 
noble sacrifices of the generations of men and women who served our 
nation in uniform in order to keep our nation free.
    The Office of Public and Intergovernmental Affairs is well aware of 
the need to have positive stories placed about VA people, activities 
and accomplishments in news media outlets. However, all too often the 
task of keeping the news media informed about such stories is 
superseded by the need to respond to inquiries generated by the news 
media themselves. As Assistant Secretary for Public and 
Intergovernmental Affairs, I intend to do what I can to see that 
positive, interesting stories about VA activities are provided to 
reporters on a regular basis. I will direct my staff to ``pitch'' 
stories of popular interest aggressively to media outlets whose 
readership would be interested in those stories. I will work more 
closely with specialty media, especially the publications of the 
veterans service organizations. My staff will prepare more products of 
use to the media, especially op-ed pieces, feature stories and ideas, 
and ``hometowner'' pieces. We will not neglect our responsibility to 
provide the media with timely and accurate responses to inquiries they 
have generated; but we also hope to provide them with information that 
will illuminate activities the Department undertakes on behalf of 
veterans and their families of which they may not have previously been 
aware.
 issue 5: enhancing communications with vso's and non-vso veterans at 
                       the state and local level
Problem:
    Washington does not always hear the issues of veterans at the 
local/grassroots level.
Plan for addressing problem:
    During Secretary Principi's confirmation hearing, he pledged his 
commitment to strengthen VA's partnerships with veterans' service 
organizations. To that end, he established a Regional Veterans Service 
Organization Liaison Staff to address the needs and concerns of 
veterans service organizations at the State and local levels 
nationwide.
    The Regional Veterans Service Organization Liaison Staff is 
organizationally located in the Office of Intergovernmental Affairs, a 
component of the Office of the Assistant Secretary for Public and 
Intergovernmental Affairs. The office consists of a regional veterans 
service liaison coordinator, six regional liaisons and one program 
support assistant. They report directly to the coordinator located in 
VA central office. The VSO liaison officers are charged with developing 
and enhancing partnerships with the State and local veterans service 
organizations, as well as State Directors of Veterans Affairs, 
attending conventions, meetings and other functions in order to provide 
an effective communication channel for the Department with these 
groups. The liaisons are also responsible for developing and 
facilitating outreach activities to inform the non-VSO veteran 
population and the general public in their regions of the various 
programs, initiatives and goals of VA, and gathering feedback that will 
potentially inform every facet of the Department's policy and outreach 
efforts.
    As Assistant Secretary for Public and Intergovernmental Affairs, I 
will directly participate in establishing goals for and monitoring the 
progress of this new function to ensure it brings VA closer to the 
pulse of the veteran community; thereby better serving veterans 
affiliated with VSOs as well as those unaffiliated millions whose 
interests are often similar and related to veterans in VSOs. Thus, 
developing a linkage with VSOs holds the potential to benefit all 
veterans.
                issue 6: reaching the internal audience
Problem:
    There is a lack of effective communication to the internal VA 
audience.
Plan for addressing problem:
    VA's internal audience--our employees and volunteers--constitutes a 
critical stakeholder group as well as a powerful communications medium 
reaching the veterans VA serves, deep into the communities in which VA 
programs and facilities work. Employee awareness and understanding of 
VA organization, mission, and issues not only impacts operational 
effectiveness; it directly impacts the public's (America's veterans') 
knowledge and perception of what the department does and how it 
performs.
    The Office of Public and Intergovernmental Affairs has a 
responsibility to ensure the VA internal audience has accurate, current 
and clear information about the organization, issues and management 
priorities that affect their work. As Assistant Secretary, I will 
assess the scope and effectiveness of VA's internal communications 
efforts. This assessment will inventory current products and programs, 
seek gaps or omissions in reaching the internal audience and explore 
ways of integrating appropriate themes, messages and topics into all 
internal media.
    We have already identified areas of improvement: We will seek to 
enhance the appearance and content of our internal journal, VAnguard. 
We are enhancing the functionality of our website. We are developing 
the ability to feed VA-produced ``news'' programs to our facilities in 
a timelier manner.
                  issue 7: reaching minority veterans
Problem:
    Recent studies indicate underutilization of some veterans benefits 
by minority veterans.
Plan for addressing problem:
    Minorities make up an increasing percentage of the armed forces 
and, consequently, of the veterans' population, which itself comprises 
virtually every minority sector in America. However, there are 
indications that minority veterans are under-using some veterans 
benefits. While we do not yet know the cause, it may be that they are 
simply unaware of the benefits available to them. As Assistant 
Secretary for Public and Intergovernmental Affairs, I will work closely 
with the Department's Center for Minority Veterans to increase outreach 
efforts to minority veterans by insuring VA informational products are 
distributed directly to mass media outlets serving minority populations 
in the format, style and language these media require.
    The Office of Public Affairs (OPA) will develop and update 
comprehensive lists of electronic and print media serving minority 
populations, nationally, regionally and locally. OPA will prepare 
material specifically to meet the format and language requirements of 
those media and the needs of their audiences. This information will 
focus on issues of particular interest and value to veterans served by 
those media, as well as information regarding access to the VA health 
care, benefits and cemetery administrations. This initiative will 
emphasize direct contact and service for these media through OPA 
regional offices. This effort will be coordinated with facility public 
affairs officers and minority veterans coordinators who will localize 
OPA products for use with local minority media outlets.
issue 8: improving communications with veterans residing in rural areas
Problem:
    Too often information produced in Washington never reaches the 
customer.
Plan for addressing problem:
    America's 24 million veterans live in big cities, rural communities 
and overseas. No matter where they live, it is imperative they have 
access to complete and accurate information regarding the benefits 
available to them.
    While commercial advertising is not a legal option for VA, the use 
of the ``bully pulpit'' by the Secretary and members of the 
Department's secretariat will draw attention to VA's accomplishments 
and create demand for information. As Secretary Principi and his 
leadership team travels around the country, VA must generate and 
exploit media coverage. As Assistant Secretary for Public and 
Intergovernmental Affairs, I will ensure the regional public affair 
professionals leverage localized media coverage to directly provide 
consumer information and to influence facility visits by veterans and 
family members. Every town has its weekly community-based newspaper, 
for example; we will develop the ability to reach into these channels 
to address veterans who may not have access to the Internet.
    VA must also leverage the dedication and expertise resident in the 
veterans service organizations. Every town in America has its VSO posts 
and chapters. Every governor in each state has a Director of Veterans 
Affairs (or equivalent); State Veterans Homes are located in most 
states; and most towns in America have public libraries. As Assistant 
Secretary for Public and Intergovernmental Affairs, I will work hard to 
get information to them using traditional and electronic means, and I 
will direct further development of collaborative efforts with these 
great grassroots resources.
         issue 9: getting homeless veterans back on their feet
Problem:
    Research and experience has shown that veterans are far sicker than 
the general homeless population and are reluctant to seek services.
Plan for addressing problem:
    The Office of Homeless Veterans Programs within my organization 
will actively participate and lead efforts with the Interagency Council 
on the Homeless and other Federal agencies to collaboratively work to 
improve coordination of services at the Federal level. We will actively 
work with State and local governments and Native American Tribal 
Governments, national housing and homeless advocacy groups and Veteran 
Service Organizations to further develop and enhance our partnerships 
to ensure comprehensive programs for homeless veterans are implemented.
    We will continue to work to improve the community meetings designed 
to assess the needs of veterans. Efforts to increase veterans access to 
in-patient, outpatient and outreach efforts (efforts like Stand Downs) 
need to be maintained or increased. As Assistant Secretary for Public 
and Intergovernmental Affairs, I will work to enhance the outreach 
efforts that are a vital component in the effort to assist these 
veterans in need.
 issue 10: outreach beyond the morning newspaper: getting beyond mass 
                                 media
Problem:
    Traditional public affairs outreach is not consistently effective. 
Too often releases don't get picked up; too often, few veterans get the 
word.
Plan for addressing problem:
    VA has ``wholesaled'' media releases to national and regional media 
outlets, hoping for hits. A relative few editors, news directors and 
reporters selected for their receptivity or importance are ``hand-
sold'' the story. The core problem is reliance on the traditional mass 
media. The problem is aggravated with minority and rural veterans and 
their families who potentially have less access and thus even less 
information.
    As Assistant Secretary for Public and Intergovernmental Affairs, I 
will encourage and emphasize creativity in marketing VA's story. The 
office will augment traditional media outreach efforts with permission-
based email and local, grassroots media. Every county, every cultural 
group, has its weekly community-based paper, focused on local people 
and hungry for news pertinent to them. Every city has its talk radio 
and cable-access TV. Every town has its VFW, American Legion, DAV, or 
Rotary Club with veteran members meeting to discuss issues of interest. 
We can no longer rely solely on the big-city daily to reach our 
customers. We must go where they are.
    VA has the resources to do this. Public affairs professionals staff 
the seven regional public affairs offices. I will direct them to 
aggressively identify and ``hand-sell'' community-based media that 
serve our veterans, especially our minority, rural, and special-
interest veterans, such as women veterans.

    Chairman Specter. Senator Rockefeller?
    Senator Rockefeller. Mrs. Cragin, I liked what you said. 
And I think that people come to a point where they say I need 
to do something different, even though they are happy doing 
what they are doing. I went through exactly the same 
experience, probably a little bit earlier in life, which 
totally changed my life. I think that happens in America, it 
ought to happen in America.
    One of the things that sometimes gets people nervous is 
when people talk about Department of Defense and VA 
cooperation. Senator Specter may not agree with what I am about 
to say, but I am on the Finance Committee and we are in the 
process of doing something which I think is going to eviscerate 
Federal moneys over the next 20 years. I believe this tax cut 
is not only going to pass, but it is going to grow over the 
next year and a half so that we will be in budget deficit 
funding within another year or so once again, as we were back 
in the 1980's and it took us 15 years to get ourselves out of 
that. So the case for working with the Department of Defense, 
for which you have worked yourself, I think is compelling in a 
whole variety of ways. I think that the old cliches that the VA 
does what it does, and the DoD does what it does, and never the 
twain shall meet is a way of thinking that is past.
    I do not actually need to get a whole lot of answer from 
you on that right now, unless you have something that you would 
like to think out loud about, but it is something that I would 
just like to put at you because I think there is going to have 
to be a lot more cooperation, because I think veterans' budgets 
are not going to keep up with veterans' needs. I think they 
will fall farther behind than they are now because of what we 
are doing.
    And so I think your job is going to be harder because you 
are going to have to explain to people who do not understand 
what it is we are doing, or do not then like what they like 
now; but then when they do not get the services they have a 
right to expect, they cannot understand that. You are going to 
have to be the one at the top, so to speak, who initiates that 
explaining process.
    But I am just interested in whatever thoughts you have 
about cooperation between the Department of Veterans Affairs 
and the Department of Defense.
    Mrs. Cragin. I do not have any specific ideas. I just 
recognize that those serving in uniform and veterans, as Robin 
Higgins mentioned, there is a common thread and it is a common 
audience. There may be ways to together tap into that audience 
that would benefit both Department of Veterans Affairs and DoD.
    Senator Rockefeller. OK. And that is fine. I would just 
like to put that thought out there for everybody to think 
about. I thank you very much.
    Chairman Specter. Thank you, Senator Rockefeller.
    We turn now to Dr. Jacob Lozada. He comes to this 
nomination with 25 years of experience in a variety of 
positions relating to the health care sector. He was in the 
United States Army Medical Department, retiring with the rank 
of Colonel. He has served in the private sector in a variety of 
health care positions. He has a master's degree in health care 
administration from Baylor, a Ph.D. in education from Walden.
    Dr. Lozada, the floor is yours for any opening statement 
you care to make.

STATEMENT OF JACOB LOZADA, NOMINEE FOR ASSISTANT SECRETARY FOR 
  HUMAN RESOURCES AND ADMINISTRATION, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Lozada. Thank you very much, Mr. Chairman. Chairman 
Specter, Senator Rockefeller, members of this committee, it is 
a great honor and privilege for me to appear before you today 
as President Bush's nominee for the position of Assistant 
Secretary for Human Resources and Administration of the 
Department of Veterans Affairs. Should I be confirmed, I will 
be deeply humbled by this opportunity to serve my country and 
our veterans those who have sacrificed for their country so 
valiantly. I would like to express my deepest appreciation to 
Secretary Principi for his support of my nomination, and also 
to my family for their support throughout my entire 
professional career and throughout this process.
    The Department of Veterans Affairs faces significant 
challenges in the area of human resources, and we must look at 
innovative ways of addressing them. I am confident that working 
as a team, with the support from the Congress, the veterans 
service organizations, and those organizations that represent 
our workforce, we can achieve the vision that you and the 
Secretary have defined for the Department.
    I strongly believe that human resources are the most 
important element of any organization. They are not a cost of 
doing business, but a valued asset that must be nurtured. I 
also believe that the Department of Veterans Affairs can be a 
leader in hiring, developing, and nurturing the best and the 
brightest in the marketplace. I want to be part of this 
exciting journey and, if confirmed, I promise to dedicate all 
my efforts and all my energy, and all the experience that I 
have gained throughout 26 years of active military service and 
7 years of consulting in large organizations in the private 
sector to help Secretary Principi and this committee achieve 
the goals of the Department.
    As I mentioned, I bring to this position 26 years of 
experience in the military where I served in positions of 
responsibility, including force structure, organizational 
realignments, a health care executive, and an Inspector 
General. And for the last 7 years I have provided consulting 
services for large corporations and developed various IT-
related capabilities to empower human resources.
    Mr. Chairman, I would consider it an honor to work with you 
and other committee members, and to work with your staff to 
meet the challenges facing the Department. It would also be an 
honor to continue to serve our country and to serve our 
veterans. I would be pleased to respond to any questions that 
you may have. Again, thank you very much.
    [The prepared statement of Mr. Lozada follows:]
Prepared Statement of Jacob Lozada, Nominee for Assistant Secretary for 
   Human Resources and Administration, Department of Veterans Affairs
    Chairman Specter, Senator Rockefeller, and members of the 
Committee, it is a great honor and privilege for me to appear before 
you today as President Bush's nominee for the position of Assistant 
Secretary for Human Resources and Administration of the Department of 
Veterans Affairs. Should I be confirmed, I will be deeply humbled by 
this opportunity to serve my country and our veterans who have 
sacrificed for their country so valiantly. I would like to express my 
deepest appreciation to Secretary Principi for his support of my 
nomination to this position. I would also like to thank my family for 
their support throughout my entire professional career.
    The Department of Veterans Affairs faces many of the same human 
resources challenges which most government agencies face. These 
challenges result from an aging workforce, the competition for human 
resources in a prosperous economy, and the need for established 
organizations to transform themselves into lifelong learning and high 
performing enterprises. We can meet these challenges by working 
together and with the strong support and involvement of the Congress, 
the veterans service organizations and our workforce representatives. 
We must focus our efforts on developing innovative human resources 
strategies that fully support the mission of the Department of Veterans 
Affairs, on improving the quality and access to services, and by 
supporting the strategic goals that Secretary Principi has defined for 
the Department.
    Human resources constitute the most important element of any 
organization. they are not a cost of doing business, but a valued asset 
that must be nurtured. The Department of Veterans Affairs can be a 
leader in hiring, developing, and maintaining a highly motivated human 
resource force. I want to be a part of this exciting journey and if 
confirmed, I promise to dedicate my efforts, and apply my experience, 
to achieve this vision.
    If I am honored with your confirmation, I will bring to this 
position 26 years of experience as a Commissioned Officer and 
healthcare executive in the U.S. Army Medical Department, coupled with 
seven years as a consultant in large corporations in the private 
sector. During my military career I had the opportunity to lead large 
organizations undergoing radical change; manage force structure, 
personnel allocations and staffing; train and develop staff; and 
maintain high performing teams. During my tenure in the private sector, 
I have developed human resources programs for large organizations, and 
led in the development of innovative training and knowledge management 
capabilities in support of human resources programs.
    Mr. Chairman, I would consider it an honor to work with you, other 
committee members, and your staff, in meeting the human resources 
challenges of the Department of Veterans Affairs. It would also be an 
honor to continue to serve our nation's veterans. I would be pleased to 
respond to any questions that you and other committee members may have.
    Thank you.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part 1: all the information in this part will be made public
    1. Name: Jacob Lozada
    2. Address: 3847 Farr Oak Circle, Fairfax VA 22030
    3. Position: Assistant Secretary of Veterans Affairs for Human 
Resources and Administration
    4. Date of Nomination:
    5. Birth date: July 21, 1944
    6. Birth place: San Lorenzo, Puerto Rico
    7. Marital status: Divorced
    8. Name of Spouse: N/A
    9. Children, age: Valerie M. Lozada (29 years old) and Jason M. 
Lozada (27 years old)
    10. Education: Institution (city, state), dates attended, degrees 
received, dates of degrees.
    University of Puerto Rico, Rio Piedras, PR; 08/62-06/66; 
Baccalaureate in Arts; 06/66
    Baylor University, Waco, TX; 08/77-09/79; Master in Health Care 
Admin.; 09/79
    WALDEN University, Minneapolis, MN; 11/91-08/94; Ph.D. (Education); 
08/94
    11. Honors: List all scholarships, fellowships, honorary degrees, 
military medals, honorary society memberships, and any other special 
recognitions for outstanding service or achievement.
    Department of the Army, Legion of Merit, 1993
    Department of Defense, Defense Meritorious Service Medal, 1991
    Department of the Army, Meritorious Service Medal, 1990
    Department of the Army, Meritorious Service Medal, 1989
    Department of the Army, Army Commendation Medal, 1989
    Department of the Army, Meritorious Service Medal, 1987
    Department of the Army, Meritorious Service Medal, 1985
    Department of the Army, Meritorious Service Medal, 1983
    Department of the Army, National Defense Service Medal, 1980 (est.)
    Department of the Army, Meritorious Service Medal, 1978
    Department of the Army, Army Commendation Medal, 1970
    Department of the Army, Armed Forces Expeditionary Medal, 1970
    Department of the Army, National Defense Service Medal, 1966
    Department of the Army, Armed Forces Reserve Medal, 1966 (est.)
    University of Puerto Rico, Merit Scholarship, 1962
    12. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations you consider relevant for the last 5 years and 
other prior memberships or offices
    Fellow--American College of Healthcare Executives (ACHE)--1997 to 
present.
    President--Fort Detrick Chapter of the Association of the United 
States Army (AUSA)--1996 to 1997.
    Member--The Retired Officers Association (TROA)--1997 to present.
    Participant and Mentor--Interamerican College of Physicians and 
Surgeons National Hispanic Youth Initiative (NHYI)--1993 to present.
    Member--Baylor University Alumni--1979 to present.
    Member--WALDEN University Alumni--1994 to present.
    13. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work and inclusive 
dates of employment.
    10/96 to Present, Managing Consultant EDS, Herndon, Virginia
    04/95 to 09/96, Senior Healthcare Planner SHERIKON, Inc., 
Chantilly, Virginia
    04/93 to 04/95, Principal, Booz, Allen & Hamilton, McLean, Virginia
    14. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge.
    05/93--Retired from active military service with honorable 
discharge.
    06/91 to 05/93--Colonel, Deputy Chief of Staff (Operations), United 
States Army Medical Research and Development Command (USAMRDC), Fort 
Detrick, MD. Responsible for international programs, training, and 
security.
    06/90 to 06/91--Colonel, Executive Officer, Combat Casualty Care 
Course (C4), Medical Readiness Training Institute, Fort Sam Houston, 
TX. Responsible for directing the operations of the Combat Casualty 
Care Course.
    06/89 to 06/90--Colonel, Executive Officer, 121 Evacuation 
Hospital, Seoul, Korea. Responsible for providing administrative 
management and support to a U.S. Army Hospital.
    06/88 to 06/89--Lieutenant Colonel, Special Action Officer, Academy 
of Health Sciences, Fort Sam Houston, TX. Responsible for the Regional 
Medical Expert (RME) and the Medical System Program Review (MSPR) 
Programs.
    06/85 to 06/88--Lieutenant Colonel, Chief of Force Structure, 
Realignments, and Security, United States Army Health Services Command, 
Fort Sam Houston, TX. Responsible for healthcare studies, force 
structure, realignments, and security.
    06/83 to 06/85--Lieutenant Colonel, Commander, 8th Evacuation 
Hospital, Fort Ord, CA. Responsible for leading and managing a field 
hospital.
    09/79 to 06/83--Major, Assistant Inspector General, Office of the 
Inspector General, United States Army Health Services Command (USAHSC), 
Fort Sam Houston, TX. Responsible for evaluating Patient Administration 
activities, Quality Assurance, Credentialing, Troop Medical Clinics, 
and Health Clinics.
    06/77 to 09/79--Major, United States Army Academy of Health 
Sciences, Fort Sam Houston, TX and Eisenhower Army Medical Center, Fort 
Gordon, GA. Student completing the U.S. Army-Baylor University Master 
Degree program in Healthcare Administration.
    04/74 to 06/77--Captain, Officer in Charge, United States Army 
Health Clinic, Fort Buchanan, Puerto Rico. Responsible for managing the 
delivery of medical care to eligible beneficiaries and providing 
managerial and logistical support to a health clinic.
    11/71 to 04/74--Captain, Chief of Admissions and Dispositions, 
Valley Forge General Hospital, Phoenixville, PA. Responsible for 
Admissions and Dispositions of Patients, Equal Opportunity Programs, 
and administrative support to the Alcohol and Drug Rehabilitation 
Program of the hospital.
    09/70 to 11/71--Captain, Student, United States Army Medical 
Department Officer Advanced and Patient Administration Courses, U.S. 
Army Medical Field Service School, Fort Sam Housion, Texas.
    09/69 to 09/70--Captain, Executive Officer, 618th Medical Company 
(Clearing), Seoul, Korea. Responsible for the administration and 
logistics of several dispensaries and the maintenance of field medical 
equipment.
    09/68 to 09/69--Operations Officer, 36th Medical Battalion, Fort 
Hood, TX. Responsible for medical operations of a Medical Battalion.
    06/66-09/68, Training Officer, Executive Officer, and Company 
Commander, 2nd Battalion, The United States Army Medical Training 
Center, Fort Sam Houston, TX. Responsible for leading And managing an 
Advanced Individual Training (AIT) unit.
    15. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above: None.
    16. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written. 
None.
    17. Political affiliations and activities
    (a) List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years: None.
    (b) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: None.
    18. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate: Yes.
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: No.
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None.
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A
    (e) (If appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes.
    19. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated: None.
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated: None.
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: None.
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy. None.
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.) N/A
    20. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes
                                 ______
                                 
Response to Written Questions Submitted by Hon. Arlen Specter to Jacob 
                                 Lozada
    Question 1. What is your assessment of VA's plans to deal with the 
anticipated wave of ``Vietnam generation'' retirements in the next 
several years? Do you believe VA is adequately prepared for the 
imminent loss of experienced personnel?
    Answer. VA is potentially facing a major crisis within the next few 
years in terms of having the necessary skilled workforce to meet the 
Department's needs across a variety of programs. Recognizing that these 
projected staff shortages could have a negative impact on VA's ability 
to serve veterans, the Department has already begun to take action to 
address this important issue. To remain a competitive employer and 
address this human capital challenge, VA's staff offices and 
Administrations are working together to ensure that VA has a corporate 
strategy that allows the Department to successfully compete for and 
retain highly capable and experienced personnel.
    I am very supportive of the actions already taken by the Department 
to address its workforce planning needs and look forward to ensuring 
that the Department has the ability to recruit, develop, and retain a 
competent, committed, and diverse workforce that provides high quality 
service to veterans and their families.
    Question 2. What is your impression of VA's use of its special 
hiring authorities--e.g., veterans preference, Veterans Readjustment 
programs, Disabled Veterans Affirmative Action programs, etc.--to 
facilitate the employment of veterans? How would you, if you are 
confirmed, encourage greater use of these special hiring authorities?
    Answer. VA enjoys a well-established track record of being a 
leading Federal employer of disabled veterans, other preference 
eligibles, and veterans who are not eligible for preference. VA 
employment data, as of September 30, 2000, reveals that 28 percent of 
VA employees are veterans, nearly 7 percent are disabled veterans, and 
over 3 percent are veterans with 30 percent or more disability.
    VA appointments comprised a major proportion of these special hires 
Federal-wide in FY 2000. During this period, VA hired about 34 percent 
of all VRA and 30 percent disabled veterans hired by the Federal 
Government.
    At every opportunity, as the Assistant Secretary for Human 
Resources and Administration, I will aggressively promote and emphasize 
VA's employment of veterans as well as the full use of all related 
special hiring authorities.
    Question 3. What lessons in leadership will you bring to the VA as 
the Assistant Secretary for Human Resources and Administration from 
your service in the Army Medical Corps? There, you spent many years in 
the field of hospital administration and health care management. What 
lessons have you learned in that service which you can bring to VA?
    Answer. My varied experiences in the military and the private 
sector have afforded me multiple opportunities to learn valuable 
lessons that can be easily transferred to my role as the Assistant 
Secretary for Human Resources and Administration. In applying these 
lessons and leveraging my experience, I will focus on VA's mission, and 
develop goals in Human Resources and Administration to help achieve 
VA's vision.
    During my service as a Commissioned Officer in the Army Medical 
Department, I had the opportunity to serve in numerous positions of 
leadership both in permanent as well as field health-care facilities. 
Some of the lessons in leadership, which I learned from my 26 years of 
active military duty, include:
          (1) Change is inevitable, and leaders must be proactive in 
        finding change before change finds them;
          (2) Leaders must be visionaries and be willing to challenge 
        the status quo;
          (3) Leaders must inspire and motivate others but to do so 
        must first be motivated themselves;
          (4) Leaders must set high standards of excellence for 
        themselves, as well as others, and lead by example.
    Some of the lessons, which I learned from my military experience in 
hospital administration and health-care management, include:
          (1) Providing services at low cost and high quality and with 
        high access is a highly demanding task; therefore, it is 
        incumbent for health-care administrators and providers to 
        develop innovative ways to deliver these services;
          (2) Behind every direct health-care service provided in 
        support of the health-care team there is a human resource 
        person who must be hired, developed, trained, nurtured, and 
        motivated;
          (3) Proving health-care services within an environment of 
        limited resources requires the development of highly efficient 
        teams;
          (4) Beneficiaries will continue to demand improved access and 
        quality services while the cost for the provision of health-
        care services increases;
          (5) Human resources in health-care management must adapt 
        continually to the changes in health-care delivery and 
        technology;
          (6) Health-care managers in the government health-care system 
        must be knowledgeable about issues that were normally assumed 
        to be private sector specific (i.e. managed care, financing).
    Question 4. During your Army service, you rose to the rank of full 
Colonel--a rank where, typically, you were the superior of all but a 
few within the Army hospital setting. Will working in a civilian 
medical environment require a different management approach than the 
one that worked for an Army Colonel? Do you anticipate that the VA 
management environment will differ from the Army's?
    Answer. There are many similarities between working in a civilian 
medical environment and service in the Army hospital setting. In both 
cases, the mission is similar: providing high quality health-care 
services to beneficiaries. In addition, civilian and Army health-care 
leaders alike must perform under a constantly changing environment and 
be good managers of resources, which are often limited.
    I strongly believe that good management and leadership principles 
can be universally applied. Leaders, regardless of the environment, 
must have a vision and believe in that vision to inspire and motivate 
others. Leaders must handle multiple demands, deal with changing 
priorities, and practice sound communication skills with employees at 
all levels of the organization. More importantly, leaders must 
recognize the potential of their employees, value their diversity, and 
create a team or unit that works efficiently and effectively together 
to achieve a common goal.
    In terms of VA, I do not believe that the management environment 
will be that much different from the Army's. Both organizations have 
great leaders, a well-defined mission, and similar challenges. In terms 
of my Army service, the ability to lead highly effective teams, work 
well with people, and work under considerable stress can be leveraged 
well to the challenges facing VA.
    Question 5. It is widely reported that a nurse shortage looms 
ahead. Do you believe that is the case? Will VA be ``hit'' by this 
shortage? How would you resolve it?
    National nursing leaders and health-care organizations are 
projecting a shortage of registered nurses, and I have no basis on 
which to question this projection. The future supply of registered 
nurses is not ensured given the current aging of the registered nurse 
workforce and the decreasing number of students who choose nursing as a 
professional career.
    Answer. It appears to me that VA is taking positive action to 
address the looming staffing crisis for nurses. VA's approach includes 
education initiatives, attention to workplace issues, and improved pay 
and benefits. VA is providing extensive education assistance through 
the Employee Incentive Scholarship Program, the National Nursing 
Education Initiative, and the Education Debt Reduction Program. VA is 
using its flexibility to grant a variety of bonuses, awards, 
allowances, and other cash compensation to nurses; providing non-cash 
benefits, such as continuing education opportunities and flexible work 
hours; working to leverage technology to support nurses; paying 
attention to workplace issues, such as collegial decision-making, team 
autonomy, and recognition of nurses' contributions; supporting outreach 
efforts to students to consider nursing as a career; and mentoring new 
hires to reduce turnover.
    These efforts are excellent ways to deal with the looming nursing 
crisis. Nevertheless, in my role as Assistant Secretary for Human 
Resources and Administration, I will continue to explore any additional 
options that could be implemented to ensure that VA has adequate 
nursing staff resources to ensure veterans receive the care they 
deserve.
    Question 6. I am advised that VA has several programs designed to 
recruit and retain nurses. But I have also heard that the programs are, 
in many cases, not readily available to the people who truly need them. 
How can VA assist those who need advanced training but who cannot 
afford to take time off from work to secure it? How can VA assist 
nurses in upgrading their qualifications if child care issues prevent 
them from simultaneously working a shift at VA and also attending 
school?
    Answer. I have been advised that VA has implemented a National 
Nursing Education Initiative (NNEI) that allocated $50 million over a 
5-year period to assist nurses in attaining baccalaureate and higher 
degrees in nursing. VA has also implemented an Employee Incentive 
Scholarship Program (EISP) to make funds available to employees 
pursuing academic education in a health-care occupation. One drawback 
to both programs is that by legislative mandate, employees must be 
employed for two years before being eligible for funding-this presents 
a recruitment and retention disincentive, which we may want to look 
again as we search for acceptable solutions to our nurse shortage 
challenge.
    VA recognizes that lifestyle and career responsibilities often 
preclude many nurses from participating in traditional academic 
programs. To address this issue, VA has implemented a number of 
initiatives to support nurses in nontraditional academic programs. The 
VA/Department of Defense
    Distance Learning Post-Master's Nurse Practitioner Program was the 
first of its kind to totally prepare clinical practitioners via 
distance technology.
    In addition, a number of VA facilities have entered into agreements 
with local colleges and universities to provide course work to groups 
of nurses taught at the VA facilities or via distance learning. 
Finally, VA has entered into a Memorandum of Understanding with the 
American Association of Colleges of Nursing (AACN) to facilitate 
nursing programs across the country that better meet the needs of VA 
employed nurses.
    As Assistant Secretary for Human Resources and Administration, I 
will promote the use of these initiatives and seek to discover other 
ways to enable nurses to pursue advanced training as well as upgrade 
their qualifications.
    Question 7. Union members in the VA hospital system in Pennsylvania 
are concerned that management is not recruiting staff at lower pay 
scale levels fast enough to relieve overworked conditions that affect 
job satisfaction and morale. Will you pledge to work with local human 
resource directors, especially in Pennsylvania, to ensure that these 
positions are quickly filled and staffing levels are proper?
    Answer. In my role as Assistant Secretary, I will work with all 
Administration Heads to ensure that their human resources program 
officials receive appropriate guidance in order to effectively manage 
human resources. In this specific case, I will work with the Under 
Secretary for Health to assist him in determining the reasons for the 
expressed concern that the Pennsylvania facilities are not staffing at 
appropriate levels and to help them, if necessary, resolve any 
impediments identified.
    Question 8. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee, or do you know of any other 
matter which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nomination?
    Answer. To the best of my knowledge, no conflicts of interest exist 
that potentially could affect the Committee's recommendation to the 
Senate.
    Question 9. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that that information is complete, accurate, and provided in a form not 
designed to evade?
    Answer. I affirm that the information that I have provided is 
complete and accurate.
    Question 10. Do you agree to supply the Committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you shall serve in the position for which you now seek confirmation?
    Answer. I agree to supply the Committee information, materials, and 
documents as requested by the Committee in its oversight capacity for 
as long as I serve in the position of Assistant Secretary for Human 
Resources and Administration.
    Question 11. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. I will be pleased to appear before the Committee as 
necessary.

    Chairman Specter. Thank you, Dr. Lozada. You identify or 
make reference to issues within the Department of Veterans 
Affairs. Are you familiar with any specific problems that you 
would like to tackle, if you are confirmed?
    Mr. Lozada. Senator, the Department faces some challenges 
which I am sure other departments in the U.S. Government face. 
One of the challenges is the aging work force of the 
Department. Another challenge is the competition that the 
Department faces with corporations in terms of hiring and 
attracting staff. Last, but not least, is the need for 
established organizations such as the Department of Veterans 
Affairs to transform themselves into life-long, learning and 
high-performance organizations. So those are, in my opinion, 
the three main challenges that the Department faces.
    Chairman Specter. When you identify those you are really 
talking about the problems that any organization faces. I would 
suggest to you that the Veterans Administration faces much more 
intensive problems, with an enormous workload, an enormous 
number of veterans to serve, and it must do so with limited 
resources. When you are a consultant in private industry, you 
can pick your clientele and you can charge the clientele. The 
Veterans Administration cannot do that. And there is a 
continuing problem of inadequacy of funds.
    The title of your position, Assistant Secretary for Human 
Resources and Administration, could cover a vast array of 
issues. Do you have any sense of the enormity of the problems 
VA faces in trying to give care to veterans with the limited 
resources it has?
    Mr. Lozada. Senator, the challenges that the VA faces have 
to do with access, quality, and the use of information 
technology. Some trends, for example, in nursing and the 
forecasted shortage of nurses, which should take place within 
the next 2 or 3 years also present challenges. But all these 
issues have a face behind, which is a human resource face and a 
human resource initiative that needs to be developed and placed 
within the context of the entire strategic plan of the 
organization to make sure that the effects of these challenges 
are minimized.
    Chairman Specter. You identify the shortage of nurses, 
which is very real, and your experience gives you that insight. 
Do you have any thinking as to how to deal with the shortage of 
nurses?
    Mr. Lozada. I do not have any specific ideas or solutions 
at this time. However, recent research suggests that there are 
some factors that impact on this issue, and one of them has to 
do with what is known as ``personal factors''--the work 
environment. Interestingly enough, pay is the No. 5 factor; but 
the organizational environment, empowering the nurses to do 
their job, giving the nurses the place within the organization 
that they should have is one of the main factors. So those are 
personnel issues or human resources issues that we need to 
address.
    Chairman Specter. Dr. Lozada, the committee is going to ask 
you to do the same thing as we have asked others. We ask that 
you get to us a report on the 10 key problems which you have 
observed, within 60 days, and the suggested solutions you have. 
And put the issue of nurses at the top of the list as to how 
you think the Veterans Department ought to face that.
    Mr. Lozada. Yes, sir.
    [The information referred to follows:]
                       potential nursing shortage
    Registered nurses comprise the largest segment of health care 
workers within VA. Currently, VA employs over 35,000 registered nurses 
and nurse anesthetists. VA has traditionally been able to successfully 
recruit to fill vacancies as they occur. However, VA medical centers 
are experiencing difficulty in recruiting nurses in certain specialties 
such as intensive care nurses, nurse practitioners, and nurse 
anesthetists. Certain VA medical centers also report difficulties 
recruiting licensed practical nurses (LPNs) and nursing assistants 
(NAs). If nationwide projections for the next several years bear out, 
VA is facing a potential shortage of skilled nurses, which could have a 
significant effect on VA's quality of care initiatives. As of June 
2001, 12 percent of the VA nursing population is eligible to retire. 
Each year, an additional 3.7 to 5.3 percent of VA nurses become 
eligible to retire. By 2005, 35 percent of the current VA nursing 
workforce will be retirement eligible. Based on past experience, VA is 
predicting that two-thirds of these nurses will actually retire by that 
date. In summary, over one in five VA nurses today will be gone by 
2005. The retirement eligibility projections for allied nursing 
occupations are similarly high with 29 percent of LPNs and 34 percent 
of NAs eligible for retirement by 2005.
Mitigating Action Plan:
    Considering attrition and retirement eligibility, it is important 
for VA to continue to devise recruitment and retention strategies to 
ensure that we have the needed nursing staff to serve our veterans. For 
example:
    <bullet> The Employee Incentive Scholarship Program (EISP) provides 
scholarships of up to $10,000 per year for up to three years for 
employees to pursue degrees for education in health care occupations 
for which VA is experiencing staffing problems. As of June 2001, the 
Veterans Health Administration (VHA) has awarded 189 scholarships for 
over $1.7 million for employees pursuing degrees in the fields of 
nursing and pharmacy.
    <bullet> The National Nursing Education Incentive (NEI) is similar 
to the EISP, but awards scholarships only to nurses to obtain 
baccalaureate or post-graduate degrees and training. Since March 2000, 
1,639 VHA nurses have been awarded more than $18.5 million support for 
tuition and expenses.
    <bullet> The VA Learning Opportunities Residency (VALOR) program 
provides opportunities for outstanding students (at least 3.0 GPA at 
end of junior year of college) to develop competencies in clinical 
nursing while at an approved VA medical center.
    <bullet> Flexibilities in the Nurse Locality Pay Systems.
    <bullet> Establishment of youth program (VA CADET) to attract young 
people (ages 14 or older) to experience the nursing care environment in 
VA medical centers.
    <bullet> Education Debt Reduction Program to provide tax-free 
payments to newly hired employees to help with costs of obtaining 
training or degrees.
    <bullet> Extra salary step(s) for exemplary job performance or 
exemplary job achievement. Employee recognition and incentive awards 
programs. Recruitment bonuses, relocation bonuses, and retention 
allowances. Travel expenses for interviews and new appointments. Family 
friendly policies, flexible work arrangements, and on-site day care 
centers.
                            aging workforce
    The VA workforce is getting older and fewer young people are 
entering into the Federal service. As of September 30, 2000, only 6 
percent of the VA workforce was under the age of 31, 19 percent were 
between the ages of 31-40, 36 percent were between the ages of 41-50, 
and 39 percent of the VA workforce was over age 50. A significant 
number of current employees are eligible to retire, including 16 
percent of VA's health care staff, 24 percent of VBA staff, and 22 
percent of cemetery directors. An even greater number of employees will 
be able to retire by 2005. As a result of the projected turnover and 
retirements in critical positions, VA is potentially facing a major 
crisis within the next few years in terms of having the skilled 
workforce to meet the Department's needs across a variety of programs. 
Further, rapid changes in technology, an increasingly diverse labor and 
beneficiary pool, higher turnover rates among new employees, and 
different expectations of younger workers are forces that strongly 
suggest the need for new recruitment and retention practices to meet 
program goals. VA needs to define more precisely the workforce it 
needs.
Mitigating Action Plan:
    VA has made great strides in establishing a workforce planning 
process. However, the following actions need to be implemented:
    <bullet> Develop and implement a workforce forecasting system.
    <bullet> Establish a Workforce Planning Council to oversee the 
planning and operations of VA's workforce planning process. This 
Council will be composed of top level, Department-wide VA executives 
and will be formally established in September 2001.
    <bullet> Develop a Departmental Workforce and Succession Plan that 
will articulate VA's corporate vision for workforce planning and 
identify specific strategies to address the recruitment, retention, and 
development issues within the Department.
    <bullet> Explore the use of emerging technologies to recruit and 
hire young staff.
        competition for human resources in a prosperous economy
    Competition for human resources is a source of serious concern for 
the entire Department. Due to the economic boom of the past decade, the 
labor market has become extremely competitive, and knowledge and 
technical workers are in high demand. This comes at a time when the 
Government is less competitive. After decades of downsizing, criticism 
of the Federal Government, and diminishing Federal budgets, the 
Government is no longer seen as a secure, lifetime employer and often 
cannot offer the same type of competitive salaries and rapid job offers 
as the private sector.
Mitigating Action Plan:
    VA needs to be more competitive. Examples of strategies to achieve 
this goal include:
    <bullet> Making greater use of the recruitment and retention tools 
already available.
    <bullet> Offering no-cost or low-cost educational assistance 
programs to individuals in key occupations who commit to a number of 
years of VA service in return for this assistance.
    VA needs to be seen as a desirable place to work where skills can 
be developed, advancement is possible, and employees have high degrees 
of job satisfaction. The following incentives must be leveraged to 
accomplish this difficult task:
    <bullet> The VA Learning University;
    <bullet> Leadership VA;
    <bullet> Increased use of Alternate Dispute Resolution to resolve 
work place disputes;
    <bullet> Flexible work schedules;
    <bullet> Child care;
    <bullet> Transit subsidies.
                          succession planning
    In view of the VA workforce demographics, VA anticipates a 
Department-wide loss of seasoned leadership and institutional knowledge 
due to the large percentage of employees eligible for retirement within 
5 to 10 years. Moreover, VA is presently experiencing difficulty in 
filling positions for senior leadership and for certain occupations, 
e.g., nurses, pharmacists, and information technology specialists.
Mitigating Action Plan:
    VA will develop a succession plan for predicting turnover in senior 
positions and tracking the pipeline of candidates in the preceding 
grades, so that steps can be taken to ensure an even flow of qualified 
candidates. VA will develop a systematic training plan for senior 
positions, focusing on human resources management, diversity, and 
change management. In addition, VA will:
    <bullet> Identify individuals with potential leadership;
    <bullet> Provide leadership opportunities as well as mentoring 
programs;
    <bullet> Publicize the use of VA's Intranet to heighten the 
awareness of these opportunities.
                           change management
    Since 1993, VA has undergone significant change. Changes in how we 
deliver health care and benefits coupled with reductions-in-force, loss 
of talent, buyouts, streamlining, reorganizations, and changes 
politically make most hesitant to change and less responsive to 
priorities. Change can be turbulent, chaotic, and confusing to those on 
the receiving end. However, effective change management reduces the 
amount of fear, hesitation, and anguish. Change should be an inclusive 
part of the governance process, which includes defining the outcomes of 
the change effort, identifying the changes necessary to produce 
outcomes, implementing those changes in the least intrusive way, and 
involving the employees in the process to ensure that they understand 
the necessity.
Mitigating Action Plan:
    VA will have a strategic change management plan approved by the 
Strategic Management Council and assigned to a specific individual 
responsible for change management such as a change management officer. 
A change management officer will work collaboratively with each leader 
to leverage change, customize the change process where necessary, 
conduct gap analysis between the ``as is'' and the ``to be'' models, 
and personalize the transition to the organization and its culture, 
ensuring full communication with the employees. Managing change will 
require a broad set of skills:
    <bullet> Analytical Skills--A Change Management Officer will know 
how system analysis and financial analysis systems work within the 
organization and determine the impacts to ensure continuity of change 
management and its effectiveness during implementation.
    <bullet> People Skills--People come characterized by all manner of 
intelligence, ability, gender, sexual preferences, national origins, 
race, religious preferences, disabilities, socio-economic backgrounds, 
education, beliefs, attitudes toward life and work, personalities, and 
priorities. A Change Management Officer will be skilled in 
organizational culture and communication or interpersonal skills.
    <bullet> Business Skills--A Change Management Officer will know and 
understand how VA works. The skill set requires knowledge of the 
organization, its culture, previous change efforts, customers, hiring, 
rules of conduct, removals, equal employment, workforce development, 
and business acumen.
                         workforce development
    Patterns for providing efficient and effective care to our veterans 
are changing. These changes may influence the types of employee 
competencies needed and, therefore, the quality and structure of the 
workforce we currently have. The challenge for VA today is to realign 
our capital assets and human capital based on changing demographics and 
veteran needs in order to ensure that we can perform our mission now 
and in the future.
Mitigating Action Plan:
    VA will continue training and development opportunities. 
Specifically, VA will:
    <bullet> Review our current level of competency.
    <bullet> Establish programs that offer a wide range of educational 
seminars and courses that improve overall performance and enhance 
consultative skills.
    <bullet> Identify required future competencies.
    <bullet> Establish on-line human resources tool kits and libraries 
that will provide current information to supplement and support new 
skills and competencies.
                               diversity
    VA is not effectively managing its diverse workforce and may not be 
ready to manage an even more diverse group in the near future. The 
changing demographics of the U. S. population reflect a mobile 
population with a wide array of regional and national origin 
differences. A diverse workforce will enable VA to relate to and better 
serve veterans and their families. Aligning diversity with our mission 
and business will also increase employee satisfaction and retention, 
thus improving our competitiveness and productivity, increasing our 
responsiveness, and adding value to our services.
Mitigating Action Plan:
    VA executives will fully understand their roles and be ready to 
manage the change. To achieve this goal, VA supports the following 
initiatives:
    <bullet> A training program to help executives understand how 
diversity issues impact organization cohesion, mission, performance, 
accomplishments, increased awareness, and sensitivity.
    <bullet> Consolidation of recruitment efforts directed at 
institutions with diverse populations to attract interns and scholars 
to occupations in which VA has under-representation or projected hiring 
needs. VA will involve more institutions of higher education and create 
an internal system whereby disabled veterans are included in the 
internship programs.
    <bullet> A strong affiliation with veterans service organizations, 
minority institutions of higher education, and high schools for 
internships at VA.
    <bullet> Partnerships with the Hispanic Association of Colleges and 
Universities and the National Association of Equal Opportunity in 
Higher Education to support internships for students attending 
Hispanic-Serving Institutions or Historically Black Colleges and 
Universities.
                   timeliness of complaint processing
    Equal Employment Opportunity Commission (EEOC) regulation 29 CFR 
1614.108(f) requires agencies to complete investigations within 180 
days from the filing of a formal complaint. Although VA has made great 
strides in decreasing timeliness and reducing our investigative 
backlog, we are currently averaging 230 days to complete the 
investigations.
Mitigating Action Plan:
    All complaints pending over 180 days will be assigned to contract 
investigators. This should achieve the following results:
    <bullet> Eliminate the backlog of cases pending over 180 days;
    <bullet> Increase the timelines of the investigative process.
  recruitment/retention of health care professionals and compensation
    Stiff competition remains in recruiting and retaining health care 
professionals in the Federal Government. This issue is more noticeable 
in efforts to recruit health care professionals, but includes employees 
who work in connection with health care professionals to deliver 
patient care services to veterans. Most private companies are paying 
considerable bonuses to new doctors, nurses, and pharmacists, in 
addition to starting salaries. Although Title 38 (which governs the 
hiring regulations for health care professionals at VA) contains more 
flexibility, its limitations do not fully meet the needs of the 
facilities. Additionally, Title 5 employees are often limited in the 
amount of compensation they can receive, e.g., overtime pay rates are 
capped, certain employees are excluded from on-call pay and Sunday 
premium pay.
Mitigating Action Plan:
    In order to attract and retain high quality professionals, greater 
compensation flexibility is essential:
    <bullet> VA will publicize OPM's less stringent approach to allow 
Federal annuitants to become re-employed without a reduction in 
annuity.
    <bullet> Policy development and implementation of Repayment of 
Student Loans for new employees will allow VA to be competitive with 
private companies to recruit new talent.
            incorporating adr into the eeo complaint process
    The Equal Employment Opportunity Commission (EEOC) requires Federal 
agencies to incorporate Alternative Dispute Resolution (ADR) into the 
EEO complaint process. ADR is a range of dispute resolution mechanisms 
that provide for the settlement of disputes outside traditional court 
procedures and structure. Various benefits of using non-traditional 
methods to resolve disputes include savings of time and money, party 
satisfaction with the ADR process and outcomes, high settlement rates, 
and improved relationships. In spite of VA Directive 5978, Alternative 
Dispute Resolution, which requires each Administration to establish an 
ADR program, some facilities involved in EEO complaints are not in 
compliance with the directive. Further, there is no consistent buy-in 
from VA management across the board.
Mitigating Action Plan:
    The following strategies will be employed:
    <bullet> VA will continue to encourage the use of ADR throughout 
the various stage of the discrimination complaint process, up to and 
including the EEOC hearing stage.
    <bullet> VA's Office of Resolution Management (ORM) will provide 
mediation training for senior executives in the Department.
    <bullet> ORM field offices will provide extensive training to key 
facility individuals within their jurisdiction.
    <bullet> VA will continue to promote the use of ADR, particularly 
mediation, and educate employees and management regarding the benefits 
of ADR to the Department.

    Chairman Specter. I note that your work in the military was 
with the medical department. What experience did you have in 
the United States Army Medical Department which would be 
applicable to your new responsibilities in the Veterans 
Department if you are confirmed?
    Mr. Lozada. Senator, for 4 years I was the Chief of Force 
Structure and Realignments for the Army Medical Command. So I 
managed the entire force structure of in excess of 50,000 
soldiers and civilian employees. I was also involved in 
realignment actions that resulted in downsizing or right-sizing 
of several organizations. In addition, while serving as an 
Inspector General for 4 years, I inspected every hospital, 
clinic, and organization within the Army Medical Department at 
least three times. So I am intimately familiar with all the 
challenges dealing with the provision of health care and access 
which should translate very well into the Department of 
Veterans Affairs.
    Chairman Specter. Thank you, Dr. Lozada.
    Senator Rockefeller?
    Senator Rockefeller. Dr. Lozada, I was really impressed by 
the way you answered those questions. I think you know your 
stuff really well, and early, which is just the good fortune of 
your career. Actually, I think you are a good person to reflect 
on the question that I asked Mrs. Cragin. People have been at 
work a long time trying to get VA and DoD to work together. 
There really has not been a whole lot of progress. I have been 
to a couple of hospitals which are shared by both and everybody 
says that they work really well. I am sure there are some 
cultural differences, but it is like everybody in Government 
has to do everything their own way, they have to have their own 
departments and it becomes a battle of turf.
    Can you give some of your own reflections on why you think 
the problems have existed in getting these two, in many ways 
quite similar, organizations to work together, and what you 
think might be done? Or just your reflections on it. I am not 
going to hold you accountable for what you think ought to be 
done.
    Mr. Lozada. Senator, at the risk of losing some of my 
friends on the DoD health care side, I think it is an issue of 
culture. It is also an issue of a perceived threat of loss of 
power, authority, scope of responsibilities. I believe there is 
an issue of not understanding very well what the landscape 
should look like. I believe that people like me who come to the 
Department with a very good understanding of DoD health care, 
and who also have a network and one-to-one relationships with 
some of the DoD health care officials should help map out and 
look for opportunities where there could be some gain. Because, 
in the final analysis, there should be a win-win situation; 
otherwise, it would be very difficult to engage both parties 
into this kind of partnership going forward.
    Senator Rockefeller. Do you foresee progress?
    Mr. Lozada. Oh, yes. Yes.
    Senator Rockefeller. Different parts of the world have 
their cultures and they last thousands of years sometimes. We 
are not that old as a Nation, but nobody has been able to 
change a lot of our Government cultures very much. Do you think 
because of budget situations or because of information 
technology or whatever, that is beginning to change? What gives 
you a sense that we can do better?
    Mr. Lozada. I think it is beginning to change. I know 
personally some of the leaders. For example, in the Army 
Surgeon General's Office there are far-thinking, innovative 
staff who are committed to making the system better. Really, 
the beneficiaries are almost the same. The only difference 
between an individual in uniform and a retiree is 1 day. You 
are on active duty and then you retire or you ETS and the 
following day you become a veteran. It is the same person with 
similar health-care needs. I am very confident that there is 
going to be a lot of progress.
    Senator Rockefeller. Not for you to respond to, but the 
most extraordinary experience I have had in my 17 years here on 
the Veterans' Committee took place related to what we call the 
Persian Gulf War Syndrome. To this day, my mind is boggled by 
the unwillingness and inability of both organizations--I think, 
in this case, particularly DoD--to respond to this, to admit to 
this, to react to this. I know you remember those days. It is 
just so important that we make the most of what we have, and I 
think you understand that very well. I look forward to working 
with you.
    Chairman Specter. Thank you, Senator Rockefeller.
    We turn now to Mr. Gordon Mansfield who is up for 
confirmation as Assistant Secretary for Congressional Affairs. 
Mr. Mansfield brings a record which should serve him well in 
this position. In 1968, during a second tour in Vietnam, while 
serving as a Company Commander with 101st Airborne Division, he 
sustained a spinal cord injury which has incapacitated him. He 
is a lawyer by profession, with a degree from the University of 
Miami, has a Pennsylvania connection with a bachelor's degree 
from Villanova University in 1964, always a good credential, 
Mr. Mansfield, before this committee, along with a connection 
to West Virginia. He is serving as Executive Director of the 
Paralyzed Veterans of America since 1993. He had been for 4 
years the Assistant Secretary for Fair Housing in HUD, so there 
is a record and understanding of the problems of the Veterans 
Administration.
    We welcome you here, Mr. Mansfield, and look forward to 
your testimony.

    STATEMENT OF GORDON H. MANSFIELD, NOMINEE FOR ASSISTANT 
SECRETARY FOR CONGRESSIONAL AND LEGISLATIVE AFFAIRS, DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Mansfield. Thank you, Mr. Chairman, and thank you, 
Senator Rockefeller. Also, I would like to add my thanks to you 
for having this expeditious hearing. I would like to mention 
that I am honored by the President nominating me for this 
position, and for Secretary Principi's involvement in that and 
I look forward to working with him.
    I have indicated the reasons in my statement that has been 
submitted for the record why I believe that I am qualified for 
the job. That includes, as you indicated, being a veteran, also 
being a user of the system, having worked with the Congress, 
and having had previous Government experience.
    The Office of Congressional and Legislative Affairs 
responsibility in the Veterans Administration is to coordinate 
communication between the agency and Congress. The office has a 
good, experienced staff and I look forward to leading them.
    The common goal here is serving veterans. I believe that 
working with the committee members and staff that we can 
continue to accomplish that goal.
    Also, I would like to mention that my wife, Linda 
Mansfield, is here in the audience. I would like to thank her 
once again for her encouragement. She truly is the reason why I 
have been able to serve as much as I have.
    I would be pleased to answer any questions that you may 
have.
    [The prepared statement of Mr. Mansfield follows:]
   Prepared Statement of Gordon H. Mansfield, Nominee for Assistant 
  Secretary for Congressional and Legislative Affairs, Department of 
                            Veterans Affairs
    Chairman Specter, Senator Rockefeller, and members of the 
Committee, Good Morning. I am. Gordon H. Mansfield, nominee for 
Assistant Secretary for Congressional and Legislative Affairs of the 
Department of Veterans Affairs. I wish to add my thanks to you for the 
expeditious scheduling of this hearing. I also wish to express my 
thanks to President George W. Bush for nominating me to serve in this 
position. I am also grateful for the confidence and trust demonstrated 
by Secretary Anthony J. Principi in requesting my nomination. He has 
truly energized this Agency and laid out a vision for serving veterans. 
I look forward to aiding him in fulfilling that vision, should I be 
confirmed.
    I believe I am qualified to fill this position by reason of my 
education, my experience and my commitment to service on behalf of our 
Nation's veterans. As a veteran of the Armed Forces of the United 
States, I believe I have the background to understand the needs of 
fellow veterans. As a combat wounded veteran, who is a user of the 
Departments programs and services, I believe I can bring a special 
insight to my position. My education, including law school, and 
professional experience, working for a veterans service organization as 
an Associate Legislative Director, Associate Executive Director for 
Government Relations and as Executive Director have allowed me to 
understand and appreciate the role that this Committee and the Congress 
play in providing the needed authorizations and funds for the medical 
services and benefit programs due our veterans.
    The Office of Congressional and Legislative Affairs' mission is to 
serve as the principal advisor to the Secretary and other senior 
Department of Veterans Affairs (VA) officials concerning all 
legislative and congressional liaison matters, and to develop 
productive working relationships with Members of Congress and their 
staffs, as well as, congressional committees, in support of VA's goals 
to better serve our Nation's veterans. I believe my role in 
accomplishing this mission is to ensure that the dedicated, 
professional employees of the office are empowered and supported in 
their work to achieve our defined goals.
    Should I be confirmed, I view my role as leading an experienced, 
professional and knowledgeable staff whose functions are to advise and 
assist in maintaining open and effective communications between the 
various elements of the Agency and the United States Congress. I intend 
to carry out that role with diligence and enthusiasm. I look forward to 
working with the Members of these Committees and their respective 
staffs to achieve our common goal of serving our Nation's Veterans.
    Mr. Chairman, that concludes my statement, I will answer any 
questions you may have.
                                 ______
                                 
                Questionnaire for Presidential Nominees
      part 1: all the information in this part will be made public
    1. Name: Gordon Hall Mansfield
    2. Address: 2401 Daphne Lane, Alexandria, Virginia 22306
    3. Position: Assistant Secretary for Congressional Affairs
    4. Date of Nomination: 30 April 2001
    5. Birth date: 15 September 1941
    6. Birth place: Pittsfield, Massachusetts
    7. Marital status: Married to Linda K.C. Mansfield
    8. Children, age: Gordon, age 29; Leon, age 28
    9. Education: Institution (city, state), dates attended, degrees 
received, dates of degrees.
    University of Miami Law School; 1971-1973; Juris Doctor; June 1973
    Washington College of Law; 1969-1971; n/a
    Villanova University; 1959-1964; B.S.; June 1964
    The Peddie School; 1957-1959; Diploma; June 1959
    10. Honors: List all scholarships, fellowships, honorary degrees, 
military medals, honorary society memberships, and any other special 
recognitions for outstanding service or achievement.
    US Army--Distinguished Service Cross, Bronze Star, Purple Heart/
OLC, Vietnam Campaign Medal, National Defense Service Medal, Gallantry 
Cross with Silver Star, Combat Infantrymans Badge, Presidential Unit 
Award All awarded during period of service, 1964-1968
    Villanova University--Alumni Medal for Distinguished Service 1996
    President George H. W. Bush--Presidential Service Award 1991
    11. Memberships: List all memberships and offices held in 
professional, fraternal, business, scholarly, civic, charitable, and 
other organizations for the last 5 years and other prior memberships or 
offices you consider relevant.
    The Florida Bar; American Bar Association; Federal Bar Association; 
Legion of Valor of the United States; Disabled American Veterans; 
Military Order of the Purple Heart; Paralyzed Veterans of America 
(Executive Director, Ex Officio Member of Board of Directors)--resigned 
February 2001; American Legion; The Army and Navy Club of Washington 
D.C., The Capitol Hill Club; Civic Association of Hollin Hills; Nurses 
of the Veterans Administration Foundation (Board of Directors)--
resigned February 2001; The Mills Brothers Society
    12. Employment Record: List all employment (except military 
service) since your twenty-first birthday, including the title or 
description of job, name of employer, location of work and inclusive 
dates of employment.
    4/01 to present, Consultant, Department of Veterans Affairs, 
Washington, D.C.
    4/93 to 3/01, Executive Director, Paralyzed Veterans of America, 
Washington, D.C.
    12/89 to 1/93, Assistant Secretary FHEO, Department of Housing and 
Urban Development, Washington, D.C.
    7/89 to 12/89, Special Advisor to The Secretary, Dept of HUD, 
Washington, D.C.
    6/86 to 7/89, Associate Executive Director of Government Relations, 
Paralyzed Veterans of America, Washington, D.C.
    10/82 to 6/86, National Advocacy Director, Paralyzed Veterans of 
America, Washington, D.C.
    1/81 to 10/82, Associate Legislative Director, Paralyzed Veterans 
of America, Washington, D.C.
    3/79 to 1/81, Attorney, Private Practice, Ocala, Florida
    9/76 to 3/79, Staff Attorney, Marion County Legal Aid, Ocala, 
Florida
    1/62 to 6/63, Proof Reader, Triangle Publications, Inc., 
Philadelphia, PA
    13. Military Service: List all military service (including reserve 
components and National Guard or Air National Guard), with inclusive 
dates of service, rank, permanent duty stations and units of 
assignment, titles, descriptions of assignments, and type of discharge.
    9/68--Retired in grade of Captain, US Army for medical reasons, 
Valley Forge Army Hospital, Valley Forge, PA.
    3/68-9/68--Patient in various military facilities, Vietnam, Japan, 
United States
    11/67-2/68--Company Commander, C CO, 1st BN, 501st ABN INF, 101st 
ABN DIV, US Army, Vietnam
    6/67-11/67--Company Commander, C CO, 1st BN, 501st ABN INF, 101st 
ABN DIV, US Army, Ft. Campbell, KY.
    9/66-6/67--Staff Officer and Recon PLT Leader, HHH, 1st BN, 501st 
ABN INF, 101st ABN DIV, Ft. Campbell, KY
    8/65-8/66--Platoon Leader, 2nd LT, C CO, 1st BN, 5th CAV, 1st Cav 
DIV, Vietnam
    6/64-8/65--Basic Training, AIT Training, Officer Candidate School, 
Ranger Training, Airborne Training, Grade of PVT E-1 to 2nd LT, Ft. 
Gordon and Ft. Benning, Georgia
    14. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments other than listed above:
    Executive Committee, Presidents Committee on Employment of PWD
    Advisor, National Council on Disability
    Member, Secretary of Labor's Committee on Veterans Employment
    Member and Chairman, Architectural & Transportation Barriers 
Compliance Board
    15. Published writings: List titles, publishers, and dates of 
books, articles, reports or other published materials you have written.
    Monthly column for Paraplegia News, the national publication of 
Paralyzed Veterans of America; last written in July 1989.
    16. List all memberships and offices held in and financial 
contributions and services rendered to any political party or election 
committee during the last 10 years:
    (a) List all elective public offices for which you have been a 
candidate and the month and year of each election involved: None
    17. Future employment relationships
    (a) State whether you will sever all connections with your present 
employer, business firm, association, or organization if you are 
confirmed by the Senate:
    Yes, I have resigned from Paralyzed Veterans of America.
    (b) State whether you have any plans after completing Government 
service to resume employment, affiliation, or practice with your 
previous employer, business firm, association or organization: No
    (c) What commitments, if any, have been made to you for employment 
after you leave Federal service? None
    (d) (If appointed for a term of specified duration) Do you intend 
to serve the full term for which you have been appointed? N/A
    (e) (If appointed for indefinite period) Do you intend to serve 
until the next Presidential election? Yes
    18. Potential Conflicts of Interest
    (a) Describe any financial arrangements, deferred compensation 
agreements, or other continuing financial, business, or professional 
dealings which you have with business associates, clients, or customers 
who will be affected by policies which you will influence in the 
position to which you have been nominated: None
    (b) List any investments, obligations, liabilities, or other 
financial relationships which constitute potential conflicts of 
interest with the position to which you have been nominated: None
    (c) Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that 
constitutes as potential conflict of interest with the position to 
which you have been nominated: None
    (d) Describe any lobbying activity during the past 10 years in 
which you have engaged for the purpose of directly or indirectly 
influencing the passage, defeat, or modification of any Federal 
legislation or for the purpose of affecting the administration and 
execution of Federal law or policy.
    I have testified on behalf of and supported various initiatives 
that relate to and support veterans, people with disabilities, and 
issues regarding access to the built environment, while serving as 
executive director of Paralyzed Veterans of America.
    (e) Explain how you will resolve any potential conflicts of 
interest that may be disclosed by your responses to the above items. 
(Please provide a copy of any trust or other agreements involved.) N/A
    19. Testifying before the Congress
    (a) Do you agree to appear and testify before any duly constituted 
committee of the Congress upon the request of such committee? Yes
    (b) Do you agree to provide such information as is requested by 
such a committee? Yes
                                 ______
                                 
Response to Written Questions Submitted by Hon. Arlen Specter to Gordon 
                              H. Mansfield
    Question 1. Veterans have complained to the Committee staff that VA 
discourages them from seeking help from Members of Congress regarding 
their claims; they are told, we hear, that Congressional involvement 
will delay an already lengthy process. If you are confirmed, you will 
head the VA office which is the primary point of contact for the 
Congress on matters of constituent casework. How will you address what 
many veterans perceive as VA ``scare tactics'' in discouraging 
communications with Congress?
    Answer. I regret to hear that any communication between the 
Department and those veterans it serves would be perceived as ``scare-
tactics.'' I have heard, in the past, that veterans may have been 
advised that a congressional inquiry would result in pulling that claim 
out of its place in the queue. I have been told that the Veterans 
Service Representatives do not discourage veterans from contacting 
Members of Congress for assistance with their claims. If confirmed, I 
would seek to ensure that no veteran feels that the Department would, 
directly or indirectly, discourage anyone from fully pursuing his or 
her rights. If I learned of a situation where this practice was not 
being followed, I would personally intervene.
    Question 2. Timely receipt of information requests from VA is 
essential if this Committee is to carry out its legislative and 
oversight responsibilities. Can we count on you, if you are confirmed, 
to treat requests for information with the utmost importance? Can we 
rely on you to assure that short deadlines placed on your office by 
those requests will be met? Do you think you will have the power to 
force a reluctant or nonresponsive VA bureaucracy to comply with 
Congressional information requests on a timely basis?
    Answer. I am personally committed to improving the Department's 
communications with Congress. In my view, it is paramount that VA's 
communications with Congress be prompt, accurate and responsive. I 
recognize that if confirmed, I would have a unique opportunity to 
foster a positive relationship and to improve the Department's record 
with regard to quality and timeliness of responses to requests and 
inquiries from Congress. Further, one aspect of the role of the 
Assistant Secretary for Congressional and Legislative Affairs is to 
develop relationships with the senior leadership in the various VA 
administrations and staff offices and to increase their understanding 
of the benefits of being responsive and timely to Congressional 
inquiries.
    Question 3. United States Senators require that their personal 
offices--both in Washington and within their States--receive accurate, 
responsive, and timely service from VA medical centers and regional 
offices when they seek to provide constituent services. Do you agree? 
Will you perform a review of how local VA facilities respond to such 
inquiries--starting, for example, in Pennsylvania?
    Answer. I absolutely agree that all Members of Congress should 
expect no less than accurate and timely responses to inquiries they may 
have of the Department, both at the local level and here in Washington, 
If confirmed, I intend to meet with each of the Under Secretaries to 
review how well their field facilities respond to requests and 
inquiries from State and District offices of Members. Where I find 
areas of concern, I and my staff will work closely with those offices 
to correct the specific problems. I would be happy to make the initial 
evaluation in the State of Pennsylvania.
    Question 4. Do you have the authority to require that VHA and VBA 
staff be properly responsive to Congressional office requests for 
constituent service assistance? If not, can you be of any assistance in 
assuring such responsiveness?
    Answer. While I do not have specific authority to require other VA 
elements to be responsive, one of my first actions will be to meet with 
all Administration Heads, Assistant Secretaries and Key Officials 
asking that they and their managers make a commitment to provide 
Congress quality information to meet assigned deadlines, in Washington 
and at the field level. Further, I will review the current constituent 
service processes in place and assist with any adjustments that may be 
needed for their improvement.
    Question 5. With the exception of your service as Assistant 
Secretary at HUD from 1989 to 1993, you have been with the Paralyzed 
Veterans of American since 1981. You served, most recently, as 
Executive Director of PVA. Can a former CEO of a veterans service 
organization adequately set aside the goals of the organization and 
faithfully serve the Secretary and the President? Do you believe that 
you will be able to carry out orders to take actions at VA that are 
contrary to the positions you held and believed in and presumably still 
believe in at PVA?
    Answer. I assure you that I will faithfully serve the Secretary and 
the President. I understand and appreciate the concerns you express 
about my ability to carry out orders to take actions at VA that may be 
contrary to positions I held at PVA. Not having a specific issue or 
issues identified makes answering this question very theoretical, 
though I can say that I am here to serve because I believe that 
Secretary Principi has a personal commitment to carrying out the 
Agency's mission to serve veterans and their families. I intend to 
assist him to the very best of my ability in fulfilling that 
commitment.
    Question 6. Congressionally mandated reports are frequently not 
delivered by VA until well after statutory deadlines. More often than 
not, Committee staff must request progress reports on the status of 
mandated reports which are past due. For example, a program evaluation 
report on benefits for widows, mandated by law in the 105th Congress 
and due one year ago, has still not been delivered to Congress. How 
will you, if confirmed, address this problem? How will you assure that 
requested or mandated reports are delivered on time.
    Answer. As you know, the Office of Congressional and Legislative 
Affairs (OCLA) was reorganized last year and a Congressional Reports 
and Correspondence Service (CRCS) was created. The Service, in 
particular, will focus on facilitating VA review and ensuring the 
accuracy, consistency and the timely furnishing of materials to Capitol 
Hill. I have already held meetings with the recently hired Service 
Director to share with him my personal view that VA must do better in 
meeting deadlines for mandated reports. If confirmed, I will be 
receiving regular reports on timeliness of reports and will take 
appropriate actions if I do not see quantifiable improvements.
    I firmly believe the newly organized OCLA is an integral component 
to successfully improving our communications with Congress. All VA 
organizations have been asked to identify a primary point of contact to 
work closely with the staff of CRCS to ensure the quality and 
promptness of the Department's Congressional Communications. You have 
my assurance and commitment that improving VA's responsiveness to 
Congressional concerns will be one of my primary goals.
    Question 7. Many members of this Committee, and the Senate as a 
whole, are concerned about the implications of the CARES process. Will 
you pledge to devote time to assuring that concerned members of the 
Congress are kept abreast of progress and changes as a result of the 
CARES process?
    Answer. I share your view that decisions made as an outgrowth of 
the CARES process could be far reaching and have significant 
ramifications of interest and concern to Members. Consequently, I would 
commit to devoting whatever time and effort are needed to ensure that 
all affected Members of Congress are kept informed of the process, of 
the recommendations, and of the decisions made in the context of CARES. 
Indeed, as a former Veterans Service Organization official, I am keenly 
aware of VA's responsibility to keep all stakeholders informed of and 
involved in the process, so that ultimately, the history, plans and 
decisions emanating from the process are fully understood by Members. I 
am told that the CARES process currently includes requirements for 
soliciting input and keeping Congress informed. If confirmed, I will 
closely review the communications plan in place to ensure that it is 
appropriate.
    Question 8. Do you have any conflicts of interest which you have 
not fully disclosed to the Committee, or do you know of any other 
matter which, if known to the Committee, might affect the Committee's 
recommendation to the Senate with respect to your nominations?
    Answer. No
    Question 9. Have you fully and accurately provided financial and 
other information requested by the Committee, and do you now affirm 
that that information is complete, accurate, and provided in a form not 
designed to evade?
    Answer. Yes
    Question 10. Do you agree to supply the committee such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversignt and legislative capacities for so long 
as you shall serve in the position for which you now seek confirmation?
    Answer. Yes
    Question 11. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Answer. Yes

    Chairman Specter. Thank you, Mr. Mansfield. Your reference 
to your wife suggests that we be very pleased to welcome her 
here. If she would rise.
    [Applause.]
    Chairman Specter. Welcome.
    Ms. Higgins, do you have any family members here?
    Ms. Higgins. I do, but I think they might have gone out to 
feed the meter. [Laughter.]
    Chairman Specter. Well, first things first.
    Ms. Higgins. Exactly. I have some family that lives here in 
the area, my sister-in-law, Barbara Ross, and her daughter, my 
niece, Hannah Ross.
    Chairman Specter. They are not here at the moment?
    Ms. Higgins. They are not here, but maybe they will read 
this in the record.
    Chairman Specter. Dr. Mackay, any relatives here?
    Mr. Mackay. Yes, Senator, my wife, Heather, who is a native 
Pennsylvanian, and her parents still live there. Heather. 
[Applause.]
    Chairman Specter. Where in Pennsylvania?
    Mrs. Mackay. Springtown, PA. It is a very small town.
    Chairman Specter. Nice to have you here.
    Dr. Lozada, any relatives here?
    Mr. Lozada. Yes, sir, I have Dr. Enrique Mendez, who is my 
mentor of 30 years and was Assistant Secretary of Defense for 
Health Affairs during the first Bush administration.
    Chairman Specter. Would you stand, please.
    Mr. Lozada. And Ms. Jane Sneed. [Applause.]
    Chairman Specter. Thank you.
    Mrs. Cragin, do you have relatives here?
    Mrs. Cragin. Yes, sir, my husband, Charlie. [Applause.]
    Chairman Specter. Senator Rockefeller is due in another 
meeting, so he is going to have to leave us, although he has 
done yeoman work here today. Thank you, Senator Rockefeller.
    Mr. Mansfield, it was a surprise to me to hear complaints 
from veterans that the Veterans Administration discourages them 
from seeking help from Members of Congress regarding their 
claims. Do you know that to be true?
    Mr. Mansfield. No, sir, I do not know it to be true, and I 
would like to followup on exactly where that information came 
from.
    Chairman Specter. I would appreciate it if you would.
    We have a series of questions for you, as we do for others, 
to be submitted for the record.
    We send a lot of requests over to the Veterans 
Administration and they customarily come back, as is the 
practice with other Federal agencies, signed by the Liaison 
Officer. We would like you to give special attention to 
inquiries which come from this committee. I would be surprised 
if your answer was other than we will certainly do that. 
[Laughter.]
    Mr. Mansfield. You can be absolutely sure that I will 
certainly do that, sir.
    Chairman Specter. We have good cooperation generally, but 
cooperation is never quite as good as it is before 
confirmation. That is important to carry forward our 
responsibilities.
    What suggestions do you have, Mr. Mansfield? You have been 
in the field for a long time. What should the Veterans 
Administration be doing that it is now not doing? You only have 
5 minutes to answer. [Laughter.]
    Mr. Mansfield. I would prefer to concentrate on what the 
Office of Congressional and Legislative Affairs would be doing 
in the future because that is going to be my focus.
    Chairman Specter. Start there.
    Mr. Mansfield. What I would also recognize is the fact 
that, in my view, the Office of Congressional and Legislative 
Affairs is vitally important. The reason for the existence of 
the agency, the authorizing legislation, the funding for the 
agency on a yearly basis, and the oversight that is performed 
on the agency comes from Congress. So, therefore, the agency's 
relationship with Congress is vitally important to ensure that 
it has the authority to do what it needs to do, that changes 
are made as we go along and seek corrections that need to be 
made, that the funding----
    Chairman Specter. Do you have any insights as to what 
congressional relations could do better than it is now doing?
    Mr. Mansfield. I think the concentration needs to be on the 
communications and the timeliness, making sure that we 
understand exactly what the members of the committee and the 
staff want and need, and that we get it to them in a timely 
manner. Another improtant issue for the Office of Congressional 
and Legislative Affairs deals with congressional reports. That 
is a new responsibility for Congressional Affairs, one that we 
are currently assessing and establishing process and procedures 
for, and one that I would like to concentrate on so that, 
again, we can get the Congress the information that it needs to 
do its job in authorizing or budgeting or oversight.
    The overall agency issues which need attention I think have 
been identified by the Secretary. He has made the point that in 
the area of benefits, he wants to ensure that the backlog is 
taken care of. In health care, he wants to make sure that we 
deliver good quality health care in a timely manner. He has 
indicated that the personnel change that is coming with the 
aging work force is important. The information technology issue 
is important. Also the interraction and cooperation of the 
various administrations and staff offices within the Department 
have been identified by the Secretary as in important issue to 
focus on. <greek-l>
    Chairman Specter. Mr. Mansfield, I am going to ask you to 
do the same thing I have asked the others. Within 60 days, give 
us an appraisal of the 10 key problems and what you think ought 
to be done about them. That is beyond the purview, really, of 
your specific job title, but with your extensive experience 
with your service organization, I am sure you have a lot of 
insights and we would appreciate having the benefit of them for 
the committee.
    Mr. Mansfield. Yes, sir. deg.
    Chairman Specter. Anybody have anything else they would 
like to say?
    [No response.]
    Chairman Specter. That concludes our hearing. Thank you all 
very much.
    [Whereupon, at 1112 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
